<html>
<title> - U.S. DEPARTMENT OF VETERANS AFFAIRS BUDGET REQUEST FOR FISCAL YEAR 2015</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




 
 U.S. DEPARTMENT OF VETERANS AFFAIRS BUDGET REQUEST FOR FISCAL YEAR 2015

=======================================================================

                                HEARING

                               before the


                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                        THURSDAY, MARCH 13, 2014

                               __________

                           Serial No. 113-57

                               __________

       Printed for the use of the Committee on Veterans' Affairs
       
       
       
       
       
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






           Available via the World Wide Web: http://www.fdsys.gov
           
           
           
           
           
           

                                        ____________
               
                             U.S. GOVERNMENT PUBLISHING OFFICE
  87-670 PDF                          WASHINGTON : 2015             
    
        _________________________________________________________________________________
    For sale by the Superintendent of Documents, U.S. Government Publishing Office,
          Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001







       
       
       
       
       


         
                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

DOUG LAMBORN, Colorado               MICHAEL H. MICHAUD, Maine, Ranking 
GUS M. BILIRAKIS, Florida, Vice-         Minority Member
    Chairman                         CORRINE BROWN, Florida
DAVID P. ROE, Tennessee              MARK TAKANO, California
BILL FLORES, Texas                   JULIA BROWNLEY, California
JEFF DENHAM, California              DINA TITUS, Nevada
JON RUNYAN, New Jersey               ANN KIRKPATRICK, Arizona
DAN BENISHEK, Michigan               RAUL RUIZ, California
TIM HUELSKAMP, Kansas                GLORIA NEGRETE McLEOD, California
MIKE COFFMAN, Colorado               ANN M. KUSTER, New Hampshire
BRAD R. WENSTRUP, Ohio               BETO O'ROURKE, Texas
PAUL COOK, California                TIMOTHY J. WALZ, Minnesota
JACKIE WALORSKI, Indiana
DAVID JOLLY, Florida
                       Jon Towers, Staff Director
                 Nancy Dolan, Democratic Staff Director

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.







                                    (II)






                            C O N T E N T S

                              ----------                              
                                                                   Page

                        Thursday, March 13, 2014

U.S. Department of Veterans Affairs Budget Request for Fiscal 
  Year 2015......................................................

                           OPENING STATEMENTS

Hon. Jeff Miller, Chairman.......................................     1
    Prepared Statement...........................................    34
Hon. Michael Michaud, Ranking Minority Member....................     2
Hon. Corrine Brown
    Prepared Statement...........................................    35

                               WITNESSES

Hon. Eric K. Shinseki............................................     4
    Prepared Statement...........................................    35

    Accompanied by:

        Hon. Robert A. Petzel, MD, Under Secretary for Benefits, 
            Department of Veterans Affairs
        Hon. Allison A. Hickey, Under Secretary for Benefits, 
            Department of Veterans Affairs
        Hon. Steve L. Muro, Under Secretary for Memorial Affairs, 
            Department of Veterans Affairs
        Ms. Helen Tierney, Executive in Charge for the Office of 
            Management and Acting Chief Financial Officer 
            Department of Veterans Affairs
    and
        Mr. Stephen Warren, Executive in Charge for Information 
            and Technology, Office of Information, Department of 
            Veterans Affairs

                   MATERIALS SUBMITTED FOR THE RECORD

Paralyzed Veterans of America....................................    45
Veterans of Foreign Wars fo the United States....................    49
Disabled American Veterans.......................................    51
Statement of Diane M. Sumatto, Director of AMVETS................    58
The American Legion..............................................    61


U.S. DEPARTMENT OF VETERANS AFFAIRS BUDGET REQUEST FOR FISCAL YEAR 2015

                        Thursday, March 13, 2014

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 10:00 a.m., in 
Room 334, Cannon House Office Building, Hon. Jeff Miller 
[chairman of the committee] presiding.
    Present:  Representatives Miller, Lamborn, Roe, Flores, 
Runyan, Benishek, Huelskamp, Coffman, Walorski, Michaud, Brown, 
Takano, Brownley, Titus, Kirkpatrick, Negrete-McLeod, Kuster, 
O'Rourke, and Walz.

           OPENING STATEMENT OF CHAIRMAN, JEFF MILLER

    The Chairman. Good morning, everybody. I want to welcome 
each and every one of you here this morning to our hearing on 
the President's fiscal 2015 budget request for the Departments 
of Veterans Affairs.
    Mr. Secretary, we are glad to have you back with us here in 
the room. I appreciate your attendance and that of your entire 
leadership team.
    We have only had a short time to review the details of the 
budget request, so I am sure that we will likely have some 
follow-up questions after the hearing. And as usual, I would 
ask for you and your folks' cooperation in trying to get the 
answers to those questions to us as quickly as possible.
    You know, in a fiscal climate that has seen budget cuts all 
the way to the bone, funding for our veterans has emerged as an 
obvious priority for both the Administration and the Congress. 
For that, I commend you for your leadership and fighting to 
ensure that veterans of this country remain a priority.
    I also want to commend VA on the operation of its veterans' 
crisis line. I have heard some really positive feedback in the 
most recent days. Paul Rieckhoff was testifying in the joint 
hearing over in the Senate and your statement that roughly 
35,000 men and women have been rescued from suicide because of 
VA's intervention, it is the rough equivalent of two army 
divisions. And certainly that speaks for itself and is a great 
success. So with that, we say keep up the good work.
    I have listened carefully in the last few weeks to 
testimony from a whole myriad of veteran service organizations 
who testified before our committees regarding the need to 
improve timely delivery of mental healthcare, to not only 
ensure that healthcare is delivered in state-of-the-art 
facilities, and to sustain VA's progress in reducing the 
backlog that exists out there, but also making sure that we 
have timely decisions and accurate decisions on the backlog of 
claims that exist out there.
    When I look at this $163.9 billion budget request, I am 
left wondering why we cannot do better than we are in some 
areas. I think it is fair to say that Congress has supported 
nearly every request that the Administration has asked for when 
it comes to our veterans, yet I think we can all acknowledge 
that serious problems still exist within the system.
    Although it is nice to see a steady downward trend in the 
backlog over the last year, what I am hearing from veteran 
service organizations and veterans themselves is that VA is 
sacrificing accurate decisions for fast decisions and that it 
is falling behind on appeals.
    With the record funding provided in this area over the last 
decade both in manpower and in technology, it is frustrating, I 
think, to all of us to continue to hear some of those same 
complaints.
    And I am also concerned about continued inspector general 
and media reports regarding preventable deaths at a number of 
VA facilities across the country. I know that VA is not 
infallible, but serious, even deadly mistakes merit swift and 
clear accountability.
    I know you believe as I believe and we are ready to work 
with you and your agency to give you any of the tools that you 
need in order to get the job done.
    I am going to follow-up on this last issue in questioning, 
but I am troubled with what appears to be a common practice 
with VA's budget submissions of late. And that is to identify 
based on updated information excess funds that are no longer 
necessary, then redirecting those funds toward initiatives that 
were budgeted and appropriated in advance at a lower level.
    For example, VA overestimated by about $700 million what it 
needs for long-term care resources in fiscal year 2015, but now 
the agency wants to redirect all of that money and more towards 
its homeless initiatives, facility activations, and other 
needs.
    In fact, notwithstanding the overestimation of $700 
million, VA now seeks a supplemental budget for fiscal year 
2015 of $368 million. Needless to say, I think this practice 
needs further discussion.
    Mr. Secretary, these are just a couple areas I would like 
to address with you this morning. In the interest of time, 
however, I am going to recognize the ranking member for his 
opening statement.

    [The prepared statement of Chairman Jeff Miller appears in 
the Appendix]

 OPENING STATEMENT OF MICHAEL MICHAUD, RANKING MINORITY MEMBER

    Mr. Michaud. Thank you very much, Mr. Chairman, for holding 
this hearing.
    And thank you, Mr. Secretary, and the panel for being here 
this morning as well.
    Mr. Secretary, I would like to begin by noting that in your 
written statement, you applaud, and I quote, ``Congress's 
foresight,'' end of quote, in providing for advanced 
appropriation for the Department of Veterans Affairs' 
healthcare budget.
    This committee is again trying to show that foresight in 
looking down the road and providing advanced appropriation 
authority for the remaining 14 percent of the Department of 
Veterans Affairs' discretionary budget.
    As you know, H.R. 813, Putting Veterans' Funding First Act 
of 2013, would give the Department of Veterans Affairs a 
certain and stable budget. It would also implement some vital 
planning and programming provisions.
    You have seen firsthand how valuable these can be. Help us 
help you and the veterans you serve by coming out today in 
support of H.R. 813.
    This morning, we are discussing the budget for fiscal year 
2015 and 2016. Mr. Secretary, two of the VA's top three goals 
have due dates in 2015, eliminating veterans' homelessness and 
eliminating the disability claims backlog.
    My question to you and a perspective is, I believe that we 
should take in regard to this hearing is, does this proposed 
budget provide the Department of Veterans Affairs with all the 
resources needed to meet both of these goals in 2015? If not, 
now is the time to let us know what you need to meet both those 
goals.
    I have been a champion, as you know, of improving access, 
especially for rural veterans, since I first came to Congress 
in 2003. As such, your third goal of improving veterans' access 
to benefits and services is of special interest to me.
    Today I hope to receive some assurance that the Department 
of Veterans Affairs is pursuing new technologies, 
infrastructure, and construction management process that will 
increase access to all veterans.
    And, finally, in December, the Department of Veterans 
Affairs issued a final rule granting a presumption for certain 
illnesses relating to traumatic brain injury. In the past, the 
Department of Veterans Affairs has pointed to past presumptions 
for leading up to the disability claims backlog. And today I 
look forward to hearing what advanced planning you are doing to 
ensure that this does not happen again when you look at 
presumption as it relates to TBI.
    And, Secretary Shinseki, this will be the sixth time that 
you have come before this committee to discuss the Department 
of Veterans Affairs' budget, more times than any other previous 
secretary, so I applaud you for your willingness to serve as 
the secretary for that many years. And I want to thank you for 
your continued service to our veterans and to the Department of 
Veterans Affairs and to the Nation, and I look forward to your 
testimony today.
    And with that, Mr. Chairman, I yield back the balance of my 
time.
    The Chairman. Thank you very much.
    Members, at this time, I want to recognize our first and 
only panel that will be with us this morning. We are going to 
hear testimony from the Honorable Eric K. Shinseki, secretary 
of the Department of Veterans Affairs.
    Accompanying the secretary this morning is the Honorable 
Robert A. Petzel, under secretary for Health; the Honorable 
Allison A. Hickey, under secretary for Benefits; the Honorable 
Steve L. Muro, under secretary for Memorial Affairs; Ms. Helen 
Tierney, executive in charge for the Office of Management and 
acting chief financial officer; and Mr. Stephen Warren, the 
executive in charge for Information and Technology within the 
Office of Information and Technology at the Department of 
Veterans Affairs.
    Secretary Shinseki, you are now recognized for your 
testimony, sir.

 STATEMENT OF ERIC K. SHINSEKI, SECRETARY, U.S. DEPARTMENT OF 
   VETERANS AFFAIRS, ACCOMPANIED BY ROBERT A. PETZEL, UNDER 
 SECRETARY FOR HEALTH, DEPARTMENT OF VETERANS AFFAIRS; ALLISON 
A. HICKEY, UNDER SECRETARY FOR BENEFITS, DEPARTMENT OF VETERANS 
 AFFAIRS; STEVE L. MURO, UNDER SECRETARY FOR MEMORIAL AFFAIRS, 
  DEPARTMENT OF VETERANS AFFAIRS; HELEN TIERNEY, EXECUTIVE IN 
CHARGE FOR THE OFFICE OF MANAGEMENT AND ACTING CHIEF FINANCIAL 
   OFFICER, DEPARTMENT OF VETERANS AFFAIRS; STEPHEN WARREN, 
 EXECUTIVE IN CHARGE FOR INFORMATION AND TECHNOLOGY, OFFICE OF 
   INFORMATION AND TECHNOLOGY, DEPARTMENT OF VETERANS AFFAIRS

    Secretary Shinseki. Well, thank you, Mr. Chairman.
    Chairman Miller, Ranking Member Michaud, distinguished 
Members of the committee, thanks for this opportunity to 
present to you the President's fiscal year 2015 budget and 
fiscal year 2016 advance appropriations requests for the 
Department of Veterans Affairs.
    As the Ranking Member noted, I am working my sixth budget 
cycle with you and together we have made a lot of progress. I 
express our thanks from all of us at VA. We deeply appreciate 
your unwavering support for our veterans and our past five 
years of work, I think, reflects a good bit of that commitment.
    Let me also acknowledge the representatives of our Veteran 
Service Organizations who are here today. Their insights and 
support make us better at caring for veterans, their families, 
and our survivors.
    Mr. Chairman, thank you for introducing the members of my 
panel here, and I have a written statement which I ask to be 
submitted for the record.
    The Chairman. Without objection.
    Secretary Shinseki. Thank you, Mr. Chairman.
    The Fiscal Year 2015 budget and 2016 advance appropriations 
requests demonstrate once again President Obama's steadfast 
commitment to our Nation's veterans. His leadership and the 
support of the Congress and especially Members of this 
committee has allowed us for five years now to answer one of 
our abiding guides and that is President Lincoln's charge from 
149 years ago to the American people to care for those who 
shall have borne the battle, their families, and our survivors.
    I thank the Members for your commitment to veterans and 
seek once again your support for these budget requests.
    The President's vision reflected in these budget requests 
is about empowering veterans to help lead the rebuilding of the 
middle class in this country much as they did following World 
War II through access to quality healthcare, benefits, 
training, education, and employment that enabled achieving the 
American dream.
    VA's 2015 budget request seeks $163.9 billion, $68.4 
billion of that in discretionary funding, including medical 
care collections, and that is an increase of three percent 
above our 2014 enacted funding level.
    And the other piece of that budget request is $95.6 billion 
in mandatory funding. This budget also requests $58.7 billion 
for the fiscal year 2016 advance appropriations for medical 
care, an increase of $2.7 billion or 4.7 percent above the 2015 
budget request that we are submitting today.
    This is another strong budget and your support of it is 
critical to providing veterans the care and benefits they have 
earned through their service and sacrifice. It enables VA to 
further the three significant top priorities that we have 
discussed budget after budget cycle here, and laid out for you 
our plans and our progress.
    The first is expanding veterans' access to benefits and 
services; the second, eliminating the disability claims backlog 
in 2015; and, thirdly, ending Veterans' homeless in 2015 as 
well.
    Since 2009, we focused the resources you have provided to 
address these three key priorities, among other requirements. 
These three have been the driving force behind our efforts to 
serve veterans better.
    And where it comes to access, I would report that more than 
two million additional veterans have enrolled in VA healthcare. 
We opened our 151st hospital, our first in 17 years, and we 
have increased our community-based outpatient clinics by a net 
of 55, bringing our total CBOCs today in this country to 820.
    More than a million veteran and family member students have 
received VA educational assistance and vocational training. 
Nearly 90 percent of all veterans now have a burial option 
within 75 miles of their home, and our plans are to increase 
that to 96 percent by 2017, so just a way ahead beyond these 
budget requests.
    In terms of disability claims, the backlog has declined 40 
percent in the past 12 months. We are transitioning from paper 
to digital processing and we are on track to end the backlog in 
2015.
    In terms of veterans' homelessness, the estimated number of 
homeless veterans fell by 24 percent between 2010 and 2013 and 
we expect another reduction when this year's point in time 
count, which was taken in January, is tallied.
    These are some of our key accomplishments. The momentum is 
up. I think we are making good progress across the board and we 
will continue to leverage every resource in these budget 
requests to do what is right for veterans.
    In closing, I would say as we have for five years now, I 
assure the committee that we will use these resources that the 
Congress provides effectively, efficiently, and with 
accountability to best care for veterans.
    So, again, Mr. Chairman, Members of the committee, thank 
you for the opportunity to appear here today and for your 
continued support of veterans. We look forward to your 
questions.

    [The prepared statement of Eric K. Shinseki appears in the 
Appendix]

    The Chairman. Thank you very much, Mr. Secretary, for your 
testimony. I am sure we all have a significant amount of 
questions that we would like to ask.
    If I can, I would like to talk about Senator Sanders' 
legislation that he had proposed, Senate 1982, on the floor a 
couple of weeks ago, which incorporated a number of House bills 
that have passed this committee and the full House. And we have 
actually sent it over, and we await the Senate's response.
    But like many committee Members here, I support a great 
number of the pieces of legislation that Senator Sanders had, 
but I would like to get your take, if you would, on some of 
those pieces that he included.
    I think it was in Section 301 of the bill that mandates the 
enrollment of certain Priority 8 veterans by December 31st of 
2014. And I noted that the Administration embarked on a limited 
expansion of Priority 8 veterans being able to use VA about 
five years ago.
    So my question is, does the Administration support an 
expansion beyond what you have already allowed and, if so, what 
resources would be required before such an expansion could be 
accommodated without negatively impacting existing healthcare 
being provided to users within the system?
    Secretary Shinseki. Mr. Chairman, when we focused on 
Priority Group 8 veterans five years ago, we had a number in 
mind that established a goal, what we thought we would see join 
us. In many ways, the specific focus on Priority Group 8 
veterans became somewhat less focused because many ended up in 
other higher categories and, therefore, were able to join us.
    And we exceeded the number of veterans we thought would be 
in this Priority Group 8 category. I think it was about 500,000 
that was a rough target that we thought would respond 
incrementally over time.
    I would say that over the last five years, we have had over 
two million veterans join VA's rolls for healthcare. And so 
while we have exceeded the number, a little bit of the priority 
group focus was addressed when veterans qualified for other 
categories.
    The Chairman. But going back to category----
    Secretary Shinseki. We met the initial milestones we set.
    The Chairman. Correct. And I am just saying now if you 
expand it beyond what you had already opened up, what would the 
agency need in order to expand for all Category 8s?
    Secretary Shinseki. I do not know that we have made a 
financial assessment to respond to that question.
    The Chairman. Would the Administration support opening up 
for----
    Secretary Shinseki. I would be happy to provide an estimate 
of what the cost might be, but I have not done that personally.
    The Chairman. And in Section 303 of the bill, it expands 
the caregiver program to all eras of veterans. And I note from 
a report from last July, I think it was, that VA says they 
cannot responsibly advise the Congress on expansion without 
realistic consideration of the resources necessary to carry out 
the expansion.
    In the same report, it stated that VA believes that 
expansion poses the risk of compromising resources needed for 
its core veteran healthcare mission.
    So my question is, does the Administration now support this 
provision?
    Secretary Shinseki. Here again, Mr. Chairman, I think when 
we put the program together, we expected about a 3,000 
population of caregivers that would meet the requirements of 
the law. Today we are over 13,000. And I just share that with 
you to understand how popular and how helpful this program has 
been.
    To the degree we can, we are interested in helping all of 
our caregivers who have responsibilities for veterans who have 
served this country, and I have an appreciation of what 
caregivers have to go through. This is a good program and I am 
happy to work with you in answering that question.
    The Chairman. And one other real quick question is, part of 
Senator Sanders' bill provided dental care as well. And my 
question is, does the Administration support that provision?
    Secretary Shinseki. Mr. Chairman, dental healthcare is part 
of our healthcare program, so we provide dental care to 
veterans today. It is based on service connection for dental 
work, and so I would try to understand what the qualifying 
conditions would be.
    The Chairman. And the pilot in the legislation it is a 
comprehensive approach for all veterans to get all dental care 
provided, so it expands way beyond those that may have received 
some type of injury in their service.
    Secretary Shinseki. Sure. And I would say there is a way to 
work with you and also the other body to get language that 
makes sense for providing the best quality healthcare, which 
includes dental healthcare for our veterans.
    The Chairman. Mr. Michaud.
    Mr. Michaud. Thank you very much, Mr. Chairman.
    And thank you again, Mr. Secretary.
    The VA state home construction grant program priority one 
list for fiscal year 2014 lists a total of $489 million, you 
know, waiting for VA funding, projects that are waiting for 
funding. You have requested $80 million for this program for 
fiscal year 2015, $5 million below the 2014 levels.
    In light of the backlog of nearly $500 million in projects 
for fiscal year 2014, what do you anticipate to be the total of 
unfunded priority one projects for fiscal year 2015 if you 
indeed receive $80 million?
    Secretary Shinseki. Well, Mr. Michaud, we have a 
prioritization process here and this is a program that we work 
in collaboration with the states. And there may be a long list 
of projects that we see on the list. Some of them are on hold 
until states can generate their portion of the funding, which 
we then intend--you know, it is our responsibility to try to 
meet.
    If you have a specific state home in mind, I will try to 
address that.
    Mr. Michaud. Well, actually, the priority one list shows 
that in 2014, a backlog of $489 million. Priority one 
applications are those that have, already have state matching 
funds in place. So the state matching funds are there. You have 
that huge backlog currently.
    And my only concern is you are only asking for $80 million, 
which is $5 million less than what--it is a $5 million cut from 
the previous year. So there already is a huge backlog with 
state funds available.
    And the issue here is GAO just came out with a report that 
shows state homes provide cost-effective, long-term care for 
our veterans. So I have a concern with this huge backlog 
already out there with state funding available, that you are 
asking for less money than----
    Secretary Shinseki. Yes.
    Mr. Michaud [continuing]. What you received in the previous 
year.
    Secretary Shinseki. Let me give you a better answer for the 
record. As I say, we work these off in priority. A good bit of 
work goes into this. I would say every now and then, we have 
projects that fall off the list because something happens and 
we move projects up.
    But no question there is a long list of things we would 
like to do. We pay for 65 percent of these projects which is a 
significant investment by the Federal Government.
    Mr. Michaud. Okay. Yeah, if you can get it for the record, 
I appreciate that.
    Secretary Shinseki. Right.
    Mr. Michaud. I also understand that non-VA care 
coordination is designed to ensure a more effective procedure 
to third-party billing and also oversight of the continuity of 
care for our veterans. VHA has been rolling this program out 
over the last year.
    Can you give a status update on non-VA care coordination 
initiatives?
    Secretary Shinseki. Let me call on Dr. Petzel to do this.
    Dr. Petzel. Thank you, Congressman Michaud.
    VA spends approximately $6.8 billion a year on non-VA care 
in a variety of different programs. The thing that I think you 
are talking about directly is the approximately $5 billion that 
we spend on non-VA medical care across the country.
    And in order to provide better access for America's 
veterans that live in rural parts of this country so that they 
can have care that is very similar to the care that you can 
receive in a less rural, more urban area, we have developed a 
program called patient-centered community care or PC3.
    PC3 provides for a standardized way of a physician asking 
for community care or a patient asking for community care, a 
structured referral with a very clear template for what needs 
to be in the request, and then we go to the network that has 
been developed by the two contractors that we have, Health Net 
and TriWest, to identify the providers within their network 
that can meet the need in whatever part of the country it might 
be.
    It is going to provide better access for veterans that live 
in rural America, better choices about where they go, and much 
more timely service. We have in the contract a number of 
requirements regarding timeliness, reporting, et cetera.
    To date, about 5,500 individuals have been involved with 
PC3, contracted PC3 care. It started in January with the 
beginning of the rollout. TriWest's network and now Health 
Net's network is out as well.
    We expect that this is going to be an important part of 
reaching particularly specialty care into rural America for 
veterans that live in those communities.
    Mr. Michaud. Thank you very much.
    I yield. Thank you, Mr. Chairman.
    The Chairman. Mr. Lamborn, you are recognized for five 
minutes.
    Mr. Lamborn. Thank you, Mr. Chairman.
    And thank you all for being here and for your service to 
our veterans.
    Last night, I had a telephone town hall meeting and one of 
the questions that came up is the impending construction of a 
new national veteran cemetery in southern Colorado, in El Paso 
County.
    I want to commend and thank Under Secretary Steve Muro for 
his hard work on this project, and veterans and active-duty 
folks are very excited that that is coming along. So I commend 
you for your contribution to southern Colorado and veterans 
living anywhere near there.
    That will help reach that 96 percent goal that you 
mentioned, Mr. Secretary, of people living within 75 miles of a 
national veteran cemetery.
    Changing subject, I was a little concerned to hear that 
there are continuing, not little, I am very concerned that 
there are some continuing issues with quality control over 
claims processing.
    And an example recently in my office back in Colorado 
Springs is a veteran who waited a year for the claim to be 
processed and then was told that he did not produce enough 
documentation about his service in Vietnam. And he had served 
in Korea and that was what his claim was based on. Now, maybe 
that was a typo or maybe it was actually a sign of inadequate 
claims processing.
    I know that you have a tremendous need and desire to work 
through this big backlog that we have, but I want to make sure 
that we are not sacrificing, and the chairman brought this up a 
minute ago, quantity over quality.
    How would you respond to that, Mr. Secretary?
    Secretary Shinseki. Let me begin and then I will turn to 
Under Secretary Hickey.
    Congressman, I will tell you that no veteran should have to 
wait for benefits and services we provide that they earned a 
long time ago. And so we are committed to making that available 
as quickly as possible.
    The other aspect of that is not going so fast that you lose 
control over the precision of getting it right. And for us, the 
goal is getting it right the first time through. Not only is 
that better for veterans, but it also improves our efficiency. 
Any time you have to handle the same claim more than once, it 
is an increase in workload.
    We in VA are, about one-third of us, about 100,000 of us, 
are veterans. And so looking after veterans' claims issues is 
something we spend a good bit of time on. Fifty percent of VBA 
is veterans. And what you are describing is a lack of precision 
on a point. I would like to get some more details on that.
    Mr. Lamborn. Okay. We can provide those to you.
    Secretary Shinseki. And I will ask Secretary Hickey to talk 
about the overall accuracy picture.
    Ms. Hickey. Thank you, Congressman.
    As the secretary said, our VBA employees are 52 percent 
veteran and many more are a direct family member of a veteran 
or a family member of a serving military member and all of them 
care deeply about delivering both a timely and an accurate 
claim decision for their brothers and sisters whom they have 
served alongside.
    Let me just tell you very quickly that our approach and 
method for determining our quality, it has both been audited 
and validated by an external agency outside of VA and has been 
found to be statistically sound, highly reliable not only for 
the defined governance process but also for the accuracy of the 
results. And it does cover the complete body of claims that we 
do across the board.
    Your budget help over the last couple of years has allowed 
us to take additional steps to improve that quality. The 
budgets associated with training have allowed us to stand up 
challenge training for all of our new employees. That lets us 
improve the skills and abilities of our folks.
    We have made an investment in quality review teams at the 
individual regional offices that have caught errors before they 
become final which is a great way to make sure that does not 
end up in a problem for our veterans.
    Also, we have begun a new process in this last year called 
consistency studies where we send out a scenario and we ask 
everybody to do the exact same scenario, and then we look at 
the consistency of the answers and apply direct training all 
the way down to the employee level, if necessary, to improve on 
the consistency of the responses.
    Mr. Lamborn. Okay. I see we have run out of time and I was 
hoping I would be able to yield some additional time to my 
colleague from Colorado, but I cannot do that.
    So, Mr. Chairman, I yield back.
    The Chairman. Thank you very much.
    Mr. Takano.
    Mr. Takano. Thank you, Mr. Chairman.
    I am not sure who to direct my question to, but I presume 
it is Ms. Hickey. Is the VA working on fully completing the 
long-term solution for the Post-9/11 GI Bill claims so that 
automation will include original claims and supplemental 
claims?
    Ms. Hickey. Thank you, Congressman, for the question.
    Long-term solution is VA's paperless IT system that has 
been put in place to help our student veterans and their family 
members go to school in a timely way and with a high-quality 
accuracy decision.
    I can tell you that we have put new capability into the 
long-term solution that allows now more than 80 percent of our 
claims to go through with the benefit of automation that allows 
us to get those student veterans going to school with very 
quick answers and highly accurate answers.
    Right now we have actually exceeded for more than a year 
now the agency priority goals for both timeliness and accuracy 
for those student veterans. And so our long-term solution is 
proving its value for both original claims and for supplemental 
claims.
    Mr. Takano. Well, how far along are you towards completion 
of the solution and if you still have further to go, how much 
longer will it take and how much more money will it take to 
complete?
    Secretary Shinseki. Let me ask our IT expert to address 
that.
    Mr. Warren. Thank you, sir.
    Right now the system is, we have it in sustainment or in 
operations mode. As Secretary Hickey walked through, we build 
to what the performance goal needs are. So today it is 
exceeding what is needed.
    So as a result of our internal prioritization of resources, 
we move the IT dollars to hit what is not meeting our goals or 
targets we have set. So today we are sustaining the system. We 
are making updates to it as needed.
    But with respect to new capability, that is something that 
is probably projected for the out years because today it is 
doing the job. It is moving those claims through and, as 
Secretary Hickey talked about, tremendous amount of automation 
such that as soon as it comes in, it moves through and we are 
able to get the dollars out to those veterans so they can take 
advantage of that great benefit.
    Mr. Takano. So are you telling me that it is complete for 
the moment?
    Mr. Warren. It is complete for the moment. It meets what 
our mission needs are. And if the mission needs change or if 
legislation comes in that requires more, then we would go back 
and re-look at where we placed our investments to meet those 
needs, sir.
    Mr. Takano. So you do not need additional funding at this 
time?
    Mr. Warren. At this time for the goals that we set, it 
meets those goals, so we have funding needs, and appreciate 
your support for that, to continue running that system in terms 
of paying for the underlying. But with respect to new 
investments right now, there are none planned, sir.
    Mr. Takano. Well, I congratulate you if you have achieved 
your goals and I am pleased to hear that.
    Do you think that this budget and everything that the VA, 
the Department of Defense, and Department of Labor are doing to 
improve the transition process is enough, Mr. Secretary?
    Secretary Shinseki. Let me start and then I will call on 
Secretary Hickey to provide some detail.
    This program began, we have just started this program about 
a year ago. And the program is designed to take care of the 
transition of every servicemember leaving the military.
    The transition assistance program, which is a DoD program, 
has VA representatives as well as Department of Labor 
representatives inserted into the training that goes on for 
every servicemember.
    Every departing servicemember gets a departure physical, 
something that was not done before. And so we have a pretty 
good idea of what the needs are going to be and then the 
transfer of this information to VA is much better than it has 
ever been.
    Your question is it all that we need it to be: is what we 
designed, understanding what we thought the needs are. And we 
will learn as we execute the program, what needs to be 
adjusted. So we are still gathering data.
    DoD has just announced that they will be looking at a 
downsizing requirement which will then allow us to understand 
what our requirements are going to be for throughput and we are 
working with them right now to understand what that plan is.
    Mr. Takano. If I may, and I am going to run out of time, my 
suggestion is that maybe servicemembers should be encouraged to 
start thinking and preparing for the transition much earlier 
than they are.
    Secretary Shinseki. I agree. I agree. And those are 
discussions that both VA and DoD have and understand those 
encouragements occur while they are still in uniform. And I 
know that is a priority at DoD.
    Mr. Takano. Thank you.
    Mr. Chairman, my time is----
    The Chairman. Dr. Benishek.
    Dr. Benishek. Thank you, Mr. Chairman.
    I was looking at, you know, the overall numbers here and, 
you know, I am a little concerned about the care of our 
veterans and, you know, the medical aspect.
    What percentage of the new employees that you are planning 
on hiring will be actual medical care providers and what 
percentages are the, you know, administrative staff?
    Secretary Shinseki. Let me ask Dr. Petzel to discuss that.
    Dr. Petzel. Thank you, Congressman Benishek.
    I would have to go back and look at what the plan is for 
these hires that we probably will make over the next year. I do 
not have in my mind the figure.
    But let me just relate the fact that when we underwent the 
mental health hiring initiative starting in March of 2012 in 
order to provide better access for veterans to mental 
healthcare, we hired what eventually turned out to be 2,400 
clinical professionals in the six different clinical categories 
and about 600 administrative people to help support those.
    Now, whether that plays out in our entire hiring, I would 
have to go back and look.
    Dr. Benishek. I would appreciate to be able to see what 
those kind of numbers look like because, as you know, I am 
interested in making sure that, you know, the people--you are 
running an efficient program and there is more healthcare 
providers than there are, you know, clipboard carrying 
bureaucrats.
    Another question I have to tell you the truth is a little 
bit more about the PC3 program. You know, I have asked--I 
cannot remember who it was I asked about the implementation of 
the program and the amount of people that are actually going to 
participate.
    And I am a little concerned over the what is it going to 
cost the VA to have this intermediary. I mean, there are two 
contractors, right? Was it TriWest and Health Net are the two? 
They are the only two providers in the entire country then?
    I mean, can you tell me why that is and kind of what is the 
percentages that they are going to be taking of the VA's money 
to just organize this network?
    Dr. Petzel. Thank you, Congressman Benishek.
    There are two networks. There are literally thousands of 
providers around the country. We negotiated with those two 
organizations to basically have very close to Medicare rates 
for reimbursement. You cannot get anything better than that.
    They then go out and negotiate with individual providers to 
join their network. So we are expecting, quite frankly, that we 
are going to save money over what we have spent in the past in 
non-VA medical care in those areas where we do use the 
contractors.
    Dr. Benishek. Well, that is my concern, you know, that they 
are going to be paying providers less than Medicare. Are you 
going to get providers to actually sign up?
    Dr. Petzel. To date----
    Dr. Benishek. Like my district, as you know, is very rural.
    Dr. Petzel. Right.
    Dr. Benishek. And, you know, many of my veterans want to 
have access to, you know, multiple facilities like X-ray in 
Sault Ste. Marie rather than to drive to Iron Mountain.
    So are you going to be able to get, you know, the Sault 
Hospital to provide an X-ray when it is going to be paying them 
less than Medicare, maybe close to Medicaid rates? Are they 
going to want to join a network like that?
    Dr. Petzel. We believe that this is going to do a better 
job of providing access across the country for veterans. So 
far, the networks have been very successfully set up according 
to the two network providers. And we have been able to--we have 
had about 5,500 people actually use this and we have been able 
to----
    Dr. Benishek. Five thousand five hundred providers or 
5,000----
    Dr. Petzel. No, 5,500 patients since we--we have just 
gotten started. And we have been able to meet the needs that 
were identified for those patients within the network. So I am 
expecting that again----
    Dr. Benishek. That sounds like a very small number of 
patients, though, Dr. Petzel.
    Dr. Petzel. Oh, it is just starting, sir, just starting.
    Dr. Benishek. Well, I am very concerned about this process 
and I am concerned that there is going to be a difficulty in 
getting enough outside providers.
    I understand the difficulty with the VA individually trying 
to contract providers on your own because I have been a part of 
that, you know, as a physician working for the VA and it is not 
easy to get the payment system arranged in a logical fashion. 
So I understand maybe the need for that intermediary, but I am 
just concerned about people participating in it, frankly, 
because of low reimbursement.
    Secretary Shinseki. Congressman, Dr. Petzel is our expert 
here on these things, but I would say if you look at our 
discussion of delivery of healthcare, this is one of the 
options where we try to get as much access to veterans in as 
many places as we can using the experience of these two 
networks.
    We also still have fee basis that we provide for those 
areas that do not quite fit.
    Dr. Benishek. Well, I guess what I would like is I would 
like to have an update to me as to how much you are actually 
paying.
    If you are paying these guys Medicare rates, are they 
taking 20 percent of the money to provide the network to you? 
You understand me? And how much are we paying this intermediary 
to provide the care to our veterans?
    And, you know, those are tax dollars that these guys are 
making money on and they are not actually providing the care. 
They are just signing everybody up. I just want to know how 
much of the take they are getting.
    Secretary Shinseki. As Dr. Petzel says, we are just getting 
started. We are happy to have that discussion with you.
    Dr. Benishek. Appreciate that. Sorry. My time is up.
    The Chairman. Ms. Brownley.
    Ms. Brownley. Thank you, Mr. Chairman.
    And thank you, Mr. Secretary, for your testimony this 
morning.
    I remain concerned with the mental healthcare needs of our 
Nation's heroes. And I know we have touched upon it this 
morning.
    Three weeks ago, thanks to Dr. Benishek, we had a hearing 
in Ventura County, which is the district that I represent, and 
discovered that the response time in Ventura County is 44 days 
for mental health needs as opposed to, I think the goal was a 
minimum of 14 days.
    So I am wondering, and we talked a little bit about the 
mental health initiative in terms of trying to hire more mental 
health professionals, so I am just wondering, you know, the 
VA's plan is to use the budget to make sure that we are meeting 
the mental health needs of our veterans and sort of what 
metrics we are using to gauge that.
    Clearly we discovered an area within California where the 
response and I think the number of FTEs are below what is 
needed to meet the demand there and what is going to be done 
about that.
    Secretary Shinseki. Congresswoman, let me just say that, we 
all know that we have been at war for a decade, over a decade 
now, and the great young people we send off have done fantastic 
jobs carrying the mission load that we have given them.
    So after ten years, we ought to be very sensitive to this 
area that you talk about. And I would assure you that inside 
this leadership team and throughout VA, this is something that 
we work quite closely. It is trying to understand. First of 
all, it is a difficult area and, secondly, exactly what will 
work.
    And one of the metrics would be what you are talking about, 
the full-time equivalent employees. But we have done other 
things. We have in those areas where we have difficulty hiring 
providers, just because they are not available, we are 
challenged and we have set up a network where a virtual mental 
health connection can be made between an individual in that 
kind of a situation and the rest of the system where we have 
mental health providers, sort of a virtual mental health 
clinic.
    We in our work are a little bit reactive, and this is not 
an excuse, a little bit reactive because we look at who walked 
in for treatment this year and we try to adjust it for next 
year. We do not have a good metric for anticipating what next 
year's load is going to be.
    We put an estimate in there, but it is less precise than we 
would like. And so we are constantly having to look at 
ourselves, looking at those access metrics you describe.
    I am going to ask Dr. Petzel to provide a little more 
detail here, but it is something we adjust over time and we are 
looking at how we sit today.
    Ms. Brownley. Thank you, sir.
    Secretary Shinseki. Dr. Petzel.
    Dr. Petzel. Thank you, sir.
    It is very important to us that we are able to provide good 
access to high-quality mental health services for these people 
who are returning from conflict. As the secretary mentioned, 
multiple deployments and the stress involved in their 
particular circumstance there make them very vulnerable.
    Our fiscal year 2015 budget requests $7.1 billion to treat 
approximately 1.7 million patients with specialized mental 
health services. With the addition of the 2,400 people that I 
spoke about earlier, we have improved access across the 
country. We are not where we want to be yet.
    And there are places such as the Oxnard Clinic, which you 
and Dr. Benishek visited, where for new patients, we are not 
meeting our goals of providing timely access. And there are 
places where we are doing an excellent job of meeting the goals 
of timely access.
    We are in the process of assessing those places where we 
are having difficulty to look at what the recruitment problems 
are and what the issues might be associated with not providing 
timely care.
    I know specifically in Oxnard, as we have discussed, their 
plans to hire two additional psychotherapists which should be 
able to then manage the individual psychotherapy needs for both 
PTSD and depression in that clinic and provide for timely 
access. So we acknowledge the difficulties with Oxnard and also 
the fact that we are, I think, working hard to try and correct 
that situation.
    Ms. Brownley. Thank you, sir.
    My time has run out. I yield back.
    The Chairman. Thank you.
    Mr. Coffman, you are recognized.
    Mr. Coffman. Thank you, Mr. Chairman.
    Secretary Shinseki, as you know, there is current 
litigation between the prime contractor and the VA with regards 
to the cost of construction of the Aurora VA Medical Center. 
The prime contractor is arguing the cost is $1.1 billion and 
the VA argues the cost is $600 million.
    Does the VA have a contingency plan if the prime contractor 
walks off the job or VA realizes a shortfall of between $400 
and $500 million?
    Secretary Shinseki. Congressman, this is in litigation, so 
I cannot go into too much detail except to tell you that for 
the design of the Denver medical center, a contractor was 
brought in early to help with the design and it happened to be 
this contractor. And this contractor then was allowed to 
compete for the project and did and signed the contract at $604 
million. And that is the contract we are pursuing.
    We understand that because of mutual agreement about 
requirements to improve on the contract that the figure has now 
been increased, I think, to $612 million. And this negotiation 
continues. We work with this contractor. It is our intent to do 
that.
    I have not heard from the contractor any indication that he 
is thinking about walking off the project. We certainly, you 
know, hope that is not the case. We are committed to funding 
this project.
    And I would point out, as I mentioned to you in the past, 
this project did not exist before 2009. And today there are 
pilings in the ground and it is going vertical in about five 
years. I think this contract has done well. We just need to 
work out what is usually construction negotiation between a 
contractor and the government.
    Mr. Coffman. If the appeals court does determine that the 
cost is closer to the billion dollar figure than the $600 
million that you have just referenced, would the VA have to ask 
Congress for additional appropriations to complete the project?
    Secretary Shinseki. I will have to see, wait and see what 
the figure that comes out of the appeals process nails.
    Mr. Coffman. That is not the question. The question is, if 
it is closer to a billion dollars, would you have to come 
before Congress for an appropriation?
    Secretary Shinseki. You are asking a hypothetical here, 
Congressman. I do not know. I will have to take a look. I have 
not heard the billion dollar figure before.
    Mr. Coffman. That is in the litigation.
    Secretary Shinseki. Well, we have not accepted all of what 
the contractor said is part of that, so----
    Mr. Coffman. Thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you.
    But I think the question is, if the court's rule is that 
the agency owes an additional $400 million, would that require 
VA to come to Congress for additional funds?
    Secretary Shinseki. It may, but I am not going to speculate 
here today.
    The Chairman. That is not a hypothetical. That is if the 
court rules and says you owe it, I need to know, we need to 
know from an authorization----
    Secretary Shinseki. We may re-prioritize other projects, 
Mr. Chairman----
    The Chairman. I am sorry. I missed that.
    Secretary Shinseki [continuing]. Before I come back. Yes.
    The Chairman. Yeah. I missed----
    Secretary Shinseki. We may look at re-prioritization and 
come to you for reprogramming.
    The Chairman. Reprogramming?
    Secretary Shinseki. Yes.
    The Chairman. But you would have to come to Congress for 
reprogramming or reauthorization----
    Secretary Shinseki. We always do, Mr. Chairman.
    The Chairman [continuing]. Of funds? Mr. O'Rourke.
    Mr. O'Rourke. Thank you, Mr. Chair.
    Secretary Shinseki, I would like to start out by thanking 
you and commending you for your responsiveness to me and to our 
office in the many requests that we have put before you, 
commend your team collectively and individually for their 
responsiveness to us.
    We do not always agree with the conclusions that members of 
your leadership team reach. For example, Mr. Muro and I have 
talked about re-grassing the Fort Bliss Cemetery which right 
now is xeriscaped and covered in essentially gravel and dirt. 
We would love that to be re-grassed. But we are working 
constructively with Mr. Muro to try to beautify what is there 
already and I think that holds true for everyone almost without 
exception.
    I would like to go through a few of our priorities in El 
Paso and I think they pertain to national issues and to the 
fiscal year 2015 budget.
    The first is expanding capacity and quality of care, 
primary care at the El Paso VHA Clinic and ultimately we need a 
full-service veterans' hospital in El Paso. Currently when 
veterans need that kind of care, they are traveling on a 9 to 
10-hour round trip to Albuquerque, New Mexico which is the 
closest full-service VA hospital.
    We looked at the 14-day access numbers in El Paso for the 
last year. In October, only 18 percent of the veterans who are 
trying to see a primary healthcare provider were able to get an 
appointment within 14 days.
    It has improved since then thanks to Mr. John Mendoza and 
his wonderful team of doctors, nurses, and front-line staff in 
El Paso, but it is in desperate need of improvement.
    Second is we need to improve claims' turnaround times out 
of the Waco regional office. It did go from a peak of 470 days 
that the average El Paso veteran was waiting to hear back on 
their claim last year to the current number which is 288. So it 
is an improvement. It is not at 125, but we are moving in the 
right direction. And we thank Under Secretary Hickey and her 
team for helping us out with that.
    Third is the backlog on the IDES claims processing in 
Washington State that our wounded warriors who at the WTU at 
Fort Bliss are languishing for hundreds of days beyond when 
they should be so that they can transition out and get on with 
their lives. We would love your help with that and look forward 
to working with you there.
    And the fourth one, and this is where I want to ask my 
question finally, is on access to mental healthcare and to pick 
up on something that Congresswoman Brownley brought up. That is 
perhaps the most critical issue in El Paso and I would guess in 
other VHA centers around the country.
    When I was running for office, I was approached by a young 
man who just returned from Afghanistan, had PTSD, was using his 
Post-9/11 GI money to go to the El Paso Community College, at 
night was flipping burgers at Carl's Jr., and said I cannot get 
in to see a mental healthcare specialist. I am supposed to be 
in every single week. I am lucky if I get in every 6 to 8 
weeks. When I get in, it is a different counselor each time. I 
have no continuity of care. If I could pay for this myself, I 
would, but I cannot afford it. Will you help me out?
    That anecdote and others that I have heard have since been 
borne out by the statistics that we have seen. The recent SAO 
report puts El Paso at 118 of 128 VHAs around the country for 
access to mental healthcare.
    We surveyed our own veterans' population and found that a 
quarter of them could not make a mental healthcare appointment 
within 1 calendar year.
    So we have been able to work with Dr. Petzel on this. He 
has made a commitment to me and to my team that by May of this 
year, we will get to that 14-day number for 90 to 95 percent of 
the population.
    But my question for you, Secretary Shinseki, and for Dr. 
Petzel is, ours in El Paso, as I heard from Ms. Brownley, is 
not a unique story. What are you going to do in addition to the 
additional $309 million that we are requesting in the fiscal 
year 2015 budget for mental healthcare to surge providers' 
access, care, and resources to these desperately under-served 
areas where we are failing to care for those who have borne the 
battle?
    Secretary Shinseki. Dr. Petzel.
    Dr. Petzel. Thank you, Mr. Secretary.
    Congressman O'Rourke, we, as you have heard me say 
previously, are committed to providing access to these veterans 
who have suffered these invisible wounds of war and are now 
living often for our purposes in terms of not meeting needs in 
relatively remote areas.
    And we have talked about what we are doing in El Paso. 
Specifically I would point out, and I think you know this, that 
the access has improved rather substantially since that survey 
that you did with your constituents.
    What we have done there is, number one, hired up to the 
ceiling that they have, 80 mental health professionals. And 
number two is that we provided for a network of tele-home 
health. Psychiatrist recruitment in El Paso has been difficult 
and they are needed for medication management.
    We have now two tele-health providers, one in Salt Lake 
City, the other in San Diego, who are doing medication 
management and individual psychotherapy via tele-mental health 
very successfully. The patients like it. The service has 
improved dramatically and the access now to those particular 
services.
    But I am empathetic with what your constituents have said. 
We need to be able to assure every veteran that they can get 
ready access to mental health services in El Paso as well as 
every other providing community in the country.
    Mr. O'Rourke. Mr. Chairman, I yield back.
    The Chairman. Mr. Runyan, you are recognized.
    Mr. Runyan. Thank you, Mr. Chairman.
    I am going to have one question. It is probably more 
directed to Under Secretary Hickey dealing with VBA, and we 
talk about the processes and initiatives are outlined in the 
budget and they are centered around concepts and 
centralization, national work queue and centralized mail 
operations.
    The biggest question here is--get that--I think most people 
will ask what are we doing to fix the systematic at--I have had 
the conversation with Ms. Titus--at the Reno office? How are we 
addressing the underperforming things because from a big-
picture view, it looks like we are shifting workload away from 
them to just get the job done. What are we doing to address the 
actual problem in these underperforming offices?
    The Chairman. Secretary Hickey?
    Ms. Hickey. Thank you, Congressman Runyan, for your 
question.
    And I will tell you we are--the entire transformation 
effort--people, the most important piece of it, 52 percent of 
those people doing this job every day are veterans and a large 
portion of them are a direct family member of a veteran or a 
family member of a military--serving veteran, so everybody 
wants to come to work and tries to come to work every single 
day to do the right thing by these men and women they served 
alongside.
    So what I will tell you we have done--and we have talked to 
you about this before and we are seeing great merit from it--
challenge training, which this committee has supported in 
budget; not a cheap venture, but a critically important piece 
of training our entire workforce, no matter where they sit, to 
do a great job every single day from the moment they join us in 
the workforce. We continue those efforts. You see it 
represented in our budget today for fiscal year 2015 continuing 
to grow that way.
    We have taken and done, and thanks to this committee as 
well and its support, station enhancement training where we 
have gone into a complete office and we have stood down and now 
we are doing a non-stand down form of that for other offices 
that are challenged and retrained everybody, top to bottom, 
including leadership, in all of their responsibilities in order 
to get a way ahead and a better result and a better outcome 
every single day.
    The other things that this committee has supported, 
frankly--and I need your support continued--is our IT budget. 
We have built rules into the IT systems that now make it easier 
to deliver on the right and accurate answer every single time. 
That is critically important in this 2015 budget because 
everything now in VBMS forward is about automation and building 
those rules into the system so it eases the burden of 
remembering a book, bigger than the one sitting in front of me 
full of rules, that are the complexity of this kind of 
business. So our IT budget is critical to that aim. We have 
also--and, yes, we are helping across the Nation, all veterans. 
From no matter where we sit, we care about all veterans and 
every bit of those family members that are supported by that 
veteran, no matter the geography of where they sit.
    But first and foremost, the filter for national work, too, 
is, can the regional office where that veteran lives near do 
that work? And if they have a surge because they have had a 
recent redeployment from the theater--some of our states have 
been impacted by a large National Guard redeployment at that 
time and it puts a sudden surge in their system--yes, we are 
helping others from across the Nation. And we can now because 
we are electronic and because this committee has blessed us 
with the IT resources to build a virtual electronic system that 
allows anybody, anywhere to help on that claim for that 
veteran, so it goes better and faster all at the same time.
    Mr. Runyan. Thank you.
    I yield back, Chairman.
    The Chairman. Ms. Kuster.
    Ms. Kuster. Thank you very much, Mr. Chairman. I just have 
a couple of questions. I, first, just want to thank you for 
your attention and I am delighted--I just yesterday spoke with 
the new director at the VA in Manchester, New Hampshire, who 
has now finally been installed and look forward to working with 
her as well.
    So, three quick questions: The first has to do with 
acquisition of medical devices. We have a company in Salem, New 
Hampshire called ``Gamma Medica'' and what they make is a 
medical device that produces bone density imaging to help with 
early detection of breast cancer, and the challenge has been 
two, year-long delays at the National Acquisition Center and so 
that veterans are not getting the opportunity to get access to 
early detection of breast cancer. And I am just wondering if 
there is anything in the budget that is going to help to speed 
up the processes at the National Acquisition Center?
    Dr. Petzel. Thank you, Congresswoman Kuster.
    The need for timely purchase of medical equipment in order 
to, again, be able to meet the needs of veterans who are coming 
to our clinics and our medical centers is very important. And I 
am familiar with--we have gotten some information about--some 
letters from you about Gamma Medica and looking at what we call 
the NAC, the National Acquisition Center, to try and reduce 
this time frame. Currently, two years is what it is taking us 
to acquire more costly medical equipment. We have two pilot 
projects with the NAC; they have a streamlined approval 
process.
    And the second thing we are doing is looking at unbundling. 
One of the things that takes time is that purchases are bundled 
in order to get a better price, and we are trying to find, 
perhaps, a compromise between getting those things done quickly 
and getting a good price. So I am very familiar with that 
circumstance and we are exploring ways to cut down on that 
acquisition time.
    Ms. Kuster. Thank you.
    The second issue is a focus that I have had with 
Representative Walorski and others in the congress about 
military sexual trauma and sexual assault. This committee had a 
hearing with both men and women victims, and my question is: As 
more survivors and whistleblowers come forward, how does the VA 
plan to meet the growing need for mental health and other 
services for veterans that are victims of sexual trauma and 
does this budget provide you with the resources that you will 
need to address these needs?
    Secretary Shinseki. Congresswoman, thanks for that 
question.
    We have all learned a considerable amount in dealing with 
the issue of military sexual trauma: serious, sensitive, 
greatly under-reported: and so those of us that are in the 
validation of a connection of something, we don't have much 
data to go on. And what I would say is that we have been very 
open about understanding this is a circumstance that doesn't 
lend to connecting, so we have committed to providing access 
for care, both to physical medicine, as well as the mental 
health aspects of this. And we have been--we provide this free 
of charge even if the eligibility to other, VA services are not 
being provided. Every medical center provides treatment and 
they have a military sexual trauma coordinator. The same is 
true at each VISN network location.
    I am going to call on Secretary Hickey to talk about the 
efforts she went through in reviewing benefits decisions to 
ensure that claims for PTSD resulting from MST and PTSD from 
other primarily combat reasons, there was some comparative 
discussion here, and I think terrific work done on her part.
    Ms. Hickey. Congresswoman, when I arrived here in June of 
2011, one of the very first things I did was call for a full 
review of all of our PTSD due to military sexual trauma 
decisions and ask for a complete statistically valid review of 
them and what I found was a problem we had. We had granted 
these conditions lower than PTSD claims for combat terrorism, 
results of terrorism, things of that nature.
    Working with my counterpart in VHA, we took very aggressive 
action to completely revamp that whole program. We designated 
only specific people that can make those decisions on both 
sides. We brought them all together at the same time with both 
of us there at the training event to completely retrain that 
workforce from top to bottom. I put those claims in our special 
operations lanes where we have our most senior, most highly 
qualified individuals to be able to work with those claims, and 
together, working with our VHA counterparts, in very quick 
timing, we closed the gap on that grant denial rate and we have 
sustained that closed gap on that grant denial rate since. And 
so we are very focused on that. I routinely ask about every six 
months to review, to make sure that we are holding that effort 
closed.
    Those folks we had made decisions on previously, we invited 
by letter and we asked the VSOs to help get the word out to 
come back to us if they felt they were denied in error. We had 
some come back and we have redone those and in those cases, 
there have been grants at a higher level commensurate with how 
we are now granting and denying those claims.
    Ms. Kuster. Thank you very much.
    And my time has expired, Mr. Chairman.
    Secretary Shinseki. Mr. Chairman, may I just add one last 
point?
    The Chairman. Yes, sir.
    Secretary Shinseki. Fiscal year 2014, we had a number of 
veterans coming to us to report an MST prior history for most 
of whom we had no documentation. So more than 77,000 women and 
more than 57,000 men came to see us in fiscal year 2013. Our 
outpatient visit was significant, 16 percent increase over 
whatever had happened before. So that has been put in the 
calculation for the 2015 budget and I expect that we will have 
most of our requirements covered here.
    The other issue is: We are going to watch this as we begin 
to see the downsizing of the military and we will expect to see 
more of these cases, but we are sensitive to it.
    Ms. Kuster. Thank you very much, Mr. Secretary, and thank 
you, Under Secretary Hickey. Thank you, Mr. Chair.
    The Chairman. Yes, ma'am.
    Dr. Roe.
    Dr. Roe. Thank you, Mr. Chairman.
    I want to start by thanking you all for what you do for 
veterans each day in my district. We have a, as you know, a 
large VA Medical Center and numerous CBOCs and I know a lot of 
times you hear negative things, but when I go home I hear many 
more positive things than I do negative things and I think you 
don't hear that enough. I mean you hear a lot of the complaints 
that go on, but I certainly hear a lot of very positive 
comments about the care that our veterans get in our area. 
Imperfect, yes--individuals with problems, but overall it has 
been a very positive experience. I wanted you to hear that 
publicly.
    I think we mentioned a few things earlier about the 
Caregiver Program, a tremendous program, that the VA has 
initiated to help veterans.
    The homeless issue is one that I will continue to work on 
with you, Secretary, as long as I am here, and I know as long 
as you are here, that is a passion you have. One of the saddest 
things I think I can think of is a homeless veteran, a person 
who served this country honorably that now doesn't have a place 
to live. That is a very good--VASH program is a tremendous 
program.
    And also, the Post-9/11 GI Bill that Mr. O'Rourke brought 
up, I can't say more good things about that. That is an 
incredible educational opportunity. I know maybe others in this 
room have used the GI Bill. I remember I had $300 a month--I 
will never forgot the number--and it helped me tremendously 
when I got that, and it is a wonderful benefit.
    I think a couple things I do want to talk about, what 
percent of veterans do we serve in this nation--does the VA 
serve? There are 22 million veterans----
    Secretary Shinseki. Twenty-two million veterans, Enrolled 
for healthcare, probably 8.9 million.
    Dr. Roe. So about a third, okay.
    Secretary Shinseki. And then over in our benefits, we have 
about 11--12 million who are enrolled for benefits, and some of 
these numbers are----
    Dr. Roe. Are overlapped?
    Secretary Shinseki. Yes.
    Dr. Roe. Okay. I appreciate that.
    Just a comment that Mr. Michaud made a minute ago, I wanted 
to emphasize of the size of the state VA homes. I have seen 
that--where I grew up in Clarksville, Tennessee, they are 
beginning to build one there and I want to encourage the VA to 
continue to invest in those.
    As our veterans age--that is a huge demographic of people 
out there--and it is just the population in general, as we get 
older and we live longer, as a society, we are going to have to 
figure out how to take care of these people in a dignified way, 
and I think the VA is a very good way to help with veterans. 
And I would encourage you to re-look that number and see if 
more couldn't be invested, along with state homes. Since the 
states makes a--I know 65 percent is a lot of money, but the 
states make a huge investment.
    Just to comment there--I mean nothing to do now, but when 
we look at future budgets, I would strongly encourage you to 
increase that significantly.
    Secretary Shinseki. We will look at that.
    Dr. Roe. Thank you.
    I think one other--two other issues I want to talk about 
just briefly, and I guess this is probably Mr. Warren that will 
take this question, but is, again, the interoperability--and we 
talked about this in your office--between DoD and VA and would 
just briefly tell us where that is because we spent a billion 
dollars--we were here last year and we don't know where the 
billion went and we still can't interact.
    I know when the bill--the budget was passed, we put--
Chairman Rogers put 300 million more dollars, technical 
dollars, in to make this happen. Where is that, for the record?
    Secretary Shinseki. I am going to call on Mr. Warren to 
talk about the dollars that are being allocated. I would just 
say--a quick look back here--when Secretary Gates and I 
launched this, we envisioned a single, joint, common, 
integrated health record and pretty much we have worked on this 
project with that in mind.
    When Secretary Hagel arrived, he took a look at how he was 
structured to deliver his half of that commitment and he didn't 
feel he was properly organized, so he asked for the opportunity 
to re-look at his structure. And his decision coming out of 
that--I respect his decision--was to pursue an acquisition 
strategy.
    We have had VistA, our electronic healthcare record system 
since 1997. Technology turns over every 18 months. Some say 
that the technology turn is moving closer to nine months, but 
it says something about our electronic health record, that 
since 1997, it has been the one that we have been able to 
evolve into more and more capability. And so we are comfortable 
with it and we are going to pursue raising VistA from a level 
two electronic healthcare record to a level four, which would 
put it at the top of the, competitors.
    Dr. Roe. We have talked about this and this is a critical 
decision because we have now been years trying to get this to 
happen to make veterans' healthcare better and I think this is 
one of the biggest decisions, from the VA standpoint, 
technologically, that will be made in my tenure in congress. 
Because I don't want to be here at ten years, if my voters will 
let me come back for a few terms, to be having the same 
conversation that we can't talk that we have had for 15 years.
    Secretary Shinseki. Well, I would just say, Congressman, 
that these conversations don't just occur here. They occur 
between Secretary Hagel and myself, and what I will tell you is 
that he is pursuing an acquisition strategy. I am evolving my 
VistA, which is--at what was at one time head and shoulders 
above everybody else. The gaps closed, we are still a great 
health record.
    As he pursues his requirements for his acquisition, we are 
monitoring and having discussions and if there is a capability 
there that he is looking for that we don't have, we are going 
to go after that and make sure that we include that. When we 
get to the point where he is ready to make a decision on the 
DoD electronic health record, we want to be in the competition 
and I have talked to Secretary Hagel about that. He has assured 
me we are going to be in the competition, and so my work for 
the next two years is to get us as competitive as anybody else.
    We have taken our code, the MUMPS code that drives our 
VistA program. We put it in the commercial space, workspace. 
Other contractors have picked up on it and have begun to 
incorporate that into their solutions. I think that makes it 
healthy.
    When we get down to the end, even if we don't get the nod, 
the differences between what we have and what is available in 
the commercial workspace I think is going to be pretty close 
just because of what is going on now. Our code is government-
owned, government-operated and we are comfortable with it. We 
think we are going to be competitive, but however it comes out, 
we are going to be very, very close at the end, even if it is 
not a single, joint, common electronic health record. 
Interoperability is going to be much greater than it is today.
    And I think you know, Congressman, we designed a joint 
viewer that takes our two databases now and it sits so that a 
care provider can pull data from both and see, on one screen, 
all the critical data and make decisions that are required and 
then that data goes back and resides in the proper database. We 
know that isn't good enough and we are going to be much closer 
here down the road.
    Dr. Roe. The Chairman has been very generous with his time. 
I yield back.
    The Chairman. Ms. Titus.
    Ms. Titus. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary. I have always been especially 
appreciative of your accessibility, as well as your team, so 
thank you for being here.
    A lot of good points have been made today and I would like 
to go back and just focus on a couple of them, maybe from the 
perspective of Nevada and the West. First, I have to take a 
little exception to your cemetery policy that says a veteran 
will be within 75 miles of a national cemetery. There is a big 
difference between a rural burial initiative and a national 
cemetery, and there will still be 11 states without a national 
cemetery, including six in the West, and if you look at the 
map, that covers an awful lot of territory.
    Second, I want to talk to the doctor, perhaps offline, 
because I want to get to national issues about our hospital in 
Las Vegas where there are some serious problems, especially 
with the emergency room coming on. So if we could meet about 
that, I would appreciate it.
    Third, I would like to thank Chairman Runyan for bringing 
up the point about the Reno office and the backlog. Our 
committee has been working very hard to assist you and do what 
we can to support your efforts to reduce that backlog, which 
you have done a good job of and that we appreciate that.
    And that is true Reno, too, which was one of the worst 
places in the country. I support the brokering initiative, but 
I don't want this to just be a policy where we ship a lot of 
cases somewhere elsewhere they are doing a good job and we 
don't fix the problem at Reno. So I was glad to hear the report 
of some of the initiatives that are taking place there.
    And when you look at state nursing homes, again, a problem 
we are having, and I think you will see it nationally, is that 
many of the veterans nursing homes are mostly contracted to the 
State and to Medicare, and they are the ones who do the 
accountability and there is not very much of it. So if you look 
at that budget or look at going into that business more, I hope 
that you will build in some accountability by the VA and not 
just leave that to somebody else to check.
    And then finally, I would ask you this: I have a bill that 
is called Pay As You Rate; it has been moving forward out of 
this House, but where you can pay a veteran some of his 
benefits as you assess different parts of the claim, instead of 
waiting until it is all finished to then give him some 
compensation. That way, you get a little bit as you go along.
    And we talked to some veterans and found out that in Nevada 
only 8 percent receive any kind of payment as you go along, 
even though the VA can apparently already do this. I understand 
that it is something about the way that claims personnel are 
paid or their claims are counted towards pay. I can't quite 
understand why that is, but would you address it and let us 
know if there is some way that we can fix it so that this could 
be a policy going forward?
    Secretary Shinseki. Let me try to hit all of the issues, 
and let me start with the claim-as-you-go payment that you 
brought up last, Congresswoman.
    Ms. Hickey. Congresswoman Titus, when we get fully into an 
electronic process--we are still sort of standing a foot in 
paper and a foot in the electronic process--and we are able to 
start really seeing, as we can now when we work a claim in 
VBMS, medical issue level capability where it could keep that 
claim--that medical issue could move forward without human 
intervention, into and through a paid process, that is a long-
term objective for us. Today, when we do it in paper, it means 
the person has to stop what they are doing to rate all the rest 
of the issues, take it to the next step manually. A person has 
to come off of doing a full authorization and award and 
manually paying the thing, and it becomes actually a process in 
a manual environment that could extend out the experience for 
the veteran and many more veterans.
    But in an electronic environment where you can move it 
faster into an electronic payment environment, that is exactly 
where we are trying to go, but we are not quite there yet. Next 
year, 2015, with a strong IT budget, we get closer.
    Secretary Shinseki. May I just address some of your other 
questions here. I would say your sensitivity about rural 
cemeteries is one that Mr. Muro has brought up in the last five 
years. We looked at the way we have our population-based 
national cemeteries. So in a population close to 80,000, we try 
to locate a cemetery within 75 miles of everyone in that 
cluster. We discovered what you just described; there are whole 
states that don't have 80,000 veterans residing within a 
contiguous border.
    Maybe as many as eight states?
    Mr. Muro. Yes, sir.
    Secretary Shinseki. So, as many as eight states, and so we 
began a commitment to put a VA cemetery in at least each state 
so that veterans can say they have a VA resting place that 
honors them. It is probably a poor choice in words to call it 
burial ground because it seems like it is something less than a 
cemetery. If it is less, it is only by size because of the 
population that will use that capability. We establish it in 
the same way we establish other national cemeteries and we set 
a standard that is expected to be maintained by all of our 
national cemeteries and whether that arrangement is out in a 
rural area on tribal land, we have the same standard.
    So we are sensitive to your point and we will continue to 
work that, and I am happy to work with you on that as well. 
Elko, Nevada is one of those sites in which we have programmed 
to a ``burial ground.''
    On the emergency room in Las Vegas, before I arrived, I 
believe that that facility, that entire hospital, was designed 
to be linked to the Air Force hospital medical program at 
Nellis Air Force Base. Someplace along the way there was a 
change in priorities, and so we were required to build a 
freestanding facility of our own. That facility would have 
linked in with the Air Force hospital, and therefore, the 
requirement for a large emergency room wasn't necessary now 
that we were required to build a hospital in north Las Vegas. 
We put it up because the overall plan was good. We knew when we 
did that, that we were going to have to go back and make the 
emergency room a little larger.
    I don't like doing that, but in this case, it was better to 
get the hospital up, take care of veterans, and then make the 
adjustment.
    Ms. Titus. Thank you, Mr. Chairman.
    The Chairman. Mr. Flores.
    Mr. Flores. Thank you, Mr. Chairman.
    Mr. Secretary, thank you for joining us today, and I thank 
all of your team for your commitment to our nation's veterans.
    I do have one question that is a non-budget related 
question related to the VA nursing handbook. We will send that 
to you supplementally, and ask that you respond to that.
    Also, my next question is to--well, before I do this, let 
me echo what Mr. O'Rourke said. I want to thank you for your 
commitment to the Waco regional office and to commend them for 
the improvements they have made in disability claims processing 
and look forward to the day when we all meet our goal of having 
zero backlog and meeting our performance objective.
    The first question I have, and you probably need to answer 
this supplementally, is based on headlines that came out of my 
district last week, and that is because of the President's 
Executive Order to force contractors to pay a wage rate higher 
than minimum wage, a veteran in my district was displaced from 
the nursing home in which he had resided for five years and 
forced to move to another one. And so I would ask you to go 
back and give us an analysis of the impact on the VA's budget 
of the increase of the minimum wage, and also, more 
importantly, what the impact will be on the potential 
displacement of veterans from the nursing homes that they 
currenty reside in. I think that was one of the unintended 
adverse consequences that is coming out from this unilateral 
increase of the minimum wage, so that would be helpful to have 
that information.
    With respect to the IT budget, as Chairman of the Economic 
Opportunity Subcommittee, I am keenly interested in two IT 
systems that affect the economic opportunity for our veterans: 
the Long Term Solutions system which Mr. Takano asked about a 
few minutes ago, and then also the CWINRS system that deals 
with voc rehab cases.
    On the LTS system, and, Mr. Warren, this question may be 
for you, as I understand it, you are investing only in 
sustainability and not into additional capabilities; is that 
correct?
    Mr. Warren. Yes, sir. Today it meets the mission needs and 
so we are making sure we keep it up and running, but there is 
nothing scheduled this year or next year to bring more 
capability online, sir.
    Mr. Flores. Okay. I would ask the VA to go back and 
reassess two things. One is the performance objectives. I still 
have veterans in my district that are having to go through the 
original claims process, which is lengthy, and that is just 
when they are getting into the door of starting their GI 
benefits and that is when the most frustration occurs, not only 
with the educational institutions, but with the veterans. So I 
would ask you to, you as the organization, to relook at that. I 
think for a modest amount of money, redirected from probably 
VBMS since that is where the biggest pot of money is, to look 
at just a little incremental improvement so that original 
claims processing follows the rules-based system that you are 
doing in the VA that General Hickey has done so well.
    The second area is on CWINRS. Can you tell me what the 
amount of investment versus sustainment spending is going to be 
in the budget?
    Mr. Warren. Sir, I do not have that in hand, but I can get 
that for you on the record, sir.
    Mr. Flores. Okay. That would be great if you would. I think 
those would be interesting for this committee to know, and, 
again, I would urge you to go back and re-look at the 
objectives for the LTS processing, particularly with respect to 
original claims.
    Secretary Shinseki. Congressman----
    Mr. Flores. Yes, sir.
    Secretary Shinseki [continuing]. We are happy to do that. 
Again, a little bit of history here, you know, we started out 
doing this by hand.
    Mr. Flores. I know.
    Secretary Shinseki. And it was tough just getting 173,000 
youngsters in the fall term of 2009 and so we began building 
this without a clear understanding of what we needed and we 
have built as we went. And as Mr. Warren says, what we have 
today seems to be meeting our needs.
    What we wanted was a TurboTax arrangement where you could 
fill the bins and push a button, and the calculations would be 
made and payments would follow. I don't think we are there yet, 
so we will continue to look at this.
    Mr. Flores. Right. And first of all, don't--this is not--I 
am not being critical. I think you have come a long way with 
LTS. I am just saying I think for a modest amount of money, we 
could go considerably farther than where we have gone today.
    So, I agree, I mean from where you started, you had an 
immense task and I think that you have made progress, but I 
would like to have an analysis of what we could get, 
particularly with respect to original claims, what improvement 
we could get and for a modest amount of investment, that 
probably wouldn't hurt the continued investment, VBMS.
    The next area has to do with VistA. I think you are 
spending $269 million for fiscal year 2015, proposing to spend 
that. What does that compare to for this current fiscal year?
    Secretary Shinseki. Mr. Warren.
    Mr. Warren. Thank you for that question, Congressman 
Flores.
    The request in 2015, as you stated, is approximately $270 
million and that is tied to VistA Evolution so that we can 
continue to evolve that world class system. In the 2014 budget, 
there is $290 million, but the majority of those resources are 
presently withheld while we bring our plan up to yourselves to 
play out what is the future for VistA Evolution and what that 
Long Term Solution looks like in the plan. So when that plan 
clears, and I believe it goes to GAO, per the NDA requirements, 
then the dollars will be released into us.
    So, in the budget, but not released, so those resources are 
actually not being applied today, sir. And we appreciate the 
support when the plan comes up to get the resources out so we 
can continue to evolve this world class system.
    Mr. Flores. Okay. So when we suspended Evolution, we 
basically said $290 million is just going to be on hold while 
we figure out the direction that we are going to go? Again, I 
am not making a judgment, I am just asking the question.
    Mr. Warren. It has 75 percent of that, sir, so we have some 
work underway to make sure we are continuing to meet critical 
healthcare needs. Under Secretary Petzel lays those out. We 
work on those. But the focus is continue that sharing of 
information in a clinical engagement.
    If you haven't seen that demo, I would suggest we can do 
that for you. The Janus Viewer is doing great work. Continuing 
to evolve that, as well as maintain systems.
    Mr. Flores. Thank you. My time has expired. Again, I 
appreciate your service to our veterans.
    And, Mr. Chairman, thank you for your forbearance.
    The Chairman. Thank you, Mr. Flores.
    Ms. Brown.
    Ms. Brown. Thank you, Mr. Chairman. Thank you very much.
    Before I begin the VA, I want to take off my VA hat and put 
on my transportation hat. Let me just read this: As a Vietnam 
veteran and in support of our Nation's efforts to ensure our 
veterans get good important jobs after their service, we have 
set a hiring goal of 25 percent for veterans. Please accept 
this photo.
    And this is from the CEO, Joseph Boardman, President of 
Amtrak, and I have the painting here and I would like the 
entire statement about Amtrak and their hiring policy 
pertaining to veterans, and I would like the members to see the 
painting. And this was done at Beachwood Station, and I was 
very instrumental in keeping that station open, so I want to 
pass this around and I would like to take a picture at the end 
with this painting that Mr. Boardman sent to you, Mr. 
Secretary.
    Secretary Shinseki. Thank you.
    Ms. Brown. Let me just thank you again for the VA hospital 
in--well, clinic, in Jacksonville, the cemetery in 
Jacksonville. I mean I am very happy with everything that are 
going on in Jacksonville, and I am almost happy with some of 
the things that is going on in Orlando. I am just very 
impressed with the clinic that has opened up. We have about 123 
patients there. It is one of the best facilities that I have 
seen, and I spent about four hours at the facility.
    I just want to know when can we get that hospital open? You 
know, we have been working on it for 25 years and I would like 
for us to get it complete. I spent a couple of hours with the 
VA, a couple hours with the contractors and it is just not 
there.
    Secretary Shinseki. Fair enough.
    The construction in Orlando is about 87 percent complete. 
What you listed were the 120-bed community living center and a 
60-bed domiciliary, all of that delivered and in good shape.
    Ms. Brown. Beautiful.
    Secretary Shinseki. We just have the main building left to 
do and we are well along.
    Next to you, and maybe the Chairman, I am most disappointed 
that this project didn't come in on schedule and we continue to 
work with the contractor to get the work done that needs to be 
done. Right now we are looking probably at summer 2015, which 
is what the contractor is asking for. We have not agreed to 
that; we are still working with him and will continue to do 
that.
    What has been completed is great. We just need to get this 
project across the line and we are working very hard at this.
    Ms. Brown. Thank you, and let me just say, I am very 
supportive of the Chairman and the ranking member's effort to 
get your budget completely forward budgeted. I know that we 
have done part of it, but I am very interested in getting the 
entire budget and it is waiting for the leadership to take it 
up at the House. I know once they take it up, we will probably 
have zero votes against it.
    You want to say anything about it, because in some areas, I 
mean, you know, you don't need to go with the whims of the 
House when we can't come together on a budget, but at least it 
is always comforting to know that the veterans budget is not 
included.
    Secretary Shinseki. Well, I would begin by thanking the 
members of this committee. We have advance appropriations for 
veterans healthcare. You have provided that to us since 2012. 
We have learned a lot in the advance appropriations arena, and 
we do that piece quite well, and it has been a good fit for the 
Veterans Health Administration.
    As I testified to in October in this very room, what I have 
learned since is that in the area, of--and by the way, veterans 
healthcare is about 80 percent of the budget, maybe even 85 
percent. So for the remainder of the budget, and one specific 
area, processing of claims, I can't do it internal to VA. We 
have done a lot of work in the last 5 years to create a 
relationship with DoD and it is has been a very good one. We 
now get service treatment records electronically. Prior to this 
it was a paper exchange, and so we have made a tremendous 
adjustment here.
    We still have to go to the Social Security Administration 
to validate other disability payments. We have to go to IRS to 
validate threshold income levels. We still work with Department 
of Education on 9/11 GI Bill and, as I said, DoD. And so I 
would, as I did with great deference during the October 
testimony, say that, what would be most helpful to VA is for 
the Federal Government to get a budget every year because my 
ties to these other departments, even if I have advance 
appropriations for this department, doesn't quite get done the 
specific work that needs to be done in the benefits arena.
    And for example, our concerns--I mean this committee's 
concerns and our concerns and testimony--were that Treasury, 
for example, wasn't funded. The checks that we would have--the 
tapes that we would have passed that would have resulted in 
checks being cut would not have happened so, this is a bigger 
discussion than just the VA budget, but I appreciate the 
question.
    Ms. Brown. Thank you very much and thank you for your 
service.
    The Chairman. Thank you, Ms. Brown.
    Dr. Huelskamp.
    Dr. Huelskamp. Thank you, Mr. Chairman.
    And, Secretary, thank you for being here today and I 
appreciate your latest comments in reference to actually having 
a budget. It is important to note, as well, the President was a 
month late on his budget this year and--which is that much 
later, but I have been concerned--both houses, leadership and 
both chambers have not brought many parts of the budget to the 
floor for debate and a lot of it is left in the committee or in 
subcommittee, but I do have one particular budget question.
    Do you have a rough count, a general idea, of how many 
public affairs employees are funded in your budget?
    Secretary Shinseki. I don't here today, but I am happy to 
provide that for the record.
    Dr. Huelskamp. All right. Does he have any guesstimates on 
that at all? We will have to wait for any range on that?
    Secretary Shinseki. Yes, I regret I don't have that.
    Dr. Huelskamp. Okay. I appreciate it, Mr. Secretary, and 
the reason I ask is that I have a list here of nearly 70 
different instances in the last year, year and a half in which 
your agency has failed to respond to requests for information 
and these, generally, are from media requests and some very 
specific questions and the answers are always, ``No comment,'' 
``No answer,'' ``No response.'' What level of transparency do 
you expect and what are the roles of these public affairs 
officers, other than to say, ``We can't answer that question 
now.''
    Mr. Secretary, I am very concerned about transparency. We 
have had numerous hearings on things in which the agency was 
not very responsive even before the committee, so if you could 
share your thoughts on that.
    Secretary Shinseki. Well, as I stated in the beginning, and 
this was probably prior to your arrival, Mr. Huelskamp, 
transparency is an important aspect of our being able to 
establish and retain trust in this department. It is a high 
item on my list of things we commit to and I regret that you 
probably have some data here that I need to get into. I am 
happy to do that.
    Dr. Huelskamp. Excellent. And I appreciate that. Will you 
commit to directing you employees to do a better job responding 
to these inquiries, whether it has come from Congress or 
members of the media or of the public?
    Secretary Shinseki. I will do that.
    Dr. Huelskamp. Okay. Well, thank you.
    And I do also have a report specifically in which I have 
not seen comments from your agency, but a January CNN story 
that had identified at least 19 preventable veteran deaths due 
to delays in simple medical screenings, are you familiar with 
this report and what is your reaction?
    Secretary Shinseki. I am familiar with what was reported in 
the press and I would begin by saying that any time we lose a 
veteran under circumstances that we can't explain, even though 
our veterans are amongst the oldest and sickest patients, any 
time we have a death it is an issue of concern to me and I look 
for factors that may have contributed to that.
    I would say that every one of these incidents has been 
reviewed and investigated, what I think we need to recognize is 
that many of those reports originate from inside VA and we--I 
am pleased that we have employees who are honest and courageous 
enough to call themselves on something they either saw or might 
have committed, and it is because of that kind of transparency 
on the part of the workforce that we are able to pursue some of 
these issues.
    It doesn't mean that we are without having made errors, but 
if the reporting continues we can do something about that and 
that is what I think is important to be retained here. That is 
part of our discussion as well.
    Dr. Huelskamp. And I appreciate that. That is a great 
comment on that, but, you know, the employees that reported 
that, but have any employees been held accountable for these 
preventable deaths?
    Secretary Shinseki. I can certainly turn to Dr. Petzel for 
the specific 19. We do hold employees accountable. I would say, 
Congressman, that in 2012, we involuntarily removed over 3,000 
employees. In 2013, we involuntarily removed another 3,000 
employees, and then over the past two years, six members of the 
senior executive service have been dismissed as well.
    Dr. Huelskamp. And I will look forward to the response of 
the--for the committee. I don't want to take up any more time.
    But if I might ask Mr. Warren an IT question, Mr. Chairman, 
could I----
    The Chairman. We are really running out of time.
    Dr. Huelskamp. Okay. Well, I will hold that until the next 
round, so thank you.
    The Chairman. We are not even going to have a second round. 
I mean the Secretary has been very gracious with his time.
    If you could, we will put a package of questions together 
for the record and we will do it that way. Thank you, sir.
    Mrs. Negrete McLeod.
    Mrs. Negrete McLeod. Thank you, Mr. Chairman.
    Mr. Chairman, homelessness among veterans is a serious 
problem in California and in my district. An issue not 
mentioned about the per diem program is that these funds cannot 
be used to help children who are under the care of a homeless 
veteran. It is for this reason that I introduced H.R. 4140, the 
Homeless Veterans with Children Act of 2014. This bill doesn't 
cost any money, it just gives the VA more flexibility on how to 
use per diem funds to help homeless--victim homeless veterans.
    Mr. Chairman, I hope that H.R. 4140 will be included in our 
sub health committee legislation hearing this spring. Helping 
homeless veterans with dependents is an issue that has been 
identified by the VSOs and needs to be fixed now.
    My question is: How is the VA working with per diem 
recipients to ensure that they have the protection of privacy 
for homeless veterans?
    Secretary Shinseki. I am going to ask Dr. Petzel to address 
the per diem question, but Congresswoman, this--in discussing 
the homeless program, this is one piece of that. I think you 
are familiar with the HUD-VASH program, the HUD-VASH voucher.
    This would be another example, Mr. Chairman, of where our 
working relationship with another federal department allows for 
us to get our work done. The HUD-VASH voucher is key to this 
and it is the most versatile of our options that we can provide 
to the homeless and, in fact, it does care for families and for 
children. And in the case of California, I think we have about 
9500 HUD-VASH vouchers already in place, in addition to the per 
diem grants that we provide.
    Dr. Petzel.
    Dr. Petzel. Thank you, Mr. Secretary, Congresswoman McLeod.
    Two programs, the Grant and Per Diem Program and the 
Supportive Services for Veterans and Families are really the 
important parts of our providing transitional housing for these 
veterans who are on the streets and for the families of those 
unfortunate people who have been unable to maintain themselves 
in their home. We contract across the country. We spent 
approximately $230 million in the Grant and Per Diem Program, 
and approximately $300 million last year in the Supportive 
Services. We are trying to increase that to $500 million in the 
fiscal year 2015.
    In those contracts, there are provisions for maintaining 
the privacy and the security of the people who use those 
services. Tangentially to your question, I would point out that 
there is a growing need in this country for Grant and Per Diem 
housing for women and for families. There are plenty of 
families for men, and the VA, I am proud to say, has been a 
leader in facilitating the development of Grant and Per Diem 
housing and Supportive Services for women in a number of places 
around the country. I think we would be viewed as one of the 
national leaders in recognizing the need for women and the need 
for special, secure, private arrangements in these 
circumstances for women.
    Mrs. Negrete McLeod. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    The last question for the day comes from Ms. Walorski.
    Ms. Walorski. Thank you, Mr. Chairman.
    Secretary Shinseki, good to see you. Just a quick question: 
IT security is 6 percent of your budget and your 2015 budget 
seeks $33 million over the 2014 budget for a total of 
approximately $189 million for IT security. Will that amount 
finally assist the VA in addressing the numerous IT 
deficiencies that we have brought to the attention of the VA?
    Secretary Shinseki. Let me ask Mr. Warren to address that.
    Mr. Warren. Thank you, Congresswoman Walorski.
    Yes, we take information protection very seriously and the 
resources that we have asked for will allow us to keep up with 
the evolving threats that all of us face.
    Ms. Walorski. Thank you.
    And, Mr. Secretary, the NDAA, as somebody alluded to 
earlier, explains that neither the VA nor the DoD can spend 
more than 25 percent until the Secretary has briefed the 
appropriate congressional committees on their plan. And I know 
that the VA and the DoD did provide a brief to the committees 
on January 27th, but there were key elements that were missing 
that had to be included in that report.
    I understand the plan that includes the missing details is 
awaiting clearance at OMB. Do you know when we might receive 
that information?
    Secretary Shinseki. Let me call on Mr. Warren.
    Mr. Warren. We believe that that plan will clear in the 
next 30 days. We want to make sure that it is responsive to the 
questions in the NDAA, but not only responsive, but answers to 
questions in a way that are understandable. So we are making 
sure when it comes over that it meets the need so that we can 
get the dollars released and start working on VistA Evolution 
and appreciate your support for that, ma'am.
    Mrs. Walorski. And will the committee receive the 
Interagency Program Office Interoperability Report sometime in 
that same time frame?
    Mr. Warren. I believe we have already done one quarterly 
report. The next quarterly report is going through review, and 
so that should be coming out, I believe, in the next three to 
four weeks and it has a joint report of the two departments, 
and again, we want to make sure that we are responsive to your 
requests.
    Mrs. Walorski. Thank you.
    And then finally, I would be remiss if I didn't ask about 
the CBOC in Indiana's Second District. That is a familiar 
conversation here. When I was in your office just a couple of 
weeks ago, we had received an update that they at least would 
be awarded winter of 2013/2014, and is that still the latest 
update, because we just received report last week outside the 
VA that there is potentially a delay now until summer of 2014.
    Secretary Shinseki. Let me ask Dr. Petzel.
    Dr. Petzel. Thank you, Congresswoman.
    The project is proceeding. There was a NEPA study that 
needed to be done, an environmental study. This study revealed 
some issues with potential artifacts. That has been taken care 
of and the evaluation is proceeding.
    Mrs. Walorski. And so is it still on track for winter/
spring, if winter ever ends up there?
    Dr. Petzel. Yes.
    Mrs. Walorski. Okay. So there has not been--we were made 
aware last week that there is a possibility that the VA has 
asked the bidders to refresh or update their proposals; is that 
true that they have 30 days to do that?
    Dr. Petzel. I will have to go back and check for the 
record, Congresswoman. I am not familiar with that detail.
    Mrs. Walorski. Okay.
    Secretary Shinseki. I would not be surprised if there are 
any lengthy delays, we want to be sure the bidders have the 
best information in the competition before the decision is 
made. So this is something that occurs from time to time.
    Mrs. Walorski. Thank you.
    Thank you. I yield, Mr. Chairman.
    The Chairman. Thank you very much, Ms. Walorski.
    Mr. Secretary, thank you for being so generous with your 
time.
    Thank you to the under secretaries for being here with us.
    Of course there will be some follow-up questions for the 
record. I would ask unanimous consent that all members would 
have five legislative days with which to revise and extend 
their remarks.
    Without objection and with that, this hearing is adjourned.

    [Whereupon, at 11:54 a.m., the committee was adjourned.]

                                 <F-dash>

                                APPENDIX

               Prepared Statement of Chairman Jeff Miller

    Good morning everyone. Welcome to our hearing on the President's 
Fiscal Year 2015 budget request for the Department of Veterans Affairs.
    Mr. Secretary, welcome. I appreciate your attendance today and that 
of your leadership team. We've only had a short time to review the 
details of the budget request, so we will likely have numerous follow-
up questions. I'd ask for your cooperation in getting those back to us 
in a timely manner.
    Once again, in a fiscal climate that has regrettably seen the 
military budget cut to the bone, funding for veterans has emerged as an 
obvious priority, both for the Administration and the Congress. For 
that, I commend you for your leadership in fighting to ensure veterans 
remain a priority.
    I also want to commend VA on the operation of its Veterans' Crisis 
Line. I heard some really positive feedback yesterday from Paul 
Rieckhoff at yesterday's hearing. Your statement that roughly 35,000 
men and women have been rescued from a suicide because of VA's 
intervention--the rough equivalent of two Army divisions--speaks for 
itself. Keep up the good work.
    Mr. Secretary, I listened carefully the last few weeks to the 
military and veterans' organizations who testified before the Veterans' 
Committees regarding the need to improve timely delivery of mental 
healthcare, ensure that healthcare is delivered in state-of-the-art 
facilities, and sustain VA's progress in producing timely and accurate 
disability claims decisions.
    When I look at this $163.9 billion budget request, I'm left 
wondering why we can't do better than we are in some of those areas. I 
think it's fair to say that Congress has supported nearly every request 
the Administration has asked when it comes to veterans, yet significant 
problems remain.
    For example, although it's nice to see a steady downward trend in 
the backlog over the last year, what I hear from service organizations 
and veterans themselves is that VA is sacrificing accurate decisions 
for fast ones, and that it is falling behind on appeals. With the 
record funding provided in this area over the last decade, both in 
manpower and technology, it's frustrating to hear those complaints.
    I am also concerned about continued Inspector General and media 
reports regarding preventable deaths at a number of VA facilities 
across the country. I know that VA is not infallible, but serious, even 
deadly, mistakes merit swift and clear accountability. I know you 
believe that as well, and we're ready to work with you to give you any 
tools you may need.
    I will follow up on this last issue in questioning, but I'm 
troubled with what appears to be a common practice with VA's budget 
submissions of late. And that is to identify, based on updated 
information, excess funds that are no longer necessary, then 
redirecting those funds toward ``initiatives'' that were budgeted and 
appropriated in advance at a lower level.
    For example, VA overestimated by about $700 million its need for 
long-term care resources in FY 2015, but now wants to redirect all of 
that money and more toward its homeless initiatives, facility 
activations, and other needs. In fact, notwithstanding the 
overestimation of $700 million, VA now seeks a supplemental budget for 
FY 2015 of $368 million. Needless to say, I think this practice needs 
further discussion.
    These are just a couple of areas I'd like to address with you, Mr. 
Secretary. In the interest of time, however, I'll recognize the Ranking 
Member for his opening statement.

          Prepared Statement of Corrine Brown, Ranking Member

    Mr. Secretary:
    I want to put on my Transportation hat at this time. Amtrak, our 
nation's passenger rail carrier, is committed to American veterans and 
their families.
    Amtrak has a long history of providing career opportunities to 
veterans as well as active military members and values the leadership, 
reliability and high-tech skills they bring to the company.
    Amtrak currently employs more than 1,500 military veterans and is a 
member of the Employer Partnership of the Armed Forces program, 
recruiting at numerous military job fairs across the country. Since 
January 2012, more than 14 percent of new hires have been veterans. and 
across the rail industry, about 25% of the employees are veterans.
    The Obama Administration, along with the Joint Forces Initiative, 
the Department of Transportation and the Department of Veterans Affairs 
has started the Veterans Transportation Careers Center.
    Mr. Secretary, Joseph Boardman, President and CEO of Amtrak wanted 
me to present to you this print of the Veterans' Locomotive. It 
features a red, white and blue paint scheme, 50 stars and specially 
designed logo with military service ribbons.

                                 <F-dash>

              Prepared Statement of Hon. Eric K. Shinseki

    Chairman Miller, Ranking Member Michaud, and Distinguished Members 
of the House Committee on Veterans' Affairs:
    Thank you for the opportunity to present the President's 2015 
Budget and 2016 advance appropriations requests for the Department of 
Veterans Affairs (VA). This budget continues the President's historic 
initiatives and strong budgetary support for Veterans, their families, 
and survivors. We value the sustained support that Congress has 
demonstrated in providing the resources and legislative authorities 
needed to honor our Nation's promises to these unique and special 
citizens. Let me acknowledge our partners here today--the Veterans 
Service Organizations-- whose insight and support make us better at 
fulfilling our mission.
    After more than a decade of war, many Servicemembers are returning 
home and making the transition to Veteran status. As the war in 
Afghanistan enters its final chapter, our work is more urgent than 
ever. The current generation of Veterans will help to grow our middle 
class and provide a significant return on the Nation's investments in 
them. The President fully supports Veterans and their families, and by 
providing them the care and benefits they have earned, we pay tribute 
to the sacrifices that Veterans have made for this Nation.
    The 2015 Budget for VA requests $163.9 billion--$68.4 billion in 
discretionary funds, including medical care collections, and $95.6 
billion in mandatory funds for Veterans benefits programs. The 
discretionary request reflects an increase of $2.0 billion (3.0 
percent) above the 2014 Budget level. The Budget also requests a 2016 
advance appropriation for Medical Care of $58.7 billion, an increase of 
$2.7 billion (4.7 percent) above the 2015 Budget. The President's 2015 
Budget will allow VA to operate the largest integrated healthcare 
system in the country, including nearly 1,750 VA points of healthcare 
and approximately 9.3 million Veterans enrolled to receive healthcare; 
the ninth largest life insurance provider, covering both active duty 
Servicemembers and enrolled Veterans; an education assistance program 
serving nearly 1.1 million students; a home mortgage program with a 
portfolio of over 2 million active loans, guaranteed by the agency; and 
the largest national cemetery system that leads the Nation as a high-
performing organization, with projections to inter 128,100 Veterans and 
family members in 2015.

Growing Demand for VA Services and Benefits

    Long after conflicts end, VA requirements continue to grow, due to 
the substantial needs of Veterans. VA's budgetary requirements arise 
from our Nation's national security engagements, which are not within 
our control. As the President said on Veterans Day last November, 
``when we talk about fulfilling our promises to our Veterans, we don't 
just mean for a few years; we mean now, tomorrow, and forever.'' Over 
the next decade, the Department of Defense (DoD) predicts that military 
separations will approach three million. This growing population is 
demanding more services from VA than ever before. Currently, 11 million 
of the approximately 22 million Veterans in this country are 
registered, enrolled, or use at least one VA benefit or service, and 
this number will undoubtedly continue to grow.

Meeting VA's Top Three Goals

    In 2015, our challenges are clear and significant. VA must deliver 
on the ambitious goals we established 5 years ago, which are to:
<bullet> Increase Veterans' access to VA benefits and services;
<bullet> Eliminate the disability claims backlog in 2015; and
<bullet> End Veterans' homelessness in 2015.

    The 2015 Budget is critical to VA meeting these goals. Without the 
proper level of funding to meet the growing demand for benefits and 
services, investing in our physical and Information Technology (IT) 
infrastructure to assure reliable access, eliminating the disability 
claims backlog, and completing the rescue phase of ending Veterans' 
homelessness become even more difficult. VA remains committed to 
meeting these challenges and appreciates the continued support of the 
Congress.

Stewardship of Resources

    At VA, we are committed to responsible stewardship, using resources 
effectively and efficiently and aggressively identifying budget 
savings. Over the past three years, we have averaged $1.6 billion 
annually in efficiencies and budget savings, and in 2015, that 
commitment to budget efficiencies and savings is more than $2 billion. 
We are attentive to areas in which we need to improve our operations, 
and are committed to taking swift corrective action to eliminate any 
practices that do not deliver value for Veterans. For 15 consecutive 
years, VA delivered clean financial audits, during which time material 
weaknesses were reduced from four to one, and in 2013, for the first 
time, we had no significant deficiencies, having eliminated 16 prior 
significant financial deficiencies. This is an area of major 
accomplishment in our internal controls and fiscal integrity.

Information Technology

    To serve Veterans as well as they have served us, we are working to 
deliver a 21st century VA that provides medical care, benefits, and 
services through a secure digital infrastructure. IT affects every 
aspect of what we do at VA. It has a direct impact on the quality of 
healthcare we provide Veterans; our ability to process claims 
efficiently; and our ability to provide Veterans' benefits and 
services. In 2013, VA IT systems supported nearly 1,750 VA points of 
healthcare: 151 medical centers, 135 community living centers, 103 
domiciliary rehabilitation treatment programs, 820 community-based 
outpatient clinics, 300 Vet Centers, and 70 mobile Vet Centers. The 
corresponding increase we have seen in the medical care spending for 
these facilities directly translates to new and increased services 
provided to Veterans. To provide Veterans access and benefits, we must 
make the necessary investments in IT innovations and deployments.
    Our 2015 Budget requests $3.9 billion for IT, consisting of $531 
million for development; $2.3 billion for sustainment; and $1 billion 
for more than 7,400 staff, most of whom serve in VA hospitals and 
regional offices. The request will sustain our infrastructure while 
making necessary investments in critical business processes, such as 
modernizing healthcare scheduling, streamlining benefits processing, 
enhancing and modernizing VA's electronic health record, enhancing data 
security, and achieving health data interoperability with DoD.
    Information security is a top priority at VA. The 2015 Budget 
requests $156 million for information protection and cyber security, an 
increase of $33 million (27 percent) over 2014. VA is constantly 
strengthening information security and improving technology and 
processes to ensure Veteran data and VA's network are secure. Like any 
organization, public or private, we must continue to adapt. Our 
security posture is based on a ``defense-in-depth'' approach, which 
includes our partners at the Department of Homeland Security who 
maintain an over watch on our exterior perimeter. Working inward from 
our firewalls, VA has additional layers and protections that are 
constantly monitoring potential threats.
    Technology is also a critical component for achieving our goal to 
eliminate the disability claims backlog in 2015. The 2015 Budget 
requests $137 million in IT funding for the Veterans Benefits 
Management System (VBMS), including $44.5 million for development and 
$92.5 million for sustainment. The 2015 development funds will allow VA 
to electronically process disability compensation claims in VBMS, from 
establishment to award. Planned enhancements and increased automation 
will allow end-users to focus on more difficult disability compensation 
claims by reducing the time required to process less complex claims. 
Sustainment funds will support the infrastructure behind VBMS as well 
as the deployment of additional new functionality features.
    The 2015 Budget continues our progress toward evolving VA's VistA 
electronic health record (EHR) and achieving seamless integration of 
health data with the DoD by 2017. The budget requests $269 million to 
help achieve our shared goal of providing the best possible support for 
Servicemembers and Veterans. In the near term, we are working to create 
seamless integration of DoD, VA, and private provider health data. In 
the mid-term, we are working to modernize the software supporting DoD 
and VA clinicians. Together, these two goals will help to create an 
environment in which clinicians and patients from both Departments are 
able to share current and future healthcare information for continuity 
of care and improved treatment. As we strive to build on our successful 
history of health data sharing and collaboration, we understand our EHR 
modernization efforts are complicated, dynamic, and multi-faceted.

Improving and Expanding Access to Benefits and Services

    The number of Veterans receiving VA benefits and services has grown 
steadily and will continue to rise as overseas conflicts end and more 
Servicemembers transition to Veteran status. In 2015, the number of 
patients treated within VA's healthcare system is projected to reach 
6.7 million, an increase of nearly one million patients (17.4 percent) 
since 2009. Within VBA, the number of Veterans and survivors receiving 
Compensation and Pension benefits will approach 5 million in 2015, 
while the number of Education and Vocational Rehabilitation 
beneficiaries will exceed 1.1 million.
    We continue to improve access to VA services by opening new, and 
improving current, facilities closer to where Veterans live. Since 
January 2009, we have added approximately 55 community-based outpatient 
clinics (CBOCs), for a total of 820 CBOCs, and the number of mobile 
outpatient clinics and Mobile Vet Centers, serving rural Veterans, has 
increased by 21, to the current level of 78. In addition, while opening 
new and improved facilities is essential for VA to provide world-class 
healthcare to Veterans, so too is enhancing the use of ground breaking 
new technologies to reach countless other Veterans. We continue to 
invest in ``taking the facility to the Veteran''--through expanded 
access to telehealth, sending Mobile Vet Centers to reach Veterans in 
rural areas where certain services are limited or difficult to reach, 
and by deploying social media to connect with Veterans to share 
information on the VA benefits they have earned.
    The Affordable Care Act (ACA) expands access to coverage, provides 
new ways to bring down healthcare costs, improves the Nation's 
healthcare delivery system, and has important implications for VA. VA 
is ensuring a coordinated and collaborative approach to ACA 
implementation. We estimate that there are approximately 1.3 million 
uninsured Veterans, of which 1 million may be eligible for, but not 
enrolled in VA healthcare. We will continue our education and outreach 
efforts so Veterans know the healthcare law does not affect their VA 
health benefits or out-of-pocket costs, and that Veterans enrolled in 
VA healthcare do not need to take additional steps to meet ACA's new 
coverage standards. We will also encourage Veterans' family members not 
enrolled in a VA healthcare program to obtain coverage through the 
Health Insurance Marketplaces.
    A large part of our Veteran population hails from the small towns 
of rural America. Some 3.1 million Veterans enrolled in VA's healthcare 
system live in rural or highly rural areas, about 36 percent of all 
enrolled Veterans. In total, more than $17.36 billion were obligated in 
2013 for the healthcare needs of rural Veterans. As technology advances 
and broadband access expands across rural America, we have been able to 
extend the availability of VA healthcare through telemedicine, web-
based networking tools, and the use of mobile devices--all of which 
help improve access to care and support economic development for people 
in rural areas. Telehealth is a transformative breakthrough in 
healthcare delivery in 21st century medicine, allowing care to reach 
Veterans who otherwise may not have access, especially those who live 
in rural and extremely remote areas. The 2015 Budget requests $72 
million for Rural Health telehealth.
    Changing demographics are driving transformation at VA. Women now 
comprise nearly 15 and 18 percent of today's active duty military 
forces and Reserve component, respectively. Women are the fastest 
growing segment of our Veteran population. Since 2009, the number of 
women Veterans enrolled in VA healthcare increased by almost 29 
percent, to 629,683. The 2015 Budget includes $403 million for gender-
specific healthcare services for women Veterans. Today, nearly 49 
percent of our facilities have comprehensive women's clinics, and every 
VA healthcare system has designated women's health primary care 
providers and a women Veterans' program manager on staff.
    The Caregivers and Veterans Omnibus Health Services Act (Caregivers 
Act) marked a major step forward in America's commitment to those who 
provide daily care for wounded warriors, who have borne the battle for 
us all. The sustainment phase of the Caregivers program began in 2013, 
and includes application processing; stipends; travel and healthcare 
coverage; education, training, and competency; and IT support. The 2015 
Budget includes $306 million for the Caregivers program, including $235 
million for caregiver stipends.
    Since VA began implementation of the Honoring America's Veterans 
and Caring for Camp Lejeune Families Act in August 2012, more than 
10,100 Veterans have contacted VA concerning Camp Lejeune-related 
treatment, as of February 27, 2014. Of these, roughly 8,300 were 
already enrolled in VA healthcare. Veterans who are eligible for care 
under the Camp Lejeune authority, regardless of current enrollment 
status with VA, will not be charged a co-payment for healthcare related 
to the 15 illnesses or conditions recognized, nor will a third-party 
insurance company be billed for these services. VA continues a robust 
outreach campaign to these Veterans and family members while we press 
forward with implementing this law. The 2015 Budget includes $51 
million to provide healthcare for Veterans and family members who were 
potentially exposed to contaminated drinking water at Camp Lejeune.
    The 2015 Budget requests $99.6 million in IT funding for the 
Veterans Relationship Management (VRM) initiative, which is 
transforming Veterans' access to VA benefits and services by empowering 
Veterans with new self-service tools. In addition, VRM is essential to 
achieving our access goals. We are transforming VA's national call 
centers into service centers by delivering enhanced, integrated, 
system-wide telephone capabilities. VBA is also implementing the Client 
Relationship Management Unified Desktop that provides Veterans or 
beneficiary contact history and a consolidated view of benefit programs 
for our employees to enhance the customer's experience and provide 
responsive and complete information.
    As part of this experience, VBA aggressively promoted eBenefits and 
improved Veterans ability to enroll in and access VA benefits and 
services. The joint VA-DoD eBenefits Web portal is a personalized 
central location for Veterans, Servicemembers, and their families to 
research, access, and manage their benefits and personal information. 
More than 3.2 million Servicemembers and Veterans are enrolled in 
eBenefits, and our goal is to expand enrollment to 5 million users in 
2015. Over 50 self-service features, including online filing of claims, 
online uploading of evidence, and claim status tracking are now 
available in eBenefits; VA and DoD continue to expand functionality 
with each quarterly release.
    VA also continues to increase access to burial services for 
Veterans and their families through the largest expansion of its 
national cemetery system since the Civil War. At present, approximately 
90 percent of the Veteran population--about 20 million Veterans--has 
access to a burial option in a national, state, or tribal Veterans 
cemetery within 75 miles of their homes. In 2004, only 75 percent of 
Veterans had such access. This dramatic increase is the result of a 
comprehensive strategic planning process that efficiently uses 
resources to serve the greatest number of Veterans.

    Improving Access to Mental Health Services

    We have been a Nation at war for more than a decade, and the state 
of Servicemembers' and Veterans' mental health is a National priority. 
At VA, meeting the individual mental health needs of Veterans is more 
than a system of comprehensive treatments and services; it is a 
philosophy of ensuring that Veterans receive the best mental healthcare 
possible, while focusing on the overall mental well-being of each 
Veteran. VA remains committed to doing all we can to meet this 
challenge.
    Through the strong leadership of the President and the support of 
Congress, Veterans' access to mental healthcare has significantly 
improved. Some of the stigma associated with seeking help has 
diminished. We proactively screen all Veterans for PTSD, depression, 
TBI, problem drinking, substance abuse, and military sexual trauma 
(MST) to identify issues early and provide treatments and intervention 
opportunities. We know that when we diagnose and treat people, they get 
better. Rates of suicide among those who use VHA services have not 
shown increases similar to those observed in all Veterans and the 
general U.S. population. Since 2006, the number of Veterans receiving 
specialized mental health treatment has risen each year from 927,000 to 
more than 1.3 million in 2013. In addition, Outpatient visits and 
encounters will increase to 12.8 million in 2015, from 12.1 million in 
2013. Vet Centers are another avenue for mental healthcare access, 
providing services to 195,913 Veterans and their families in 2013.
    While we made significant progress in serving the growing number of 
Veterans seeking mental healthcare, our work is not done. The 2015 
Budget includes $7.2 billion for mental healthcare, an increase of $309 
million (4.5 percent). VA efforts are crucial to dispel the lingering 
stigma surrounding treatment, and help Veterans regain their dignity 
and the ability to hold meaningful employment and maintain a home, 
which helps, in turn, strengthen our Nation's economy.
    In response to the growing demand for mental health services, VA 
enhanced capacity and improved the system of care so that services are 
more readily accessible. In 2012, VA completed a comprehensive 
assessment of the mental health program at every VA medical center and 
is using the results of that assessment to improve programs and share 
best practices across VISNs and facilities. VA also held mental health 
summits at each of our 151 medical centers, broadening the community 
dialogue between clinicians and stakeholders.
    We are developing new measures to gauge mental healthcare 
performance, including timeliness, patient satisfaction, capacity, and 
availability of evidence-based therapies. Evidence-based staffing 
guidelines are being written for specialty and general mental health. 
In addition, VA is working with the National Academy of Sciences to 
develop and implement measures and corresponding guidelines to improve 
the quality of mental healthcare. To help VA clinicians better manage 
Veteran patients' mental health needs, VA is developing innovative 
electronic tools. For example, Clinical Reminders give clinicians 
timely information about patient health maintenance schedules, and the 
High-Risk Mental Health National Reminder and Flag system allows VA 
clinicians to flag patients who are at-risk for suicide. When an at-
risk patient does not keep an appointment, Clinical Reminders prompt 
the clinician to follow up with the Veteran.
    Since its inception in 2007, the VA's Veterans' Crisis Line in 
Canandaigua, New York, answered nearly 1,000,000 and responded to more 
than 143,000 texts and chat sessions from Veterans in need. The 
Veterans' Crisis line provides 24/7 crisis intervention services and 
personalized contact between VA staff, peers, and at-risk Veterans, 
which may be the difference between life and death. In the most serious 
calls, approximately 35,000 men and women have been rescued from a 
suicide in progress because of our intervention--the rough equivalent 
of two Army divisions.

    Eliminating the Claims Backlog

    VA has no greater responsibility than ensuring Veterans and their 
survivors receive timely, accurate decisions on their disability 
compensation and pension claims. Too many Veterans have waited too long 
to receive their benefits--and this has never been acceptable to VA, 
including the employees of VBA, over half of whom are Veterans. To 
attack this longstanding problem, we launched a historic plan to 
transform our people, processes, and technology. Our strategy advances 
VBA's tools, streamlines claims processes, trains its workforce, 
improves workload management, and meaningfully enhances interaction 
with Veterans and stakeholders to deliver more timely and accurate 
benefit decisions and services to Veterans and their families. Despite 
an escalating workload brought about by the correct decisions for 
Veterans on Agent Orange, Gulf War, and combat PTSD presumptions--and 
successful outreach to Veterans informing them of their benefits--we 
are making steady progress toward our goal of eliminating the 
disability claims backlog in 2015.
    The 2015 Budget requests $2.5 billion for VBA, an increase of $28.8 
million from 2014. VBA projects a beneficiary caseload of 5.1 million 
in 2015, with more than $78.7 billion in disability compensation and 
pension benefits obligations. We expect to process 1.5 million 
compensation and pension claims in 2015, up from 1.25 million claims in 
2014, an increase of nearly 17 percent over 2014.
    Through our claims transformation initiatives, the use of mandatory 
overtime, and other innovative strategies, we are making real progress 
in reducing the disability claims backlog. As of March 8, 2014, the 
backlog stood at 368,829 claims, down 242,244 (40 percent) from its 
highest point on March 25th, 2013. Additionally, under its Oldest 
Claims Initiative that began in April 2013, VA provided decisions to 
over 500,000 Veterans whose claims had been pending the longest. VA 
continues to work closely with DoD, the Internal Revenue Service, the 
Social Security Administration, and our other Federal partners to 
identify electronic data-sharing opportunities and process reforms to 
streamline workflows and limit paper claims filing.
    VBMS is key to VBA's transformation and success in meeting our 2015 
goal. In June 2013, VBA completed national deployment of VBMS--six 
months ahead of schedule--providing access to over 25,000 end-users. 
Approximately 80 percent of VA's pending disability claims are in a 
digital format for electronic processing in VBMS. Moving to a digital 
environment is critical. VA anticipates there will be approximately 
250,000 new Servicemembers transitioning to Veteran status each of the 
next 4 years, for a total of one million new Veterans added during the 
next four years. As a result of our increased efforts to enable more 
Veterans to access the benefits they have earned and deserved, many of 
these Veterans are likely to file a claim with VBA within the first 
year of separation.
    The 2015 Budget includes $138.7 million for continued investment in 
the Veterans Claims Intake Program (VCIP), which converts paper claims 
into an electronic format and enables electronic transfer of medical 
and personnel records. This electronic transfer is critical to creating 
the necessary digital environment for populating the eFolders and 
supporting end-to-end electronic claims processing for each stage of 
the claims lifecycle. Although VA continues to accept paper claims from 
Veterans who are not familiar with or cannot access computer 
technology, VBA is working with stakeholders to increase the number of 
claims submitted electronically. VBA now converts paper claims to 
electronic format as we receive them, saving time and effort and 
improving accuracy. As of December 2013, over 25,000 VBMS users could 
access 424 million electronic images converted from paper.
    The 2015 Budget includes $94.3 million for the Board of Veterans' 
Appeals (the Board), which we are requesting as a new appropriation 
separate from the General Administration appropriation. The Board 
provides direct service to Veterans and their families by conducting 
hearings and issuing final appeals decisions. VA is actively pursuing 
initiatives to improve the appeals process and reduce wait times for 
Veterans, including a Board-led initiative that pre-screens appeals to 
ensure that the record is fully developed and ready for adjudication. 
The Board is also streamlining decision writing to increase output and 
efficiency. Expanded use of VBMS and the eventual incorporation of 
appeals functionality in VBMS will save resources currently spent 
handling, accessing, storing, and transporting paper claims files 
between the Board and VBA Regional Offices. The Board completed major 
technological upgrades to its video teleconference (VTC) equipment and 
the Board now conducts slightly over half of their hearings by video 
teleconference, a significant increase from 29 percent in 2009. We 
project appeals will increase to 72,786 cases in 2015, an increase of 
12 percent from 2014's 64,941 cases.

Ending Veteran Homelessness

    Every Veteran who has served America ought to have a home in 
America. We made great progress toward achieving our goal to end 
Veteran homelessness in 2015. VA will use knowledge gained over the 
past four years to ensure robust prevention programs are in place for 
future years. The 2015 Budget request is essential for VA to 
successfully achieve an end-to-the-rescue phase, and prevent future 
homelessness among Veterans at-risk in the years to come.
    Since 2009, VA, together with our Federal, state, and local 
partners, has reduced the estimated number of homeless Veterans by 24 
percent. We have conducted over six million clinical visits with over 
600,000 Veterans who were homeless, at-risk of homelessness (including 
formerly homeless). In 2013 alone, VA served more than 240,000 Veterans 
who were homeless or at-risk of becoming homeless--21 percent more than 
the year before. Over the past four years, the Point-in-Time (PIT) 
count of homeless Veterans declined steadily, despite challenging 
economic times. The PIT count estimate of the number of homeless 
Veterans dropped from 75,609 in January 2009, to 57,849 in January 
2013, a 24 percent decrease.
    VA's programs constitute the largest integrated network of programs 
with components of homeless assistance in the Nation. They provide 
homeless Veterans with nearly 80,000 beds or units, including permanent 
supportive housing through the Department of Housing and Urban 
Development-VA Supportive Housing (HUD-VASH) program; link Veterans 
with needed mental health and other medical care; and provide 
supportive services and opportunities to reintegrate Veterans back into 
the community and workforce. VA's cost-effective, evidence-based 
homeless programs produce large savings and cost avoidance in 
budgetary, social, and economic terms. Using a Housing First strategy, 
VA relies on research that shows that placing homeless Veterans into 
Housing First reduces emergency room visits, other forms of intensive 
hospitalization, and substance overdose. Medical care costs are roughly 
three times as expensive for homeless compared to Veterans who are not 
homeless.
    Despite significant progress and important accomplishments, much 
work remains. We estimate that between 2013 and 2015, approximately 
200,000 Veterans will experience homelessness at some point in time. To 
reach our goal of ending Veteran homelessness in 2015, the Budget 
requests $1.6 billion for VA homeless-related programs, including case 
management support for the HUD-VASH voucher program, the Grant and Per 
Diem Program, the Supportive Services for Veteran Families (SSVF) 
program, and VA justice programs. This represents an increase of $248 
million (17.8 percent) over the 2014 Budget level. This budget supports 
VA's long-range plan to end Veteran homelessness by emphasizing rescue 
for those who are homeless today, and prevention for those at risk of 
homelessness.
    HUD--VASH provides permanent supportive housing to the most 
vulnerable of our homeless Veterans. The 2015 Budget requests $374 
million for HUD-VASH, an increase of $47 million (14 percent) over the 
2014 Budget level. This funding will support nearly 3,500 case managers 
to provide intensive wraparound services to nearly 80,000 Veterans. 
These case managers provide an average number of 12 clinical visits per 
year to these Veterans to ensure that they remain in housing and do not 
become homelessness again. Veterans in HUD-VASH are vulnerable; the 
majority meets criteria for chronic homelessness, and suffers from 
serious mental illness, substance use disorders, and chronic medical 
conditions. This partnership remains the most responsive housing option 
available to VA and is a critical component of our strategy to move 
homeless Veterans from the streets to a safe and stable home.
    The Grant and Per Diem Program helps fund community agencies 
providing services to homeless Veterans with the goal of helping them 
achieve residential stability, increase their skill levels and/or 
income, obtain greater self-determination, independent living, and 
employment as soon as possible. The 2015 Budget requests $253 million 
for the Grant and Per Diem Program, an increase of $3 million (1.1 
percent) over the 2014 Budget level. In 2015, the program will provide 
over 15,500 transitional housing beds to Veterans through partnerships 
with more than 650 projects.
    VA's SSVF is a critical aspect of our strategy to prevent and end 
Veteran homelessness. This program provides both prevention and rapid 
rehousing services to Veterans and family members. In 2013, SSVF 
successfully prevented over 60,000 at-risk Veterans and family members 
from falling into homelessness, and successfully placed over 84 percent 
of homeless Veterans and family members into permanent housing. In the 
last three years, VA awarded grants totaling $459.6 million to 324 
community agencies in all 50 states, the District of Columbia, Puerto 
Rico, and the Virgin Islands. SSVF grants to private non-profit 
organizations and consumer cooperatives provide a range of supportive 
services to include outreach, case management, assistance in obtaining 
VA benefits, and assistance in obtaining and coordinating other public 
benefits. In 2015, VA will deploy SSVF grants strategically to target 
resources to communities with concentrations of homeless Veterans.
    In addition, VA's Justice Programs, which facilitate access to 
needed VA treatment for Veterans in criminal justice settings such as 
Veterans Treatment Courts, are an important prevention effort for 
homeless and at-risk Veterans. The goal of these Courts is to divert 
those with mental health issues and homelessness risk from the 
traditional justice system and give them treatment and tools for 
rehabilitation and readjustment. The first Veterans court was 
established in 2008 in Buffalo, N.Y. By the end of 2013, there were 257 
courts nationwide, positively affecting the lives of 7,724 Veterans; VA 
serves Veterans in each of these courts. Many of the participating 
Veterans have avoided incarceration and the cycle of homelessness, that 
often follows incarceration. The 2015 Budget requests $35 million for 
Veterans Justice Programs, an increase of $1.5 million (4 percent) over 
the 2014 Budget level.
    To increase homeless Veterans' access to benefits, care, and 
services, VA established the National Call Center for Homeless Veterans 
(NCCHV). The NCCHV provides homeless Veterans and Veterans at-risk for 
homelessness free, 24/7 access to trained counselors. The call center 
is intended to assist homeless Veterans and their families; VA medical 
centers; Federal, state, and local partners; community agencies; 
service providers; and others in the community. In 2013, the National 
Call Center for Homeless Veterans received 111,096 calls (38 percent 
increase over 2012) and made 78,622 referrals to VA Medical Centers (55 
percent increase over 2012). The 2015 Budget requests $5.6 million for 
NCCHV, an increase of $1.7 million (45 percent) over the 2014 Budget 
level. VA has established 28 Community Resource and Referral Centers 
(CRRC) to provide rapid assistance to homeless Veterans.

Multi-Year Budget for Medical Care

    Due to Congress's foresight, under the Veterans healthcare Budget 
Reform and Transparency Act of 2009, VA includes a request for an 
advance appropriation for its medical care budget. The legislation 
requires VA to plan its medical care budget using a multi-year 
approach, which ensures that VA requirements are reviewed and updated 
based on the most recent data available and actual program experience. 
The 2015 medical care budget of $59.1 billion, including collections, 
will fund treatment to over 6.7 million unique patients, an increase of 
4 percent over the 2013 estimate. Of those unique patients, 4.7 million 
Veterans are in Priority Groups 1-6, an increase of more than 204,836 
(4.5 percent). Additionally, VA anticipates treating over 757,600 
Veterans from the conflicts in Iraq and Afghanistan, an increase of 
over 141,100 patients (23 percent) over the 2013 level. VA also 
provides medical care to non-Veterans through programs such as the 
Civilian Health and Medical Program of the Department of Veterans 
Affairs (CHAMPVA) and the Spina Bifida healthcare Program; we expect 
this population to increase by over 42,600 patients (6.3 percent), 
during the same period.
    Based on updated 2015 estimates largely derived from the Enrollee 
healthcare Projection Model, the 2015 Budget will allow VA to increase 
funding for programs to end Veteran homelessness; continue 
implementation of the Caregivers and Veterans Omnibus Health Services 
Act; fulfill multiple responsibilities under the ACA; provide for 
activation requirements for new or replacement medical facilities; and 
invest in strategic initiatives to improve the quality and 
accessibility of VA healthcare programs. The 2015 appropriations 
request includes an additional $368 million above the enacted 2015 
advance appropriations level. Our multi-year budget plan assumes that 
VHA will carry over a small percentage of unobligated balances from 
2014 into 2015 to ensure that funds are available at the beginning of 
the fiscal year to cover any unforeseen costs.
    The 2016 medical care budget of $61.9 billion, including 
collections, provides for healthcare services to treat over 6.8 million 
unique patients, an increase of 1.5 percent over the 2015 estimate. The 
2016 request for medical care advance appropriations is an increase of 
$2.9 billion, or 4.9 percent, over the 2015 budget request. Medical 
care funding levels for 2016, including funding for activations, non-
recurring maintenance, and initiatives, will be revisited during the 
2016 budget process, and could be revised to reflect updated 
information on known funding requirements and unobligated balances.

Medical and Prosthetic Research

    VA supports the President's national action plan to guide mental 
health research across government, industry and academia, and develop 
more effective ways to prevent, diagnose, and treat mental health 
conditions like TBI and PTSD. VA's medical research programs 
demonstrate the creativity and ingenuity of our Nation's greatest minds 
to help save Veterans' lives, limit their incapacitation, and build a 
better world for their families. Projects funded in 2015 will focus on 
identifying or developing new treatments for Gulf War Veterans, 
improving social reintegration following traumatic brain injury, 
reducing suicide, evaluating the effectiveness of complementary and 
alternative medicine, developing blood tests to assist in the diagnosis 
of PTSD and mild traumatic brain injury, and advancing genomic 
medicine.
    In 2015, Medical Research will be supported through a $589 million 
direct appropriation, and an additional $1.3 billion from VA's medical 
care program, Federal grants, and non-Federal grants. Including Medical 
Care support, other Federal resources, and private resources, total 
funding for Medical and Prosthetic Research will be nearly $1.9 billion 
in 2015. VA's research program benefits Veterans, their families, and 
the Nation.

Increasing Employment Opportunities for Veterans

    Under the President's leadership, VA, the Department of Labor, DoD, 
and the entire Federal government made Veterans' employment one of 
their highest priorities. At VA, we led by example. We made great 
strides during the last five years and remain committed to meeting our 
goal of 40 percent of VA employees being Veterans, compared to 32.4 
percent currently. During 2013, 33.8 percent of all new hires at VA 
were Veterans, including an impressive 78.5 percent of all new 
employees in our National Cemetery Administration (NCA).
    We continue to work to ensure that all of America's Veterans have 
the support they need and deserve when they leave the military, look 
for a job, and enter the civilian workforce. The interagency Employment 
Initiative Task Force, co-led by VA and DOD, developed a new training 
and services delivery model to help strengthen the transition of our 
Veteran Servicemembers from military to civilian life. Accordingly, the 
2015 Budget includes $106 million to meet VA's responsibilities under 
the President's Veterans Employment Initiative and the VOW to Hire 
Heroes Act. In addition, the 2015 Budget includes $1 billion in 
mandatory funding over 5 years to develop a Veterans Job Corps 
conservation program that will put up to 20,000 Veterans back to work 
over the next 5 years protecting and rebuilding America. Jobs will 
include park maintenance projects, patrolling public lands, 
rehabilitating natural and recreational areas, and law enforcement-
related activities. Additionally, Veterans will help make a significant 
dent in the deferred maintenance of our Federal, state, local, and 
tribal lands, including jobs that will repair and rehabilitate trails, 
roads, levees, recreation facilities, and other assets. The program 
will serve all Veterans, but have a particular focus on post-9/11 
Veterans.
    Since 2009, VA provided over $31.8 billion in Post-9/11 GI Bill 
benefits in the form of tuition and other education-related payments to 
cover the education and training of more than 1 million Servicemembers, 
Veterans, family members, and survivors. As part of this effort VBA 
launched an online GI Bill Comparison Tool to make it easier for 
Veterans, Servicemembers, and dependents to calculate their Post-9/11 
GI Bill benefits and learn more about VA's approved colleges, 
universities, and other education and training programs across the 
country. The GI Bill Comparison Tool provides key information about 
college affordability and brings together information from more than 17 
online sources and 3 Federal agencies, including the number of students 
receiving VA education benefits at each school.
    VA is also now working with Student Veterans of America to track 
graduation and training completion rates, and we expect a draft report 
by the end of 2014 to quantify program outcomes. The Post-9/11 GI Bill 
continues to be a focus of VBA transformation, as it implements the 
automated Long-Term Solution (LTS), VA's end-to-end claims processing 
solution that utilizes rules-based, industry-standard technologies for 
the delivery of education benefits. At the end of January 2014, we had 
68,215 education claims pending, 21 percent lower than the total claims 
pending the same time last year. The average days to process Post-9/11 
GI Bill supplemental claims decreased by 9.1 days, from 16.1 days in 
September 2012 to 7 days in January 2014. The average time to process 
initial Post-9/11 GI Bill original education benefit decreased by 15.3 
days in the same period, from 32.5 days to 17.2 days.

Capital Infrastructure

    The 2015 Budget requests $1.06 billion for VA's major and minor 
construction programs, the same as the 2014 Budget level. The capital 
asset budget demonstrates VA's commitment to address critical major 
construction projects that directly impact patient safety and seismic 
issues and reflects VA's ongoing promise to provide safe, secure, 
sustainable, and accessible facilities for Veterans. The request also 
reflects the current fiscal climate and the great challenges VA faces 
in order to close the gaps identified in our Strategic Capital 
Investment Planning (SCIP) process.

Major Construction

    The major construction request in 2015 is $561.8 million. The 
request provides funding for four on-going major medical facility 
projects. They include: (1) seismic corrections to renovate building 
205 for homeless programs at the West Los Angeles, CA VA Medical 
Center; (2) seismic corrections and construction of a new mental health 
facility and parking structure at the Long Beach Healthcare System; (3) 
construction of a new community living center (CLC), domiciliary and 
outpatient facility in Canandaigua, NY; and (4) construction of a new 
spinal cord injury/CLC facility, hospice nursing unit, and upgrades to 
a high-risk seismic building in San Diego, CA. These projects represent 
VA's most critical major construction projects and correct critical 
safety and seismic deficiencies that are currently putting Veterans, VA 
staff, and the public at risk. Once the projects are completed, 
Veterans seeking care will be served in more modern and safer 
facilities.
    The 2015 Budget also includes $2.5 million for NCA for advance 
planning activities and $7.5 million for land acquisition to support 
the establishment of 5 additional national cemeteries in Cape Canaveral 
and Tallahassee Florida; Omaha, Nebraska; southern Colorado; and 
western New York to meet the burial access policies included in the 
2011 budget.

Minor Construction

    The 2015 Budget includes a minor construction request of $495.2 
million. The requested amount would provide funding for ongoing and 
newly identified projects that renovate, expand, and improve VA 
facilities. This year's focus is a balance between continuing to fund 
minor construction projects that we can implement quickly to maintain 
and repair our aging infrastructure, while using major construction 
funding to address life-threatening safety and seismic issues that 
currently exist at multiple VA medical facilities.

Opportunity, Growth and Security Initiative

    The Budget also includes a separate $56 billion Opportunity, 
Growth, and Security Initiative to spur economic progress, promote 
opportunity, and strengthen national security. This Initiative would 
increase employment, while achieving important economic outcomes in 
areas from education to research to manufacturing and public health and 
safety. Moreover, the Opportunity, Growth, and Security Initiative is 
fully paid for with a balanced package of spending cuts and tax 
loophole closers.
    At the Department of Veterans Affairs (VA), the Opportunity, 
Growth, and Security Initiative will support capital investments 
essential to expanding and protecting Veterans' access to quality care 
and benefits. By providing an additional $400 million for the VA 
capital program, enactment of the Initiative will allow additional 
progress in addressing the Department's highest priority capital needs, 
including a major construction project to replace a seismically 
deficient research facility in San Francisco, California.

National Cemetery Administration

    The NCA has the solemn duty to honor Veterans and their families 
with final resting places in national shrines and with lasting tributes 
that commemorate their service and sacrifice to our Nation. We honor 
those individuals' service through our 133 national cemeteries, which 
includes two national cemeteries scheduled to open in 2015, 33 
Soldiers' lots and monuments, the Presidential Memorial Certificate 
program, and through the markers and medallions that we place on the 
graves of Veterans around the world. The 2015 Budget includes $256.8 
million for operations and maintenance to uphold NCA's responsibility 
for this mission, including funds to open two new national cemeteries 
and to begin preparations for opening two National Veterans Burial 
Grounds.
    NCA projects its workload will continue to increase. For 2015, we 
anticipate conducting approximately 128,100 interments of Veterans or 
their family members, and maintaining and providing perpetual care for 
approximately 3.5 million gravesites. NCA will also maintain 8,882 
developed acres and process approximately 362,900 headstone and marker 
applications.
    NCA maintains a strong commitment to hiring Veterans. Currently, 
Veterans comprise over 74 percent of its workforce. Since 2009, NCA 
hired over 450 returning Iraq and Afghanistan Veterans. In addition, 
NCA awarded 66.5 percent of contract awards in 2013 to Veteran-owned 
and service-disabled, Veteran-owned small businesses. NCA's committed, 
Veteran-centric workforce is the main reason it is able to provide a 
world-class level of customer service. NCA participated for the 5th 
time in the American Customer Satisfaction Index (ACSI), sponsored by 
the Federal Consulting Group and Claes Fornell International (CFI) 
Group. In the 2013 review, NCA received a score of 96 out of a possible 
100, the highest score to date for any organization in the public or 
private sector.
    NCA continues to leverage its partnerships to increase service for 
Veterans and their families. As a complement to the national cemetery 
system, NCA administers the Veterans Cemetery Grant Service (VCGS), 
which provides grants to establish, expand, or improve state and tribal 
Veterans' cemeteries. There are currently 90 operational state and 
tribal cemeteries in 45 states, Guam, and Saipan, with five more under 
construction. Since 1980, VCGS awarded grants totaling more than $566 
million to establish, expand, or improve these Veterans' cemeteries. In 
2013, these cemeteries conducted over 32,000 burials for Veterans and 
family members.

Legislation

    In addition to presenting VA's resource requirements, the 2015 
President's Budget also proposes legislative action that will benefit 
Veterans. These proposals build on VA's legislative agenda transmitted 
in the First Session of the 113th Congress, as part of the 2014 
President's Budget. Let me highlight a few provisions: VA proposes a 
measure that will allow better coordination of care when a Veteran also 
receives other care at a non-VA hospital, by streamlining the exchange 
of patient information. Additionally, we propose allowing the CHAMPVA 
to cover children up to age 26, to make that program consistent with 
benefits conferred under the ACA. We also are submitting a proposal 
that would modernize our domiciliary care program by removing income-
based eligibility restrictions.
    To continue our priority to end Veteran homelessness, VA proposes 
increased flexibility in the Grant and Per Diem program to focus on the 
transition to permanent housing. Also among our proposals is a measure 
that would allow VA to speed payment of Dependency and Indemnity 
Compensation and other benefits to surviving spouses by eliminating the 
need for a formal claim when there already is sufficient evidence for 
VA to act. We greatly appreciate consideration of these and other 
legislative proposals included in the 2015 Budget and look forward to 
working with Congress to enact them.

Summary

    Since the founding of our great Nation, Veterans helped our country 
meet all challenges; this remains true today as Veterans help rebuild 
the American middle class. At VA, we continue to implement the 
President's vision and transform VA into a 21st century leader of 
efficiency, effectiveness, and innovation within the Federal 
government. Our 2015 Budget supports Presidential priorities to always 
add value to the Nation, boost economic growth, strengthen the middle 
class, and work side-by-side with Federal partners to eliminate 
unnecessary overlaps or redundancies.
    Given today's challenging fiscal environment, this Budget focuses 
VA resources, policies, and strategies on the most urgent issues facing 
Veterans and provides the resources critical to expand access, 
eliminate the disability claims backlog in 2015, and end Veteran 
homelessness in 2015. There is no greater mission than serving 
Veterans. Again, thank you for the opportunity to appear before you 
today and for your unwavering support of Veterans.

                     Paralyzed Veterans Of America

    Chairman Miller, Ranking Member Michaud, and Members of the 
Committee, as one of the four co-authors of The Independent Budget 
(IB), Paralyzed Veterans of America (PVA) is pleased to present the 
views of The Independent Budget regarding the funding requirements for 
the Department of Veterans Affairs (VA) for FY 2015.
    As Congress and the Administration continue to face immense 
pressure to reduce federal spending, we cannot emphasize enough the 
importance of ensuring that sufficient, timely and predictable funding 
is provided to the Department of Veterans Affairs (VA). The co-authors 
of The Independent Budget--AMVETS, Disabled American Veterans, 
Paralyzed Veterans of America, and Veterans of Foreign Wars--recognize 
the pressure that the Administration and Congress face; however, we 
believe that the ever-growing demand for healthcareservices certainly 
validates the continued need for sufficient funding. We also understand 
that the VA has fared better than most federal agencies with regards to 
budget proposals and appropriations. However, we are concerned that 
discretionary funding for the VA is no longer keeping pace with medical 
care inflation or healthcaredemand.
    That being said, we certainly appreciate the increases offered by 
the Administration's budget for FY 2015 and the FY 2016 advance 
appropriations, particularly with regards to healthcare and benefits 
services. Unfortunately, we have real concerns that the serious lack of 
commitment to infrastructure funding to support the system will 
undermine the VA's ability to deliver those services. Similarly, we 
remain concerned that the funding levels provided by the House and 
Senate Committees on Appropriations in the recently passed omnibus 
appropriations bill will be insufficient to address the continuously 
growing demand for VA healthcareservices.
    Moreover, The Independent Budget co-authors oppose the steps VA has 
taken in recent years in order to generate resources to meet ever-
growing demand on the VA healthcare system. The Administration 
continues to rely upon ``management improvements,'' a popular gimmick 
that was used by previous Administrations to generate savings and 
offset the growing costs to deliver care. Unfortunately, these savings 
are often never realized leaving VA short of necessary funding to 
address ever-growing demand on the healthcare system.
    Of even greater concern is the fact that the VA continues to over 
project and underperform with its medical care collections estimates. 
Overestimating collections estimates affords Congress the opportunity 
to appropriate fewer discretionary dollars for the healthcaresystem. 
However, when the VA fails to achieve those collections estimates, it 
is left with insufficient funding to meet the projected demand. As long 
as this scenario continues, the VA will find itself falling farther and 
farther behind in its ability to care for those men and women who have 
served and sacrificed for this nation. In fact, we believe that is 
exactly what is happening now. For example, the VA originally projected 
collections of approximately $3.3 billion in FY 2013 and FY 2014 and 
approximately $3.2 billion in FY 2015. Congress based its 
appropriations for the VA for those fiscal years on those projected 
collections. However, the VA subsequently revised its estimates 
anticipating collections of $2.8 billion in both FY 2013, $2.9 billion 
in FY 2014, and less than $3.1 billion for FY 2015. The flawed 
projections estimates and the dollars appropriated by Congress in each 
of those fiscal years suggest that the VA may have received $1.0 
billion too little in resources during that period. And yet, this 
shortfall has never been addressed through supplemental appropriations.
    Too often in meetings with congressional offices, staff members 
have proclaimed the belief that VA has received too much money. We 
would ask the Committee how that logic passes when we have clearly 
identified a shortfall simply based on faulty collections estimates. 
Similarly, we would ask that the Committee proceed with caution in FY 
2016 as the VA has once again projected a collections estimate of $3.3 
billion despite the fact that its recent performance suggests that it 
will not achieve that level. The fact that the VA continues to 
experience problems with its medical care collections reflects an even 
greater need for Congress to properly analyze, and if necessary, revise 
the advance appropriations from previous years to ensure that the VA 
healthcare system is getting the resources it actually needs.

Funding for FY 2015

    For FY 2015, The Independent Budget recommends approximately $61.1 
billion for total medical care, an increase of approximately $3.4 
billion over the FY 2014 operating budget. Meanwhile, the 
Administration recommended in its FY 2015 Budget Request a revised 
advance appropriation estimate for FY 2015 of approximately $56.0 
billion in discretionary funding for VA medical care. This revised 
estimate reflected a projected increase in discretionary funding of 
approximately $368 million over the recently approved advance 
appropriations level. When combined with the approximately $3.1 billion 
revised projection for medical care collections (decreased from $3.2 
billion in last year's estimate), the total available operating budget 
recommended for FY 2015 is approximately $59.1 billion. This reflects 
an increase of $1.7 billion over the previously approved FY 2014 
operating budget, an amount that we believe is inadequate to fully meet 
the healthcare demand.
    The medical care appropriation includes three separate accounts--
Medical Services, Medical Support and Compliance, and Medical 
Facilities--that comprise the total VA health-care funding level. For 
FY 2015, The Independent Budget recommends approximately $49.3 billion 
for Medical Services. Our Medical Services recommendation includes the 
following recommendations:

Current Services Estimate............................... $47,616,189,000
Increase in Patient Workload............................   1,171,260,000
Additional Medical Care Program Costs...................     500,000,000
Total FY 2014 Medical Services.......................... $49,287,449,000

    Our growth in patient workload is based on a projected increase of 
approximately 87,000 new unique patients--priority groups 1-8 veterans 
and covered nonveterans. We estimate the cost of these new unique 
patients to be approximately $853 million. The increase in patient 
workload also includes a projected increase of 83,350 new Operation 
Enduring Freedom and Operation Iraqi Freedom (OEF/OIF), as well as 
Operation New Dawn (OND) veterans at a cost of approximately $318 
million. The increase in utilization among OEF/OIF/OND veterans is 
supported by the average annual increase in new users from FY 2002 
through the 3rd quarter of FY 2013.
    The Independent Budget also believes that there are additional 
projected funding needs for VA. Specifically, we believe there is real 
funding needed to address the array of long-term care issues facing the 
VA, including the shortfall in institutional capacity, and to provide 
additional centralized prosthetics funding (based on actual 
expenditures and projections from the VA's prosthetics service). The 
Independent Budget recommends $375 million directed towards VA long-
term care programs. In order to support the rebalancing of VA long-term 
care in FY 2015, $125 million should be provided. Additionally, $95 
million should be targeted at the VA's Veteran Directed-Home and 
Community Based Services (VD-HCBS) program. The remainder of the $375 
million ($155 million) should be dedicated to increasing the VA's long-
term care average daily census (ADC) to the level mandated by Public 
Law 106-117, the ``Veterans Millennium healthcare and Benefits Act.'' 
In order to meet the increase in demand for prosthetics, the IB 
recommends an additional $125 million. This increase in prosthetics 
funding reflects an increase in expenditures from FY 2013 to FY 2014 
and the expected continued growth in expenditures for FY 2015.
    For Medical Support and Compliance, The Independent Budget 
recommends approximately $6.1 billion. Finally, for Medical Facilities, 
The Independent Budget recommends approximately $5.7 billion. Our 
Medical Facilities recommendation includes the addition of $650 million 
to the baseline for Non-Recurring Maintenance (NRM). The 
Administration's request over the last two cycles represents a wholly 
inadequate request for NRM funding, particularly in light of the actual 
expenditures that are outlined in the budget justification. In fact, 
the VA's FY 2015 and FY 2016 advance appropriations request for 
infrastructure is wholly insufficient (a topic that will be addressed 
by the VFW in its statement to the Committee), particularly with 
regards to Major and Minor Construction and Non-Recurring Maintenance 
(NRM). The VA continues to slash funding for NRM as evidenced by the 
rapidly decreasing estimates for Medical Facilities. And yet, the VA 
admits in its own documents that it spends between $1.3 billion and 
$1.4 billion per year on NRM. Similarly, we are extremely disappointed 
that the VA has requested such a laughable funding level for Major and 
Minor Construction, particularly considering the rapidly advancing age 
and condition of its infrastructure. It is time for Congress to take 
the necessary steps to reverse this course before the VA system 
collapses on itself.
    The Independent Budget co-authors have ongoing concerns about the 
lack of investment in Medical and Prosthetic Research. While we 
recognize that the Administration requested an increase in the research 
account for FY 2015, the $3 million increase does not even keep pace 
with inflation. If the VA is to remain a world leader in research, it 
is imperative that the Administration get serious about requesting real 
dollars and that Congress provide adequate resources to continue those 
efforts. With this point in mind, The Independent Budget recommends 
$611 million for Medical and Prosthetic Research funding for FY 2015. 
Similarly, we recommend at least $50 million in Major Construction and 
$175 million in Minor Construction and NRM to address the deteriorating 
state of VA research infrastructure. Failure to make these investments 
will undermine the VA's ability to continue to attract the best medical 
professionals into the research field and promote cutting edge 
advancements to benefit the men and women who have made great physical 
and mental sacrifices in defense of this Nation.

Advance Appropriations for FY 2016

    Just as we did for the first time last year, The Independent Budget 
once again offers baseline projections for funding through advance 
appropriations for the medical care accounts for FY 2016. While we have 
previously deferred to the Administration and Congress to provide 
sufficient funding through the advance appropriations process, we have 
growing concerns that this responsibility is not being taken seriously.
    For FY 2016, The Independent Budget recommends approximately $62.5 
billion for total medical care. The Administration's Budget Request 
includes approximately $62.0 billion for total medical care--$58.7 
billion in discretionary spending and approximately $3.3 billion in 
medical care collections. We appreciate the fact that the 
Administration has offered a substantial increase in healthcare funding 
from FY 2015 to FY 2016 (as a part of its advance appropriations 
request).
    For FY 2016, The Independent Budget recommends approximately $50.8 
billion for Medical Services. Our Medical Services recommendation 
includes the following recommendations:

Current Services Estimate............................... $49,193,067,000
Increase in Patient Workload............................   1,074,225,000
Additional Medical Care Program Costs...................     510,000,000
Total FY 2015 Medical Services.......................... $50,777,292,000

    Our growth in patient workload is based on a projected increase of 
approximately 67,000 new unique patients--priority groups 1-8 veterans 
and covered nonveterans. We estimate the cost of these new unique 
patients to be approximately $746 million. The increase in patient 
workload also includes a projected increase of 83,350 new Operation 
Enduring Freedom and Operation Iraqi Freedom (OEF/OIF), as well as 
Operation New Dawn (OND) veterans at a cost of approximately $328 
million.
    Lastly, The Independent Budget believes that there are additional 
projected funding needs for VA. For FY 2016, we believe that an 
additional $375 million should be invested to address the spectrum of 
long-term care issues within the VA. Additionally, we believe that a 
continued increase in centralized prosthetics funding will be 
essential. In order to meet the continued increase in demand for 
prosthetics, the IB recommends an additional $135 million.
    For Medical Support and Compliance, The Independent Budget 
recommends approximately $6.0 billion. Finally, for Medical Facilities, 
The Independent Budget recommends approximately $5.7 billion. Our 
Medical Facilities recommendation includes the addition of $900 million 
to the baseline for Non-Recurring Maintenance (NRM). Last year, the 
Administration's recommendation for NRM reflected a projection that 
would place the long-term viability of the healthcare system in serious 
jeopardy.

Advance Appropriations for all VA Accounts

    The Independent Budget co-authors are concerned that the broken 
appropriations process continues to have a negative impact on the 
operations of the VA. Once again this year Congress failed to fully 
complete the appropriations process in the regular order. In fact, many 
federal operations were shuttered as part of a partial government 
shutdown in October 2013. This had a significant negative impact on 
many of the services provided by the VA. While VA healthcare was 
shielded from this political disaster, benefits services, research 
activities, and general operations for the rest of the VA were 
impacted. Additionally, many of the operations that support the 
healthcare system, particularly through the Information Technology 
system, were negatively impacted complicating the VA's ability to 
delivery timely, quality healthcare.
    We also have real concerns about the advance appropriations process 
as it currently functions. Our intent for this process was for the 
Administration to request an advance appropriation for a given fiscal 
year (two years ahead of the start of that fiscal year), and then 
revise that recommendation in its next budget request immediately prior 
to the start of the fiscal year in question. We appreciate the fact 
that the Administration's FY 2015 Budget Request does include a 
significant revision for Medical Services reflecting an increased need 
for funding of approximately $368 million. However, during past budget 
cycles, the Administration has offered very little revision in its 
advance appropriations requests essentially asking for the same funding 
level. Moreover, we believe that Congress has not done its due 
diligence to adequately analyze the advance appropriations 
recommendations and make any necessary changes through supplemental 
appropriations. In fact, once Congress has approved an advance 
appropriations level for VA, it has not revised its previous years' 
decision in any appreciable way. This undermines the principle benefit 
of advance appropriations--having additional time to ensure that 
sufficient funds are provided.
    With this in mind, we call on Congress to immediately approve 
legislation that would extend advance appropriations to all VA 
discretionary and mandatory appropriations accounts. Advance 
appropriations have shielded VA healthcarefrom most of the harmful 
effects of the partisan bickering and political gridlock that has 
paralyzed Washington in recent years. Now Congress must provide the 
same protections to all remaining discretionary programs, including 
Medical and Prosthetic Research, General Operating Expenditures, 
Information Technology, the National Cemetery Administration, Inspector 
General, Major Construction, Minor Construction, State Home 
Construction Grants, State Cemetery Grants and other discretionary 
accounts, and all mandatory funded programs, including disability 
compensation, pension, education benefits, and dependency and indemnity 
compensation.
    Chairman Miller and Ranking Member Michaud, the co-authors of The 
Independent Budget sincerely appreciate your commitment to this effort 
and we applaud your introduction and advocacy to ensure that H.R. 813, 
the ``Putting Veterans Funding First Act,'' was passed by the House of 
Representatives. We commit to you our steadfast support to see this 
legislation through to final passage and enactment. Enactment of H.R. 
813 will generally free all VA services from the political gridlock 
that has crippled the appropriations process in Congress.
    In the end, it is easy to forget that the people who are ultimately 
affected by wrangling over the budget are the men and women who have 
served and sacrificed so much for this nation. We hope that you will 
consider these men and women when you develop your budget views and 
estimates, and we ask that you join us in adopting the recommendations 
of The Independent Budget.
    This concludes our statement. We would be happy to answer any 
questions you may have.
    Information Required by rule XI 2(g)(4) of the House of 
Representatives
    Pursuant to rule XI 2(g)(4) of the House of Representatives, the 
following information is provided regarding federal grants and 
contracts.
    Fiscal Year 2013
    National Council on Disability--Contract for Services--$35,000.
    Fiscal Year 2012
    No federal grants or contracts received.
    Fiscal Year 2011
    Court of Appeals for Veterans Claims, Administered by the Legal 
Services Corporation--National Veterans Legal Services Program--
$262,787.

 Statement of Raymond C. Kelley, Director National Legislative Service 
 Veterans Of Foreign Wars Of The United States, Committee On Veterans' 
            Affairs, United States House Of Representatives

                            with respect to

                VA's Budget Request For Fiscal Year 2015

    Mr. Chairman and Members of the Committee:
    On behalf of the men and women of the Veterans of Foreign Wars of 
the United States (VFW) and our Auxiliaries, I would like to thank you 
for the opportunity to testify today. The VFW works alongside the other 
members of the Independent Budget (IB)--AMVETS, Disabled American 
Veterans and Paralyzed Veterans of America--to produce a set of policy 
and budget recommendations that reflect what we believe would meet the 
needs of America's veterans. The VFW is responsible for the IB's 
Construction Programs, so I will limit my remarks to that portion of 
the budget.
    The vastness of the Department of Veterans Affairs' (VA) capital 
infrastructure is rarely fully seen or understood. VA currently manages 
and maintains 6,016 buildings and almost 34,000 acres of land with a 
plant replacement value (PRV) of approximately $45 billion. Although VA 
has addressed a number of critical infrastructure gaps, 4,049 gaps 
remain that will cost between $56 and $68 billion to close, including 
$10 billion in activation costs. This is an increase of $2 billion from 
a year ago.
    With shrinking requests and appropriations from the Administration 
and Congress, VA is moving further behind in closing known safety, 
utilization, and access gaps and continues to fail to prevent future 
gaps from arising. To only maintain VA infrastructure in its current 
condition, VA's Non-Recurring Maintenance (NRM) account would need 
$1.35 billion per year, based on the estimated plant replacement value 
the IB partners have calculated. The Administration has requested that 
NRM be funded at $462 million. More funds will need to be invested to 
prevent the documented NRM backlog of $18 billion to $22 billion from 
growing even larger. To address the gaps in safety, access, and 
utilization, VA will need to invest between $26 billion to $31 billion 
in major and minor construction and leasing.
    In addition, the Strategic Capital Investment Planning (SCIP) 
process is intended to help VA make more informed decisions on capital 
investments. A key element missing from the gap analysis criteria is a 
comprehensive assessment of the resources that exist outside of the VA 
through existing contracts and sharing agreements. Unlike VA-built or 
VA-leased space, contracts can be amended, cancelled, or sited 
differently to respond to any geographic changes and healthcare needs 
of veterans eligible for this care. This difference is especially 
relevant in the Veterans Health Administration (VHA) because VA, 
Congress, and the IB partners have increasingly supported leveraging 
community resources to provide accessible care to veterans in rural and 
underserved areas. Without a comprehensive understanding of the 
healthcare resources that exist within and outside of VA, the 
Department cannot make sound decisions on capital investments and on 
right sizing its inventory for the near-, mid-, and long-term periods. 
Another apparent flaw of the SCIP process is the lack of transparency 
on the costs of VA's future real property priorities, which hinders 
VA's ability to make informed decisions. This shortcoming was among the 
findings in a report, titled VA Real Property: Realignment Progressing, 
but Greater Transparency about Future Priorities is Needed, which the 
Government Accountability Office (GAO) issued on January 31, 2011.
    The IB partners fully support the GAO's recommendation in this 
report that the VA must enhance transparency by submitting an annual 
report to Congress on the results of the SCIP process, subsequent 
capital planning efforts, and details on the costs of future projects. 
The IB partners also support the inclusion of new gap-analysis criteria 
that consider resources that are available to the VHA through existing 
contracts and sharing agreements. The IB partners, in turn, will be 
monitoring the level of funding for each of the infrastructure accounts 
to ensure that all current gaps are met within 10 years and that 
emerging and future gaps will be closed by sufficient funding.
    Quality, accessible healthcare continues to be the focus for the IB 
partners, and to achieve and sustain that goal, large capital 
investments must be made. Presenting a well-articulated, completely 
transparent capital-asset plan, which VA has attempted to do, is 
important, but funding that plan at nearly half of the prior year's 
appropriated level, and at a level that is only 25 percent of what is 
needed to close the access, utilization, and safety gaps, will not 
fulfill VA's requirements, nor will it serve veterans' best interests.
    Major Construction Accounts: Decades of underfunding in amounts 
between $18.1 billion and $22.1 billion have led to a major 
construction backlog. Currently, the VHA has 21 major construction 
projects dating back to 2007 that have been only partially funded. In 
the Administration's budget request for fiscal year (FY) 2015, VA 
requested funding for only four major projects that include partial 
funding for seismic corrections and extended care facility expansion, 
and fully fund a spinal cord injury center. The total unobligated 
amount for all currently budgeted major construction projects exceeds 
$2.3 billion. Yet, the total budget proposal for FY 2015 major 
construction accounts is $562 million.
    To finish existing projects and to close current and future gaps, 
VA will need to invest more than $18 billion over the next 10 years. At 
current requested funding levels, it will take 32 years to complete 
VA's 10-year plan.
    In the short-term, VA must start requesting and Congress must start 
funding major construction at a level that begins to reduce the 
backlog. The IB partners recommend providing VA with $2.8 billion in 
major construction funding in FY 2015. These increased funds will 
eliminate the most severe safety gaps and complete funding on the 
longest standing projects. VA must also begin presenting long-term 
proposals that will outline how the Department will close all major 
construction gaps.
    Minor Construction Accounts: To close all the minor construction 
gaps within a 10-year timeline, VA will need to invest between $6.7 
billion and $8.2 billion. For several years, VA minor construction was 
funded at a level to meet its 10-year goal. However, the Administration 
has abandoned their long-term commitment to increased appropriations 
and proposed yet another drastic funding decrease for minor 
construction that would only provide $495 million for FY 2015.
    The IB partners believe that minor construction accounts can be 
brought back on track by investing approximately $831 million per year 
over the next decade to close existing gaps and to prevent unmanageable 
future gaps in minor construction.
    Additionally, for capital infrastructure, renovations, and 
maintenance, we recommend $50 million or more for up to five major 
construction projects in VA research facilities and $175 million in 
non-recurring maintenance and Minor-Construction funding. This increase 
would address Priority 1 and 2 deficiencies identified in the 2012 VA 
research capital infrastructure report (in accounts that are separate 
from VA's other major, minor, and maintenance and repair 
appropriations).
    Nonrecurring Maintenance Accounts: Even though non-recurring 
maintenance (NRM) is funded through VA's Medical Facilities account, 
and not through a construction account, NRM is critical to VA's capital 
infrastructure. NRM embodies the many small projects that together 
provide for the long-term sustainability and usability of VA 
facilities. NRM projects are one-time repairs, such as modernizing 
mechanical or electrical systems, replacing windows and equipment, and 
preserving roofs and floors. Nonrecurring maintenance is a necessary 
component of the care and stewardship of a facility. When managed 
responsibly, these relatively small, periodic investments ensure that 
the more substantial investments of major and minor construction 
provide real value to taxpayers and to veterans as well.
    VA is moving away from closing current NRM safety, utilization, and 
access gaps and continues to fall behind on preventing future gaps. 
Just to maintain in the status quo, VA's NRM account must be funded at 
$1.35 billion per year, based on the estimated Plant Replacement Value 
(PRV). The Administration is requesting $462 million for NRM in FY 
2015. More will need to be invested to prevent the $21.9 billion NRM 
backlog from growing larger.
    The IB partners believe VA should develop a PRV metric and publish 
its results. Adding the PRV to the SCIP will allow VA to more 
accurately determine the appropriate amount to request for NRM and 
objectively decide when a facility becomes more costly to maintain than 
to replace. Using the PRV as a tool, VA can more accurately determine 
the annual funding levels needed for NRM by facility, allowing for the 
reduction in the NRM backlog and fully funding future needs in a way 
that would be the most cost effective. The industry goal for NRM is 
around two percent of the PRV. At that rate, facilities can operate for 
50 years or more without outspending replacement cost. Knowing what 
percentage of the PRV is being spent and taking a long view of capital 
planning would allow Congress and VA to assess when a facility will 
need to be replaced.
    Because NRM accounts are organized under the Medical Facilities 
appropriation, they have traditionally been apportioned using the 
Veterans Equitable Resource Allocation (VERA) formula. This formula was 
intended to allocate health-care dollars to those areas with the 
greatest demand for healthcare and is not an ideal method to allocate 
NRM funds. When dealing with maintenance needs, this formula may prove 
counterproductive by moving funds away from older medical centers and 
reallocating the funds to newer facilities where patient demand is 
greater, even if the maintenance needs are not as great. We are 
encouraged by actions the House and Senate Veterans' Affairs Committees 
have taken in recent years requiring NRM funding to be allocated 
outside the VERA formula, and we hope this practice will continue.
    Capital Leasing: The fourth cornerstone to VA's capital planning is 
leasing. The current lease plan calls for a little more than $1.1 
billion over the next 10 years. VA leases properties to use for each 
agency within VA, ranging from community-based outpatient clinics 
(CBOC) and medical centers to research and warehouse space. These 
leases do not fall under the larger construction accounts, but under 
each Administration and staff office operating accounts.
    Since the 1990s, Congress has helped improve VA health-care access 
and patient satisfaction by authorizing and funding nearly 900 VA 
CBOCs. These facilities have provided local, convenient and cost-
effective primary care for millions of veterans. In a 2012 policy 
shift, the Congressional Budget Office changed its accounting practice 
on how major capital leases are to be funded, effectively halting 
Congressional authorization of future leases. This is the third year 
without passing lease authority and there are now 32 major capital 
leases, totaling nearly $288 million, for which VA has requested 
Congressional authorization. These leases are in limbo and Congress 
needs to pass H.R. 3521.
    Mr. Chairman, this concludes my testimony and I look forward to any 
questions you or the Committee may have.

Information Required by Rule XI2(g)(4) of the House of Representatives

    Pursuant to Rule XI2(g)(4) of the House of Representatives, VFW has 
not received any federal grants in Fiscal Year 2013, nor has it 
received any federal grants in the two previous Fiscal Years.

                                 <F-dash>

                 Statement Of Paul R. Varela, Director,

                   DAV Assistant National Legislative

    Chairman Miller, Ranking Member Michaud, and Members of the 
Committee:
    On behalf of the DAV and our 1.2 million members, all of whom are 
wartime disabled veterans, I am pleased to present recommendations of 
The Independent Budget (IB) for the fiscal year (FY) 2015 budget 
related to veterans' benefits and the Veterans Benefits Administration 
(VBA). The IB is jointly produced each year by DAV, AMVETS, Paralyzed 
Veterans of America and Veterans of Foreign Wars of the United States. 
This year's IB contains numerous recommendations to improve veterans' 
benefit programs and the claims processing system; however, in today's 
testimony I will highlight just some of the most critical ones for this 
Committee to consider.
    Mr. Chairman, the timely delivery of earned benefits to the 
millions of men and women who have served in our Armed Forces is one of 
the most sacred obligations of the federal government. The award of a 
service-connected disability rating does more than provide compensation 
payments; it is the gateway to an array of benefits that support the 
recovery and transition of veterans, their families and survivors. 
However, when these benefits are delayed or unjustly denied, the 
consequences to veterans and their families can be devastating. For 
those wounded heroes who file claims for disability compensation, the 
wait to receive an accurate rating decision and award can take anywhere 
from a few months to several years; longer if they have to appeal 
incorrect decisions.
    In early 2010, Secretary Shinseki laid out an extremely ambitious 
goal for VBA to achieve by 2015: process 100 percent of claims in less 
than 125 days, and do so with 98 percent accuracy. Since that time, VBA 
has worked to completely transform their IT systems, business processes 
and corporate culture, while simultaneously continuing to process more 
than a million claims each year. VBA is actively rolling out new 
organizational models and practices, and continuing to develop and 
deploy new technologies almost daily.
    Today there are about 685,000 claims for compensation and pension 
awaiting decisions at VBA. At the beginning of 2013, there were more 
than 860,000 pending claims for disability compensation and pension. By 
the end of the year, that number had dropped by more than 20 percent, 
down to about 685,000 pending. The number of claims in the backlog--
greater than 125 days pending--dropped by about a third, from more than 
600,000 in January 2013 to just over 405,000 in January 2014. The VBA 
increased the number of claims completed each month from an average of 
about 89,000 during the first four months of the year to more than 
114,000 during the succeeding six months prior to the government 
shutdown. Claims production dropped significantly following the 
shutdown and during the subsequent holiday period.
    In the midst of this massive transformation, it can be hard to get 
the proper perspective to measure whether their final systems will be 
successful, but we believe there has been sufficient progress to merit 
continued support of the current transformation efforts. Now is not the 
time to stop or change direction.
    We urge this Committee and Congress to provide the support and 
resources necessary to complete this transformation as currently 
planned, while continuing to exercise strong oversight to ensure that 
VBA remains focused on the long-term goal of creating a new claims 
processing system that decides each claim right the first time. In 
particular, the proposed FY 2015 budget for VBA includes additional 
funding for scanning and conversion of existing paper claims files, 
absolutely critical for VBA to complete its transformation from an 
outdated, paper-based claims system to a modern, paperless, automated 
claims system.
    Mr. Chairman, one of the most important aspects needed to assure 
ongoing positive changes within the VBA is their willingness to remain 
open and partner with veterans service organizations. Our organizations 
possess significant knowledge and experience of the claims process and 
collectively we hold power of attorney (POA) for millions of veterans 
who are filing or have filed claims. VBA recognized that close 
collaboration with VSOs could not only reduce its workload, but also 
increase the quality of its work. We make VBA's job easier by helping 
veterans prepare and submit better claims, thereby requiring less time 
and resources for VBA to develop and adjudicate them.
    The IB veterans service organizations (IBVSOs) have been consulted 
about initiatives proposed or underway at VBA, including Fully 
Developed Claims (FDC), Disability Benefit Questionnaires (DBQs), the 
Veterans Benefit Management System (VBMS), the Stakeholder Enterprise 
Portal (SEP), and the update of the Department of Veterans Affairs (VA) 
Schedule for Rating Disabilities (VASRD). Both Secretary Shinseki and 
Under Secretary Hickey have reached out to consult and collaborate with 
VSOs and we are confident that VBA's success going forward will require 
a continued and enhanced partnership that will result in better service 
and outcomes for veterans.
    Since 2009, VBA has made some significant changes in how claims are 
processed. The most important amongst these is the development of the 
VBMS, its new IT system. VBMS has been rolled out to all 56 Regional 
Offices and VBA was able to complete implementation of the VBMS ahead 
of schedule in June; by the end of 2013, nearly all of VBA's pending 
claims were processed using electronic files. It is important to 
remember that VBMS is not yet a finished product; rather, it continues 
to be developed and perfected as it is deployed so it is still 
premature to judge whether it will ultimately deliver all of the 
functionality and efficiency required to meet VBA's future claims 
processing needs.
    Another very important milestone was VBA's decision and commitment 
to scan all paper claims files for every new or reopened claim 
requiring a rating-related action, and creating digital e-folders to 
serve as the cornerstone of the new VBMS system. E-folders facilitate 
instantaneous transmission and simultaneous reviewing of claims files. 
At present, there are an estimated 500,000 e-folders and that number 
will continue to grow as the remaining ROs convert to VBMS this year.
    In addition, the Appeals Management Center (AMC) is now working in 
VBMS and able to review e-folders. The Board of Veterans Appeals (BVA) 
will also begin receiving appeals in VBMS on a pilot basis.
    VBA also continues to strengthen its e-Benefits and SEP systems, 
which allow veterans and their representatives to file claims, upload 
supporting evidence and check on the status of pending claims. VBA has 
rolled out a new transformation organizational model (TOM) to every 
Regional Office that has reorganized workflow by segmenting claims into 
different processing lanes depending upon the complexity of the issues 
to be decided for each claim. Other key process improvements that we 
strongly support include the FDC program, which expedites ready-to-rate 
claims, and DBQs, which standardize and encourage the collection of 
private medical evidence to aid in rating decisions. To improve the 
accuracy of their work, VBA also fulfilled one of our long-standing 
recommendations by creating local Quality Review Teams (QRTs), whose 
primary function is to monitor claims processing in real time to catch 
and correct errors before rating decisions are finalized.

Claims Processing Recommendations

    Over the next year, Congress must continue to perform aggressive 
oversight of VBA's ongoing claims transformation efforts, particularly 
new IT programs, while actively supporting the completion and full 
implementation of these vital initiatives. In order for VBA's current 
transformation plans to have any reasonable chance of success, VBA must 
be allowed to complete and fully implement them. Congress must continue 
to fully fund the completion of VBMS, including providing sufficient 
funding for digital scanning and conversion of legacy paper files, as 
well as the development of new automation components for VBMS. At the 
same time, the IBVSOs recommend that Congress encourage an independent, 
expert review of VBMS while there is still time to make course 
corrections.
    Congress must also encourage and support VBA's efforts to develop a 
new corporate culture based on quality, accuracy and accountability, as 
well as strengthen the transmission and adoption of these values and 
appropriate supportive policies throughout all VBA Regional Offices. 
The long-term success of all of VBA's transformation efforts will 
depend on the degree to which these changes are institutionalized and 
disseminated from the national level to the local level. In addition to 
strengthening training, testing and quality control, VBA must be 
encouraged to properly align measuring and reporting functions with 
desired goals and outcomes for both its leadership and employees.
    For example, as long as the most widely reported metric of VBA's 
success is the Monday Morning Workload Reports, particularly the weekly 
update on the size of the backlog, there will remain tremendous 
pressure throughout VBA to place production gains ahead of quality and 
accuracy. Similarly, if individual employee performance standards set 
unrealistic production goals, or fail to properly credit ancillary 
activity that contributes to quality but not production, those 
employees will be incentivized to focus on activities that maximize 
only production. VBA must develop more and better measures of work 
performance that focus on quality and accuracy, both for the agency as 
a whole and for individual employees.
    Furthermore, VBA must ensure that employee performance standards 
are based on accurate measures of the time it takes to properly perform 
their jobs.
    Congress must also ensure that VBA does not change its reporting or 
metrics for the sole purpose of achieving statistical gains, commonly 
referred to as ``gaming the system,'' in the absence of actual 
improvements to the system. For example, VBA recently announced that 
they will change how errors are scored for multi-issue claims.
    Previously, a claim would be considered to have an error if one 
mistake on at least one issue in the claim was detected during a STAR 
review. Under the new error policy, if there are 10 issues in the claim 
and a single error is found on one of the issues, that would now be 
scored as only 0.1 errors for that claim. While this may be a more 
valid way of measuring technical accuracy, it also has the effect of 
lowering the error rate without actually lowering the number of errors 
committed. For instance, if VBA measures errors by issue, then the 
backlog of claims would not be the reported 405,000, but a multiple of 
that based upon the total number of issues, which would be in the 
millions. Likewise, VBA's allowance rate must be adjusted with this 
type of change in reporting to accurately reflect the number of issues 
allowed out of the total number of issues claimed, which would be 
significantly lower than the current allowance rate per claim. In 
essence, VBA cannot simply change the metrics to suit their need to 
reflect gains or improvements; they must change all corresponding 
metrics such as claims v. issues, allowances v. denials and remands or 
similar.
    Additionally, to make the system more efficient, Congress should 
enact and promote legislation and policies that maximize the use of 
private medical evidence to conserve VBA resources and enable quicker, 
more accurate rating decisions for veterans. The IBVSOs have long 
encouraged VBA to make greater use of private medical evidence when 
making claims decisions, which would save veterans time and VBA the 
cost of unnecessary examinations.
    DBQs, many of which were developed in consultation with IBVSO 
experts, are designed to allow private physicians to submit medical 
evidence on behalf of veterans they treat in a format that aids rating 
specialists. However, we continue to receive credible reports from 
across the country that many Veterans Service Representatives (VSRs) 
and Rating Veterans Service Representatives (RVSRs) do not accept the 
adequacy of DBQs submitted by private physicians, resulting in 
redundant VA medical examinations being ordered and valid evidence 
supporting veterans' claims being rejected.
    Although there are currently 81 approved DBQs, VBA has only 
released 71 of them to the public for use by private physicians. In 
particular, VBA should allow private treating physicians to complete 
DBQs for medical opinions about whether injuries and disabilities are 
service connected, as well as DBQs for PTSD, which current VBA rules do 
not allow; only VA physicians can make PTSD diagnoses for compensation 
claims. Congress should work with VBA to make both of these DBQs 
available to private physicians.
    To further encourage the use of private medical evidence, Congress 
should amend title 38, United States Code, section 5103A(d)(1) to 
provide that, when a claimant submits private medical evidence, 
including a private medical opinion, that is competent, credible, 
probative, and otherwise adequate for rating purposes, the Secretary 
shall not request a VA medical examination. This legislative change 
would require VSRs and RVSRs to first document that private medical 
evidence was inadequate for rating purposes before ordering 
examinations, which are often unnecessary.

VBA Staffing and Resource Recommendations

Compensation Service Staffing

    In recent years, VBA has seen a significant staffing increase 
because Congress recognized that rising workload, particularly claims 
for disability compensation, could not be addressed without additional 
personnel and thus provided additional resources each year to do so. 
More than 5,000 full-time employee equivalents (FTEE) were added to VBA 
over the past five years, a 33 percent increase, with most of that 
increase going to the Compensation Service. In FY 2013, VBA's budget 
supported an additional 450 FTEE above the FY 2012 authorized level, 
and the FY 2014 level added less than 100 new FTEE, and for FY 2015 the 
level of staffing remains unchanged.
    Since the early part of 2013, the VBA has clearly made positive 
strides toward increasing productivity, reducing the backlog of 
disability claims and, by the end of 2015, reaching the Secretary's 
goal of completing all claims in less than 125 days with 98 percent 
accuracy. Over the past year, the total number of claims pending 
dropped by about 20 percent, and the number in the backlog (over 125 
days) decreased by more than a third. The VBA has employed a variety of 
aggressive initiatives, such as processing all claims pending longer 
than two years and then, when completed, moving to process all claims 
pending longer than one year.
    We believe allowing the VBA to again hire employees for a two-year 
temporary term could supplement and/or alleviate the reliance on 
mandatory overtime and further reduce the backlog of disability claims 
to help reach the Secretary's goal by the end of 2015. Such an 
initiative would also provide an outstanding opportunity for VBA to 
have a generous pool of fully trained, qualified candidates to choose 
from as replacements for full-time VBA employees who will undoubtedly 
be lost over the next few years because of attrition.
    However, rather than hiring ``new'' employees who need training and 
time to become fully productive, VBA would have instantly productive 
replacements ready and would have the ability to hire only the best of 
these candidates. Therefore, we urge Congress to provide the funding 
and resources necessary for VBA to hire a minimum of 1,000 new 
employees for a temporary two-year term.

Board of Veterans' Appeals Staffing

    Based on historical trends, the number of new appeals to the Board 
averages approximately five percent of all claims received, so as the 
number of claims processed by the VBA is expected to rise 
significantly, so too will the Board's workload rise accordingly. Yet 
the budget provided to the Board has been declining, forcing it to 
reduce the number of employees. Although the Board had been authorized 
to have up to 544 FTEE in FY 2011, its appropriated budget could 
support only 532 FTEE that year. In FY 2012, that number was further 
reduced to 510. At present, due to cost-saving initiatives, the Board 
may be able to support as many as 518 FTEE with the FY 2013 budget; 
however, this does not correct the downward trend over the past several 
years, particularly as workload continues to rise.
    The FY 2014 budget actually proposed cuts to funding for the Board 
and further reduced staffing down to 492 FTEE, despite expected 
workload increases each year. Projecting for FY 2014, the IBVSOs 
recommended a modest increase in staffing to 544 FTEE.
    We are pleased Congress supported this recommendation and actually 
went beyond the suggested number by providing enough funding for BVA to 
increase staffing to approximately 640 FTEE to be in place by the end 
of FY 2014 and an FY 2015 budget request to increase the number of FTEE 
to 650.

Vocational Rehabilitation

Employment Service Staffing

    In FY 2012, VA's Vocational Rehabilitation and Employment (VR&E) 
program, also known as the VetSuccess program, had 121,000 participants 
in one or more of the five assistance tracks of VR&E's VetSuccess 
program, an increase of 12.3 percent above the FY 2011 participation 
level of 107,925 veterans. In FY 2012, VR&E had a total of 1,446 FTEE, 
and anticipates an increase of approximately 150 FTEE for FY 2013. 
Given the estimated 10 percent workload increases for both FY 2013 and 
FY 2014, the IB estimated VR&E would need an additional 230 counselors 
in FY 2014 in order to reduce their counselor-to-client ratio down to 
their stated goal of 1:125.
    An extension for the delivery of VR&E assistance at a key 
transition point for veterans is through the VetSuccess on Campus 
program. This program provides support to student veterans in 
completing college or university degrees. VetSuccess on Campus has 
developed into a program that places a full-time Vocational 
Rehabilitation Counselor and a part-time Vet Center Outreach 
Coordinator at an office on campus specifically for the student 
veterans attending that college. These VA officers are there to help 
the transition from military to civilian and student life. The 
VetSuccess on Campus program is designed to give needed support to all 
student veterans, whether or not they are entitled to one of VA's 
education benefit programs.
    In FY 2015, Congress must provide the Vocational Rehabilitation and 
Employment Service with sufficient funding to support an adequate 
number of FTEE to meet growing demand of the program and achieve its 
current caseload target of one counselor for every 125 veteran clients 
and equitably allocate resources among VAROs in a manner to achieve 
that target. This includes assuring that as other programs, such as the 
VetSuccess on Campus staffed with tenured VR&E counselors, the 
workforce gaps left behind at the ROs are backfilled to keep pace with 
local workload demands.

IT Enhancements

    In addition, the VBMS was ultimately intended to include all of 
VBA's business lines so that no matter where a veteran or survivor 
applied for benefits, the VBMS would seamlessly connect them to all 
benefits they may be entitled to receive. While some programs, such as 
Education Service, have developed adequate IT systems in recent years, 
others, especially the Vocational Rehabilitation and Employment (VR&E) 
service, are in dire need of a complete IT overhaul. VR&E's processing 
system, called the Corporate Winston-Salem, Indianapolis, Newark, 
Roanoke, Seattle (CWINRS) system, is incapable of managing the many 
needs of this program. Rather than invest in short-term upgrades and 
patches, the IBVSOs believe that VBMS development for VR&E should be 
accelerated.
    VBA must complete the full development and integration of the VBMS 
to the AMC, BVA, and Court of Appeals for Veterans Claims as well as to 
the other VBA business lines and in particular VR&E.
    The IBVSOs are pleased that the Administration's budget request for 
FY 2015 is approximately $200 million more than the FY 2014 IT funding, 
and we support that level of funding. More importantly, Congress must 
ensure that from the total IT funding made available to VBA, that VR&E 
receives the necessary resources and support to upgrade its antiquated 
IT systems.

Recommendations for Improvements to VA Benefits

Annual Cost-of-Living Adjustment (COLA)

    Congress has annually authorized increases in compensation and 
dependency and indemnity compensation (DIC) by the same percent as 
Social Security is increased.
    Under current law, the government monitors inflation throughout the 
year and, if inflation occurs, automatically increases Social Security 
payments by the percent of increase for the following year, which the 
Congress then applies to veterans' programs.
    While Congress has always increased compensation and DIC based on 
inflation, there have been years when such increases were delayed, 
which puts unnecessary financial strain on veterans and their 
survivors.
    The IBVSOs urge Congress to enact legislation indexing compensation 
and DIC to Social Security COLA increases.

End Rounding Down of Veterans' and Survivors' Benefits Payments

    In 1990, Congress, in an omnibus reconciliation act, mandated that 
veterans' and survivors' benefit payments be rounded down to the next 
lower whole dollar. While this policy was initially limited to a few 
years, Congress has continued that policy.
    The cumulative effect of this provision of the law effectively 
levies a tax on totally disabled veterans and their survivors. Congress 
should repeal the current policy of rounding down veterans' and 
survivors' benefits payments.
    On November 21, 2013, with the President's signature, the Veterans' 
Compensation Cost-of-Living Adjustment Act became Public Law 113-52. 
The Act provided a 1.5% increase in veterans' disability compensation, 
DIC and other related veterans benefits, effective December 1, 2013. 
Unlike COLAs in the past, this COLA did not include the provision of 
rounding down increases to the nearest whole dollar amount.
    The IBVSOs urge Congress not to return to a policy of rounding down 
veterans' and survivors' benefits payments.

Reject Any Proposal to Use the ``Chained CPI''

    In the past year, there has been much discussion about replacing 
the current CPI formula used for calculating the annual Social Security 
COLA with the Bureau of Labor Statistics (BLS) new formula commonly 
termed the ``chained CPI.'' Such a change would be expected to 
significantly reduce the rates paid to Social Security recipients, and 
thereby help to lower the federal deficit. Since the Social Security 
COLA is also applied annually to the rates for VA disability 
compensation, DIC, and pensions for wartime veterans and survivors with 
limited incomes, its application would mean systematic reductions for 
millions of veterans, their dependents and survivors who rely on VA 
benefit payments. The IBVSOs urge Congress to reject any and all 
proposals to use the ``chained CPI'' for determining Social Security 
COLA increases, which would have the effect of significantly reducing 
the level of vital benefits provided to millions of veterans and their 
survivors.
    The IBVSOs also note that the CPI index used for Social Security 
does not include increases in the cost of food or gasoline, both of 
which have risen significantly in recent years. While no inflation 
index is perfect, the IBVSOs believe that VA should examine whether 
there are other inflation indices that would more appropriately 
correlate with the increased cost of living experienced by disabled 
veterans and their survivors.

End Prohibition against Concurrent Receipt of VA Disability 
Compensation and Military Longevity Retired Pay

    Many veterans retired from the armed forces based on longevity of 
service must forfeit a portion of their retired pay, earned through 
faithful performance of military service, before they receive VA 
compensation for service-connected disabilities. This is inequitable--
military retired pay is earned by virtue of a veteran's career of 
service on behalf of the nation, careers of usually more than 20 years. 
Entitlement to compensation, on the other hand, is paid solely because 
of disability resulting from military service, regardless of the length 
of service. Most nondisabled military retirees pursue second careers 
after serving in order to supplement their income, thereby justly 
enjoying a full reward for completion of a military career with the 
added reward of full civilian employment income. In contrast, military 
retirees with service-connected disabilities do not enjoy the same full 
earning potential since their earning potential is reduced commensurate 
with the degree of service-connected disability.
    In order to place all disabled longevity military retirees on equal 
footing with nondisabled military retirees, there should be no offset 
between full military retired pay and VA disability compensation. To 
the extent that military retired pay and VA disability compensation 
offset each other, the disabled military retiree is treated less fairly 
than is a nondisabled military retiree by not accounting for the loss 
in earning capacity. Moreover, a disabled veteran who does not retire 
from military service but elects instead to pursue a civilian career 
after completing a service obligation can receive full VA disability 
compensation and full civilian retired pay--including retirement from 
any federal civil service position.
    While Congress has made progress in recent years in correcting this 
injustice, current law still provides that service-connected veterans 
rated less than 50 percent disabled who retire from the armed forces on 
length of service may not receive disability compensation from VA in 
addition to full military retired pay. The IBVSOs believe the time has 
come to remove this prohibition completely. Congress should enact 
legislation to repeal the inequitable requirement that veterans' 
military longevity retired pay be offset by an amount equal to the 
disability compensation awarded to disabled veterans rated less than 50 
percent, the same as exists for those rated 50 percent or greater.

SURVIVOR BENEFITS

Increase DIC for Surviving Spouses of Service Members

    The current rate of compensation paid to the survivors of certain 
deceased veterans rated permanently and totally disabled and deceased 
service members is inadequate and inequitable. Under current law, the 
surviving spouse of a veteran who had a total disability rating is 
entitled to the basic rate of DIC. A supplemental payment is provided 
to those spouses who were married for at least eight years during which 
time the veteran was rated permanently and totally disabled.
    However, surviving spouses of veterans or military service members 
who die before the eight-year eligibility period, or who die on active 
duty, respectively, only receive the basic rate of DIC.
    Insofar as DIC payments are intended to provide surviving spouses 
with the means to maintain some semblance of financial stability after 
losing their loved ones, the rate of payment for service-related deaths 
of any kind should not vastly differ. Surviving spouses, regardless of 
the status of their sponsors at the time of death, face the same 
financial hardships once deceased sponsors' incomes no longer exist. 
Congress should authorize DIC eligibility at increased rates to 
survivors of service members who died either before the eight-year 
eligibility period passes or while on active duty at the same rate paid 
to the eligible survivors of totally disabled service-connected 
veterans who die after the eight-year eligibility period.

Repeal of the DIC-SBP Offset

    The current requirement that the amount of an annuity under the 
Survivor Benefit Plan (SBP) be reduced on account of, and by an amount 
equal to, DIC is inequitable. A veteran disabled in military service is 
compensated for the effects of service-connected disability. When a 
veteran dies of service-connected causes, or following a substantial 
period of total disability from service-connected causes, eligible 
survivors or dependents receive DIC from the VA. This benefit 
indemnifies survivors, in part, for the losses associated with the 
veteran's death from service-connected causes or after a period of time 
when the veteran was unable, because of total disability, to accumulate 
an estate for inheritance by survivors.
    Career members of the armed forces earn entitlement to retired pay 
after 20 or more years of service. Survivors of military retirees have 
no entitlement to any portion of the veteran's military retirement pay 
after his or her death, unlike many retirement plans in the private 
sector. Under the SBP, deductions are made from the veteran's military 
retirement pay to purchase a survivor's annuity. This is not a 
gratuitous benefit, but is purchased by a retiree.
    Upon the veteran's death, the annuity is paid monthly to eligible 
beneficiaries under the plan. If the veteran died from other than 
service-connected causes or was not totally disabled by service-
connected disability for the required time preceding death, 
beneficiaries receive full SBP payments. However, if the veteran's 
death was a result of military service or after the requisite period of 
total service-connected disability, the SBP annuity is reduced by an 
amount equal to the DIC payment. When the monthly DIC rate is equal to 
or greater than the monthly SBP annuity, beneficiaries lose the SBP 
annuity in its entirety.
    The IBVSOs believe this offset is inequitable because no 
duplication of benefits is involved. Payments under the SBP and DIC 
programs are made for different purposes. Under the SBP, coverage is 
purchased by a veteran and at the time of death, paid to his or her 
surviving beneficiary. On the other hand, DIC is a special indemnity 
compensation paid to the survivor of a service member who dies while 
serving in the military, or a veteran who dies from service-connected 
disabilities. In such cases, DIC should be added to the SBP, not 
substituted for it. Surviving spouses of federal civilian retirees who 
are veterans are eligible for DIC without losing any of their purchased 
federal civilian survivor benefits.
    The offset penalizes survivors of military retirees whose deaths 
are under circumstances warranting indemnification from the government 
separate from the annuity funded by premiums paid by the veteran from 
his or her retired pay.
    Congress should repeal the inequitable offset between DIC and the 
SBP because there is no duplication between these two distinct 
benefits.

Retention of Remarried Survivors' Benefits at Age 55

    Congress should lower the age required for remarriage for survivors 
of veterans who have died on active duty or from service-connected 
disabilities to be eligible for retention of DIC to conform with the 
requirements of other federal programs.
    Current law allows retention of DIC on remarriage at age 57 or 
older for eligible survivors of veterans who die on active duty or of a 
service-connected injury or illness. Although the IBVSOs appreciate the 
action Congress took to allow restoration of this rightful benefit, the 
current age threshold of 57 years is arbitrary.
    Remarried survivors of retirees of the Civil Service Retirement 
System, for example, obtain a similar benefit at age 55. This would 
also bring DIC in line with SBP rules that allow retention with 
remarriage at the age of 55. Equity with beneficiaries of other federal 
programs should govern Congressional action for this deserving group. 
Congress should enact legislation to enable survivors to retain DIC on 
remarriage at age 55 for all eligible surviving spouses.
    Mr. Chairman, that concludes my statement and I would be happy to 
answer any questions you or other members of the Committee may have.

                Statement of Diane M. Zumatto, Director,

                                   of

                      AMVETS NATIONAL LEGISLATIVE

    Chairman Miller, Ranking Member Michaud and distinguished Members 
of the committee, as an author of The Independent Budget (IB), I 
appreciate this opportunity to share with you the IB's recommendations 
in what we believe to be the most fiscally responsible way of ensuring 
the quality and integrity of the care and benefits earned by American 
veterans.
    The venerable and honorable history of our national cemeteries 
spans roughly 150 years when the earliest military graveyards were, not 
surprisingly, situated at battle sites, near field or general hospitals 
and at former prisoner-of-war sites. With the passage of the National 
Cemeteries Act of 1973 (PL 93-43), the Department of Veterans' Affairs 
(VA) became responsible for the majority of our national cemeteries. 
The single most important obligation of the National Cemetery 
Administration (NCA) is to honor the memory of America's brave men and 
women who have selflessly served in this Nation's Armed Forces. As of 
late 2010, there were more than 20,021 acres of cemetery landscape, 
funerary monuments, grave markers, as well as, other architectural 
features and memorial tributes, much of it historically significant, 
included within established installations in the NCA which are 
therefore representative of the very foundations of these United 
States.
    The signing of the Veterans Programs Enhancement Act of 1998 (PL 
105-368) officially re-designated the National Cemetery System (NCS) to 
the now familiar National Cemetery Administration (NCA). The NCA 
currently maintains stewardship of 133 of the nation's 147 national 
cemeteries, as well as 33 soldiers' lots, including two new national 
cemeteries scheduled to open in 2015. Since 1862 when President Abraham 
Lincoln signed the first legislation establishing the national cemetery 
concept, more than 3.5 million burials have taken place in national 
cemeteries currently located in 39 states and Puerto Rico, with 
approximately 128,100 interments expected in 2015.
    There are an estimated 22.4 million veterans alive today and with 
the transition of an additional 1 million service members into veteran 
status over the next 12 months, this number is expected to continue to 
rise until approximately 2017. On average, 14.4 percent of veterans 
choose a national or state veterans' cemetery as their final resting 
place. As new national and state cemeteries continue to open, and as 
our aging veterans' population continues to grow and we continue to be 
a nation at war, the demand for burial at a veterans' cemetery will 
continue to increase.
    The Independent Budget veterans service organizations (IBVSOs) 
would like to acknowledge the devotion and commitment demonstrated by 
the NCA leadership, especially Undersecretary Steve Muro, and his staff 
in their continued dedication to providing the highest quality of 
service to veterans and their families. It is in the opinion of the 
IBVSOs that the NCA continues to meet its goals and the goals set forth 
by others because of its true dedication and care for honoring the 
memories of the men and women who have so selflessly served our nation. 
We applaud the NCA for recognizing that it must continue to be 
responsive to the preferences and expectations of the veterans' 
community by adapting or adopting new interment options and ensuring 
access to burial options in the national, state and tribal government-
operated cemeteries. We also believe it is important to recognize the 
NCA's efforts in employing both disabled and homeless veterans.

    NCA Accounts

    While NCA's operating budget has remained fairly stagnant at around 
$250 million for 4 out of the last 5 years, their workload has been 
anything but static and this trend is expected to continue for the 
foreseeable future. The IBVSOs are appreciative of the roughly $8 
million increase in NCA's overall FY 2015 budget, however, that 
increase comes with a simultaneous $8.4 million reduction in the 
National Shrine account.
    Between FY 2014 and FY 2015, the number of gravesites needing 
maintenance will increase by approximately 2.4%, while interments will 
increase by roughly 1.9%.
    The NCA was also able to award 44 of its 48 minor construction 
projects and had four unobligated projects that will be moved to FY 
2012. Unfortunately, due to continuing resolutions and the current 
budget situation, the NCA was not able to award the remaining four 
projects.
    The IBVSOs support the operational standards and measures outlined 
in the National Shrine Commitment (PL 106-117, Sec. 613) which was 
enacted in 1999 to ensure that our national cemeteries are the finest 
in the world. While the NCA has worked diligently improving the 
appearance of our national cemeteries, they are still a long way from 
where they should be.
    The NCA has worked tirelessly to improve the appearance of our 
national cemeteries, investing an estimated $39 million into the 
National Shrine Initiative in FY 2011. According to NCA surveys, as of 
October 2011 the NCA has continued to make progress in reaching its 
performance measures. Since 2006, the NCA has improved headstone and 
marker height and alignment in national cemeteries from 67 percent to 
70 percent and has improved cleanliness of tombstones, markers and 
niches from 77 percent to 91 percent. Although the NCA is nearing its 
strategic goal of 90 percent and 95 percent, respectively, for height 
and alignment and cleanliness, more funding is needed to continue this 
delicate and labor-intensive work. Therefore, the IBVSOs recommend the 
NCA's Operations and Maintenance budget to be increased by $20 million 
per year until the operational standards and measures goals are 
reached.
    The IBVSOs recommend a minimum Operational and Maintenance budget 
of $260 million for the National Cemetery Administration for FY 2015, 
so it can meet the demands for interment, gravesite maintenance and 
related essential elements of cemetery operations. This request 
includes $34.5 million for the National Shrine Initiative to ensure 
that our national cemeteries meet or exceed the highest standards of 
appearance required by their status as national shrines.
    The national shrine funds would be used, among other things, to 
maintain:

<bullet> Occupied graves;
<bullet> Developed acreage;
<bullet> Historic structures; and
<bullet> Cemetery infrastructure

    The IBVSOs call on the Administration and Congress to provide the 
resources needed to meet the critical nature of the NCA's mission and 
to fulfill the nation's commitment to all veterans who have served 
their country so honorably and faithfully.

State Cemetery Grant Programs

    The State Cemetery Grants Program (SCGP) complements the National 
Cemetery Administration's mission to establish gravesites for veterans 
in areas where it cannot fully respond to the burial needs of veterans. 
Several incentives are in place to assist states in this effort. For 
example, the NCA can provide up to 100 percent of the development cost 
for an approved cemetery project, including establishing a new cemetery 
and expanding or improving an established state or tribal organization 
veterans' cemetery. New equipment, such as mowers and backhoes, can be 
provided for new cemeteries. In addition, the Department of Veterans' 
Affairs may also provide operating grants to help cemeteries achieve 
national shrine standards.
    In FY 2011 the SCGP operated on an estimated budget of $46 million, 
funding 16 state cemeteries. These 16 state cemeteries included the 
establishment or ground breaking of five new state cemeteries, three of 
which are located on tribal lands, expansions and improvements at seven 
state cemeteries, and four projects aimed at assisting state cemeteries 
to meet the NCA national shrine standards. Since 1978 the Department of 
Veterans' Affairs has more than doubled the available acreage and 
accommodated more than a 100 percent increase in burials through this 
program.
    With the enactment of the ``Veterans Benefits Improvement Act of 
1998,'' the NCA has been able to strengthen its partnership with states 
and increase burial services to veterans, especially those living in 
less densely populated areas without access to a nearby national 
cemetery. Through FY 2010, the state grant program has established 75 
state veteran's cemeteries in 40 states and U.S. territories. 
Furthermore, in FY 2011 VA awarded its first state cemetery grant to a 
tribal organization.
    The Independent Budget veteran's service organizations recommend 
that Congress fund the State Cemetery Grants Program at $48 million for 
FY 2015. The IBVSOs believe that this small increase in funding will 
help the National Cemetery Administration meet the needs of the State 
Cemetery Grant Program, as its expected demand will continue to rise 
through 2017. Furthermore, this funding level will allow the NCA to 
continue to expand in an effort of reaching its goal of serving 94 
percent of the nation's veteran population by 2015.

Veteran's Burial Benefits

    Since the original parcel of land was set aside for the sacred 
committal of Civil War Veterans by President Abraham Lincoln in 1862, 
more than 3 million burials have occurred in national cemeteries under 
the National Cemetery Administration.
    In 1973, the Department of Veterans' Affairs established a burial 
allowance that provided partial reimbursement for eligible funeral and 
burial costs. The current payment is $2,000 for burial expenses for 
service-connected deaths, $300 for non-service-connected deaths and a 
$700 plot allowance. At its inception, the payout covered 72 percent of 
the funeral costs for a service-connected death, 22 percent for a non-
service-connected death and 54 percent of the cost of a burial plot.
    Burial allowance was first introduced in 1917 to prevent veterans 
from being buried in potter's fields. In 1923 the allowance was 
modified. The benefit was determined by a means test until it was 
removed in 1936. In its early history the burial allowance was paid to 
all veterans, regardless of their service connectivity of death. In 
1973, the allowance was modified to reflect the status of service 
connection.
    The plot allowance was introduced in 1973 as an attempt to provide 
a plot benefit for veterans who did not have reasonable access to a 
national cemetery. Although neither the plot allowance nor the burial 
allowance was intended to cover the full cost of a civilian burial in a 
private cemetery, the recent increase in the benefit's value indicates 
the intent to provide a meaningful benefit. The Independent Budget 
veterans' service organizations are pleased that the 111th Congress 
acted quickly and passed an increase in the plot allowance for certain 
veterans from $300 to $700 effective October 1, 2011. However, we 
believe that there is still a serious deficit between the original 
value of the benefit and its current value.
    In order to bring the benefit back up to its original intended 
value, the payment for service-connected burial allowance should be 
increased to $6,160, the non-service-connected burial allowance should 
be increased to $1,918 and the plot allowance should be increased to 
$1,150. The IBVSOs believe Congress should divide the burial benefits 
into two categories: veterans within the accessibility model and 
veterans outside the accessibility model.
    Congress should increase the plot allowance from $700 to $1,150 for 
all eligible veterans and expand the eligibility for the plot allowance 
for all veterans who would be eligible for burial in a national 
cemetery, not just those who served during wartime. Congress should 
increase the service-connected burial benefits from $2,000 to $6,160 
for veterans outside the radius threshold and to $2,793 for veterans 
inside the radius threshold.
    Congress should increase the non-service-connected burial benefits 
from $300 to $1,918 for all veterans outside the radius threshold and 
to $854 for all veterans inside the radius threshold. The 
Administration and Congress should provide the resources required to 
meet the critical nature of the National Cemetery Administration's 
mission and to fulfill the nation's commitment to all veterans who have 
served their country so honorably and faithfully.

     March 2014
    The Honorable Representative Jeff Miller, Chairman
    U.S. House of Representatives,
    Committee on Veterans' Affairs,
    Cannon House Office Building,
    Washington, D.C. 20510

    Dear Chairman Miller:

    Neither AMVETS nor I have received any federal grants or contracts, 
during this year or in the last two years, from any agency or program 
relevant to the 12 March 2014, House Veterans Affairs Committee hearing 
on the U.S. Department of Veterans Affairs Budget Request for Fiscal 
Year 2015.

    Sincerely,

    Diane M. Zumatto, Director
    AMVETS National Legislative Biographical Sketch

    Diane M. Zumatto of Spotsylvania, VA joined AMVETS as their 
National Legislative Director in August 2011. Ms. Zumatto, a native New 
Yorker and the daughter of immigrant parents decided to follow in her 
family's footsteps by joining the military. Ms. Zumatto is a former 
Women's Army Corps (WAC) member who was stationed in Germany. Zumatto 
was married to a CW4 aviator in the Washington Army National Guard and 
is the mother of four adult children. Ms. Zumatto is extremely proud 
that two of her children have chosen to follow her footsteps into 
military service.
    Ms. Zumatto has more than 20 years of experience working with a 
variety of non-profits in increasingly more challenging positions, 
including: the American Museum of Natural History; the National 
Federation of Independent Business; the Tacoma-Pierce County Board of 
Realtors; the Washington State Association of Fire Chiefs; Saint 
Martin's College; the James Monroe Museum; the Friends of the 
Wilderness Battlefield and the Enlisted Association of the National 
Guard of the United States. Diane's non-profit experience is extremely 
well-rounded as she has variously served in both staff and volunteer 
positions including as a board member and consultant.
    After receiving her B.A. in Historic Preservation from the 
University of Mary Washington in 2005, Diane decided to diversify her 
experience by spending some time in the ``for-profit'' community. 
Realizing that her creativity, energy and passion were not being 
effectively challenged, she left the world of corporate America and 
returned to non-profit organization.
    AMVETS National Headquarters, 14647 Forbes Boulevard, Lanham, 
Maryland 20706-4380, Business Phone: (301) 683-4016, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="026678776f6376766d42636f746776712c6d70652c">[email&#160;protected]</a>

                    Statement of the American Legion

    Chairman Miller, Ranking Member Michaud, and Members of the 
Committee:
    On behalf of National Commander Dan Dellinger and the 2.4 million 
members of The American Legion, we welcome this opportunity to comment 
on the federal budget and specific funding programs of the Department 
of Veterans Affairs.
    The American Legion is a resolution based organization; we are 
directed and driven by the millions of active legionnaires who have 
dedicated their money, time, and resources to the continued service of 
veterans and their families. Our positions are guided by nearly 100 
years of consistent advocacy and resolutions that originate at the 
grassroots level of the organization--the local American Legion posts 
and veterans in every congressional district of America. The 
Headquarters staff of the Legion works daily on behalf of veterans, 
military personnel and our communities through roughly 20 national 
programs, and hundreds of outreach programs led by our posts across the 
country.
    As thousands of troops return from deployments to Afghanistan and 
elsewhere in the world, and the United States shifts its policies in 
Iraq and Afghanistan, thus producing a new national security focus, The 
American Legion reminds the Committee that national security changes do 
not change the fact that veterans of these wars, as well as prior 
conflicts, must still be taken care of, and this care will extend for 
these veterans and their caregivers for approximately the next sixty 
years.
    In September of last year National Commander Dellinger provided the 
Committee The American Legion's guidance for a robust Department of 
Veterans Affairs (VA) budget that adequately provides for the 
healthcare and benefits for veterans of all wars during this period of 
difficult fiscal times. The VA will continue to be faced with thousands 
of new patients and claimants even though the wars are winding down, 
and if the Department of Defense carries through in their plan to 
reduce the active and reserve forces by more than a hundred thousand 
troops, then the VA will need to prepare for one of the most 
significant increases in patients and claimants in it's 84 year 
history. Active and reserve members who otherwise downplayed illnesses 
and injuries incurred or aggravated on active duty will now begin to 
seek treatment and file compensation claims in droves. Further, as the 
VA begins to serve veterans returning from deployment who are entitled 
to 5 years of VA care after they return, compounded by veterans who 
will choose VA care over Affordable Care Act plans, our VA system and 
infrastructure will be challenged much more than it has been for the 
past 10 years.
    While grateful for prior VA funding, The American Legion remains 
vigilant to ensure that VA is not going to be shortchanged of the 
funding it truly needs, because lack of appropriate funding will 
ultimately endanger veteran care and benefits. The American Legion has, 
for years, reminded Congress and the American people that the cost of 
war, especially prolonged war, is more expensive than just the cost of 
bullets and bombs; and that the true costs are only realized decades 
after the war is over. Last year the Harvard Kennedy School issued a 
report that projected the total cost of these current conflicts to cost 
between $4 and $6 trillion. The report goes on to say;

        ``The single largest accrued liability of the wars in Iraq and 
        Afghanistan is the cost of providing medical care and 
        disability benefits to war veterans. Historically, the bill for 
        these costs has come due many decades later. The peak year for 
        paying disability compensation to World War I veterans was in 
        1969--more than 50 years after Armistice. The largest 
        expenditures for World War II veterans were in the late 1980s. 
        Payments to Vietnam and first Gulf War veterans are still 
        climbing. The magnitude of future expenditures will be even 
        higher for the current conflicts \1\ ''

    \1\ Bilmes, Linda J. Harvard Kennedy School. The Financial Legacy 
of Iraq and Afghanistan: How Wartime Spending Decisions Will Constrain 
Future National Security Budgets Faculty Research Working Paper Series. 
March 2013.
---------------------------------------------------------------------------
Ensure Adequate Oversight and Sufficient Funding for Lifetime Joint 
Medical Records

    The Department of Defense (DoD) and VA have already squandered more 
than a billion dollars of taxpayer money and have wasted years in an 
ultimately empty pursuit of a joint electronic medical record system 
that would have streamlined and simplified logistics between the two 
agencies. The war fighter turned veteran is the same patient, and 
deserves a system that honors that person with continuous care and 
seamless transition between agencies. It is unforgivable that DoD and 
VA have spent the past several years infighting rather than actively 
developing a comprehensive solution that is in the best interest of the 
American service member.
    At the end of January VA and DoD both issued Requests for Proposals 
(RFPs)--however the problem remains that they issued these RFPs 
independently. It will be extremely difficult, if not impossible, for 
two separate agencies to issue two separate RFPs for similar projects, 
and end up with a single software solution unless they hire the same 
vendor. If DoD and VA aren't forced to ensure that their respective 
vendors work together from the beginning, then Congress needs to 
withhold authorization of further disbursements until they can prove 
that their respective plans are in tandem and complement each other, 
ultimately resulting in a single electronic medical records keeping 
system that can be readily accessed by both VA and DoD without the need 
for any additional software or compatibility efforts. In February DoD 
and VA were supposed to deliver a joint plan to Congress on how they 
were going to execute this program. So far, their plan is incomplete 
and does not satisfy the full requirements of how they plan to jointly 
accomplish getting this system implemented. These need to be the same 
system that can integrate with both agencies--no substitutions, no 
excuses.

VA Leased Facilities in Jeopardy

    In FY 2012 H.R. 2646 authorized the VA sufficient appropriations to 
continue to fund and operate leased facility projects that support our 
veterans all across the country. In November of 2012 the FY 2013 
appropriations for the same facilities were eliminated from 
appropriations due to a ``scoring change'' initiated by the 
Congressional Budget Office (CBO). While the locations, projects, 
leases, and funding requirements did not change, the way in which CBO 
scored the projects did, which resulted in the appearance that the 
project would cost more than 10 times the actual needed revenue. As a 
result of CBO's adjustment in scoring review, Congress refused to 
introduce the FY 2013 appropriations bill needed to keep these 
community based centers open. As these leases now become due, there are 
27 major medical facilities that need to be authorized.
    The American Legion implores Congress to fund these centers as 
originally planned and applauds Chairman Miller and this Committee for 
passing the Department of Veterans Affairs Major Medical Facility Lease 
Authorization Act of 2013.

Advance Appropriations for FY 2016

    The Veterans Health Administration (VHA) manages the largest 
integrated health-care system in the United States, with 152 medical 
centers, nearly 1,400 community-based outpatient clinics, community 
living centers, Vet Centers and domiciliaries serving more than 8 
million veterans every year. The American Legion believes those 
veterans should receive the best care possible.
    The needs of veterans continue to evolve, and VHA must ensure it is 
evolving to meet them. The rural veteran population is growing, and 
options such as telehealth medicine and clinical care must expand to 
better serve that population. Growing numbers of female veterans mean 
that a system that primarily provided for male enrollees must now 
evolve and adapt to meet the needs of male and female veterans, 
regardless whether they live in urban or rural areas.
    An integrated response to mental healthcare is necessary, as the 
rising rates of suicide and severe post-traumatic stress disorder are 
greatly impacting veterans and active-duty servicemembers alike.
    If veterans are going to receive the best possible care from VA, 
the system needs to continue to adapt to the changing demands of the 
population it serves. The concerns of rural veterans can be addressed 
through multiple measures, including expansion of the existing 
infrastructure through CBOCs and other innovative solutions, 
improvements in telehealth and telemedicine, improved staffing and 
enhancements to the travel system.
    Patient concerns and quality of care can be improved by better 
attention to VA strategic planning, concise and clear directives from 
VHA, improved hiring practices and retention, and better tracking of 
quality by VA on a national level.
    And finally, mandatory funds must be included in Advanced 
Appropriations along with full discretionary funding of all VA 
accounts. Veterans and dependents having their compensation and 
disability checks delayed because Congress refuses to pass an annual 
budget before being forced to close the federal government is 
reprehensible. Pass full advanced appropriations now.

Better Care for Female Veterans

    A 2011 American Legion study revealed several areas of concern 
about VA healthcare services for women. Today, VA still struggles to 
fulfill this need, even though women are the fastest-growing segment of 
the veteran population. Approximately 1.8 million female veterans make 
up 8 percent of the total veteran population, yet only 6 percent use VA 
services.
    VA needs to be prepared for a significant increase of younger 
female veterans as those who served in the War on Terror separate from 
active service. Approximately 58 percent of women returning from Iraq 
and Afghanistan are ages 20 to 29, and they require gender-specific 
expertise and care. Studies suggest post-traumatic stress disorder is 
especially prevalent among women; among veterans who used VA in 2009, 
10.2 percent of women and 7.8 percent of men were diagnosed with PTSD.
    The number of female veterans enrolled in the VA system is expected 
to expand by more than 33 percent in the next three years. Currently, 
44 percent of Iraq and Afghanistan female veterans have enrolled in the 
VA health-care system.
    VA needs to develop a comprehensive health-care program for female 
veterans that extends beyond reproductive issues. Provider education 
needs improvement. Furthermore, as female veterans are the sole 
caregivers in some families, services and benefits designed to promote 
independent living for combat-injured veterans must be evaluated, and 
needs such as child care must be factored into the equation. 
Additionally, many female veterans cannot make appointments due to the 
lack of child-care options at VA medical centers. Since the 2011 
survey, The American Legion has continued to advocate for improved 
delivery of timely, quality healthcare for women using VA. The American 
Legion is encouraged that the President's budget recognizes the need 
for additional funding in this critical area, and has proposed an 
increase of $32 million, almost 9 percent over last year's 
authorization levels, which combined with years 2009 through 2014 
represents an increase in funding of nearly 240 percent to deal with 
this growing segment of the veteran population.

Repair Problems in Mental Health

    During the past half decade, VA has nearly doubled their mental 
healthcare staff, jumping from just over 13,500 providers in 2005 to 
over 20,000 providers in 2011. However, during that time there has been 
a massive influx of veterans into the system, with a growing need for 
psychiatric services. With over 1.5 million veterans separating from 
service in the past decade, 690,844 have not utilized VA for treatment 
or evaluation. The American Legion is deeply concerned about nearly 
700,000 veterans who are slipping through the cracks unable to access 
the healthcare system they have earned through their service.
    Post-traumatic stress disorder and traumatic brain injury are the 
signature wounds of today's wars. Both conditions are increasing in 
number, particularly among those who have served in Operation Iraqi 
Freedom and Operation Enduring Freedom. The President's request for a 
57 percent increase in funding in this area is appropriate considering 
that a 2011 Senate Committee on Veterans' Affairs survey of 319 VA 
mental health staff revealed that services for veterans coping with 
mental health issues and TBI are lacking considerable support. Among 
the findings:

        <bullet> New mental health patient appointments could be 
        scheduled within 14 days, according to 63 percent of 
        respondents, but only 48.1 percent believed veterans referred 
        for specialty appointments for PTSD or substance abuse would be 
        seen within 14 days.
        <bullet> Seventy percent of providers said their sites had 
        shortages of mental health space.
        <bullet> Forty-six percent reported that a lack of off-hours 
        appointments was a barrier to care.
        <bullet> More than 26 percent reported that demand for 
        Compensation and Pension (C&P) exams pulled clinicians away 
        from direct care.
        <bullet> Just over 50 percent reported that growth in patient 
        numbers contributed to mental health staff shortages.

    VHA and, at the request of Congress, VA's Office of the Inspector 
General have studied the problem since the survey was conducted. On 
April 23, 2012, the VAOIG released the report, ``Review of Veterans' 
Access to Mental healthcare.'' It found that VHA's mental health 
performance data was neither accurate nor reliable. In VA's FY 2011 
Performance and Accountability Report, VHA grossly over-reported that 
95 percent of first-time patients received a full mental health 
evaluation within 14 days. However, it was found that VHA completed 
approximately 64 percent of new-patient appointments for treatment 
within 14 days of their desired date, but approximately 36 percent of 
appointments exceeded 14 days. VHA schedulers also were not following 
procedures outlined in VHA directives, and were scheduling clinic 
appointments on the system's availability rather than the patient's 
clinical need.
    The American Legion believes VA must focus on head injuries and 
mental health without sacrificing awareness and concern for other 
conditions afflicting servicemembers and veterans. As an immediate 
priority, VA must ensure staffing levels are adequate to meet the need. 
The American Legion also urges Congress to invest in research, 
screening, diagnosis and treatment for PTSD and TBI and will continue 
to monitor VA to ensure that they remain good stewards of the people's 
money
    Although The American Legion supports advance appropriations, we 
remain concerned accurate projections on population and utilization and 
other challenges still remain.
    One such challenge is with the procurement of medical equipment and 
Information Technology (IT) purchases. When IT within the VA was 
combined together across the entire agency it was implemented to 
improve efficiency, contracting, management, and other challenges 
inherent with three disjointed IT management teams. This has proved 
somewhat successful. However, we are hearing that procurement of 
medical equipment and IT is hampered at medical facilities due to 
budget implementation failures through continuing resolutions. While a 
VA medical center director might have his/her operational funding 
beginning October 1 because of advance appropriations, much needed IT 
or medical equipment might be delayed due to a continuing resolution 
impasse in Congress. This has a detrimental impact on the veteran and 
his/her care. Therefore, The American Legion recommends the IT portion 
of the budget be added to advance appropriations and help smooth those 
budget challenges. Additionally, The American Legion remains committed 
to working with the VA in any way possible to move the VA toward their 
goal of becoming a paperless system. We are eager to see how the VA 
plans to spend the $155 million improving the Veterans Benefits 
Management System, and the $136.4 million that is proposed to convert 
the paper to electronic files.

Medical Services

    Over the past two decades, VA has dramatically transformed its 
medical care delivery system. Through The American Legion visits to a 
variety of medical facilities throughout the Nation during our System 
Worth Saving Task Force, we see firsthand this transformation and its 
impact on veterans in every corner of the Nation.
    While the quality of care remains exemplary, veteran healthcare 
will be inadequate if access is hampered. Today there are over 23 
million veterans in the United States. While 8.3 million of these 
veterans are enrolled in the VA healthcare system, a population that 
has been relatively steady in the past decade, the costs associated 
with caring for these veterans has escalated dramatically.
    For example between FYs 2007 and 2010, VA enrollees increased from 
7.8 million to 8.3 million. \2\  During the same period, inpatient 
admissions increased from 589,000 to 662,000. Outpatient visits also 
increased from 62 to 80.2 billion. Correspondingly, cost to care for 
these veterans increased from $29.0 billion to $39.4 billion. This 36 
percent increase during those 2 years is a trend that dramatically 
impacts the ability to care for these veterans.
---------------------------------------------------------------------------
    \2\ Source: Department of Veterans Affairs, Veterans Health 
Administration, Office of the Assistant Deputy Under Secretary for 
Health for Policy and Planning. Prepared by the National Center for 
Veterans Analysis and Statistics
---------------------------------------------------------------------------
    While FY 2010 numbers seemingly leveled off--to only 3 percent 
annual growth--will adequate funding exist to meet veteran care needs? 
If adequate funding to meet these needs isn't appropriated, VA will be 
forced to either not meet patient needs or shift money from other 
accounts to meet the need.
    Even with the opportunity for veterans from OIF/OEF to have up to 5 
years of care following their active duty period, we have not seen a 
dramatic change in overall enrollee population. Yet The American Legion 
remains concerned that the population estimates are dated and not 
reflective of the costs. If current economic woes and high unemployment 
rates for veterans remain and with the Vietnam Era veterans beginning 
to retire and needing healthcare that may no longer be provided by 
their employers, VA medical care will become enticing for a veteran 
population that might not have utilized those services in the past.
    Finally, ongoing implementation of programs such as the PL 111-163 
``Caregiver Act'' will continue to increase demands on the VA 
healthcare system and therefore result in an increased need for a 
budget that can adequately deal with the challenges.
    In order to meet the increased levels of demand, even assuming that 
not all eligible veterans will elect to enroll for coverage, and keep 
pace with the cost trend identified above, there must be an increase to 
account for both the influx of new patients and increased costs of 
care.

Medical Support and Compliance

    The Medical Support and Compliance account consists of expenses 
associated with administration, oversight, and support for the 
operation of hospitals, clinics, nursing homes, and domiciliaries. 
Although few of these activities are directly related to the personal 
care of veterans, they are essential for quality, budget management, 
and safety. Without adequate funding in these accounts, facilities will 
be unable to meet collection goals, patient safety, and quality of care 
guidelines.
    The American Legion has been critical of programs funded by this 
account. We remain concerned patient safety is addressed at every 
level. We are skeptical if patient billing is performed efficiently and 
accurately. Moreover, we are concerned that specialty advisors/
counselors to implement OIF/OEF outreach, ``Caregiver Act'' 
implementation, and other programs are properly allocated. If no need 
for such individuals exists, should the position be placed within a 
facility? Simply throwing more money at this account, increasing staff 
and systems won't resolve all these problems.
    During the previous budget, this account grew by nearly 8 percent 
to $5.31 billion. The American Legion questions the necessity for that 
rate to continue at this time.

Medical Facilities

    During FY 2012, VA unveiled the Strategic Capital Investment 
Planning (SCIP) program. This 10-year capital construction plan was 
designed to address VA's most critical infrastructure needs. Through 
the plan, VA estimated the 10-year costs for major and minor 
construction projects and non-recurring maintenance would total between 
$53 and $65 billion over 10 years.
    The American Legion is supportive of the SCIP program which 
empowers facility managers and users to evaluate needs based on patient 
safety, utilization, and other factors. While it places the onus on 
these individuals to justify the need, these needs are more reflective 
of the actuality as observed by our members and during our visits. Yet, 
VA has taken this process and effectively neutered it through budget 
limitations thereby underfunding the accounts and delaying delivery of 
critical infrastructure.
    So while failing to meet these needs, facility managers will be 
forced to make do with existing aging facilities. While seemingly 
saving money in construction costs, the VA will be expending money 
maintaining deteriorating facilities, paying increased utility and 
operational costs, and performing piecemeal renovation of properties to 
remain below the threshold of major or minor projects.
    This is an inefficient byproduct of budgeting priorities. Yet, as 
will be noted later, the reality remains that the SCIP program is 
unlikely to be funded at levels necessary to accomplish the 10 year 
plan. Therefore, this account must be increased to meet the short term 
needs within the existing facilities.

Medical and Prosthetic Research

    The American Legion believes VA research must focus on improving 
treatment for medical conditions unique to veterans. Because of the 
unique structure of VA's electronic medical records (VISTA), VA 
research has access to a great amount of longitudinal data incomparable 
to research outside the VA system. Because of the ongoing wars of the 
past decade, several areas have emerged as ``signature wounds'' of the 
Global War on Terror, specifically Traumatic Brain Injury (TBI), Post-
traumatic Stress Disorder (PTSD) and dealing with the effects of 
amputated limbs.
    Much media attention has focused on TBI from blast injuries common 
to Improvised Explosive Devices (IEDs) and PTSD. As a result, VA has 
devoted extensive research efforts to improving the understanding and 
treatment of these disorders. Amputee medicine has received less 
scrutiny, but is no less a critical area of concern. Because of 
improvements in body armor and battlefield medicine, catastrophic 
injuries that in previous wars would have resulted in loss of life have 
led to substantial increases in the numbers of veterans who are coping 
with loss of limbs.
    As far back as 2004, statistics were emerging which indicated 
amputation rates for US troops were as much as twice that from previous 
wars. By January of 2007, news reports circulated noting the 500th 
amputee of the Iraq War. The Department of Defense response involved 
the creation of Traumatic Extremity Injury and Amputation Centers of 
Excellence, and sites such as Walter Reed have made landmark strides in 
providing the most cutting edge treatment and technology to help 
injured service members deal with these catastrophic injuries.
    However, The American Legion remains concerned that once these 
veterans transition away from active duty status to become veteran 
members of the communities, there is a drop off in the level of access 
to these cutting edge advancements. Ongoing care for the balance of 
their lives is delivered through the VA healthcare system, and not 
through these concentrated active duty centers.
    Many reports indicate the state of the art technology available at 
DoD sites is not available from the average VA Medical Center. With so 
much focus on ``seamless transition'' from active duty to civilian life 
for veterans, this is one critical area where VA cannot afford to lag 
beyond the advancements reaching service members at DoD sites. If a 
veteran can receive a state of the art artificial limb at the new 
Walter Reed National Military Medical Center (WRNMC) they should be 
able to receive the exact same treatment when they return home to the 
VA Medical Center in their home community, be it in Gainesville, Battle 
Creek, or Fort Harrison.
    American Legion contact with senior VA healthcare officials has 
concluded that while DoD concentrates their treatment in a small number 
of facilities, the VA is tasked with providing care at 152 major 
medical centers and over 1,700 total facilities throughout the 50 
states as well as in Puerto Rico, Guam, American Samoa and the 
Philippines. Yet, VA officials are adamant their budget figures are 
sufficient to ensure a veteran can and will receive the most cutting 
edge care wherever they choose to seek treatment in the system.
    The American Legion remains concerned about the ability to deliver 
this cutting edge care to our amputee veterans, as well as the ability 
of VA to fund and drive top research in areas of medicine related to 
veteran-centric disorders. There is no reason VA should not be seen as 
the world's leading source for medical research into veteran injuries 
such as amputee medicine, PTSD and TBI.
    In FY 2011 VA received a budget of $590 million for medical and 
prosthetics research. Only because of the efforts of the House and 
Senate was this budget kept at that level during the FY 2012 and 2013 
budgets, due to significant pressure from The American Legion. Even at 
this level, The American Legion contends this budget must be increased, 
and closely monitored to ensure the money is reaching the veteran at 
the local level.

Medical Care Collections Fund (MCCF)

    In addition to the aforementioned accounts which are directly 
appropriated, medical care cost recovery collections are included when 
formulating the funding for VHA. Over the years, this funding has been 
contentious because they often included proposals for enrollment fees, 
increased prescription rates, and other costs billed directly to 
veterans. The American Legion has always ardently fought against these 
fees and unsubstantiated increases.
    Beyond these first party fees, VHA is authorized to bill healthcare 
insurers for nonservice-connected care provided to veterans within the 
system. Other income collected into this account includes parking fees 
and enhanced use lease revenue. The American Legion remains concerned 
that the expiration of authority to continue enhanced use leases will 
greatly impact not only potential revenue, but also delivery of care in 
these unique circumstances. We urge Congress to reauthorize the 
enhanced use lease authority with the greatest amount of flexibility 
allowable.
    In May 2011, the VA Office of Inspector General (OIG) issued a 
report auditing the collections of third party insurance collections 
within MCCF. Their audit found that ``VHA missed opportunities to 
increase MCCF by . . . 46 percent.'' Because of ineffective processes 
used to identify billable fee claims and systematic controls, it was 
estimated VHA lost over $110 million annually. In response to this 
audit, VHA assured they'd have processes in place to turn around this 
trend.
    Yet even if those reassurances were met, the MCCF collection would 
not meet the quarterly loss beneath the budgeted amounts. Without those 
collections, savings must be garnered elsewhere to meet these 
shortfalls, thereby causing facility administrators and VISN directors 
to make difficult choices that ultimately negatively impact veterans 
through a lack of hiring, delay of purchasing, or other savings 
methods.
    It would be unconscionable to increase this account beyond the 
previous levels that were not met. To do so without increasing co-
payments or collection methods would be counterproductive and mere 
budget gimmickry. While we recognize the need to include this in the 
budget, The American Legion cannot be part of a budget that penalizes 
the veteran for administrative failures.

Appropriations for FY 2015

    The remainder of the accounts within VA are being allocated funding 
for FY 2015. These include funding for general operation of VA Central 
Office (VACO), the National Cemetery Administration (NCA) and Veteran 
Benefits Administration (VBA).

Veteran Benefits Administration

    National Commander Dellinger testified in September that when 
speaking to The American Legion National Convention in August 2010, VA 
Secretary Eric Shinseki declared VA would ``break the back of the 
backlog by 2015'' by committing to 98 percent accuracy, with no claim 
pending longer than 125 days. Over the past four years, VA has gone 
backward, not forward, in both of these key areas.
    According to VA's own figures, over 56 percent of veterans with 
disability benefits claims have been waiting longer than 125 days for 
them to be processed. In contrast, when Secretary Shinseki made his 
promise, only 37 percent of claims had been pending longer than 125 
days. The American Legion has found through its field research the 
problem varies greatly by regional office. While some regional offices 
may have an average rate of 76 days per claim, others take 336 days--a 
troubling inconsistency.
    Unfortunately, accuracy is also a problem, according to Legion site 
visits and field research. VA's own accuracy metrics place the rate in 
the 90s. The American Legion's Regional Office Action Review (ROAR) 
team typically finds a higher error rate, sometimes up to two thirds of 
all claims reviewed.
    VA is hopeful that the Veterans Benefits Management System (VBMS) 
will eliminate many of the woes that have led to the backlog, but 
electronic solutions are not a magic bullet. Without real reform for a 
culture of work that places higher priority on speed rather than 
accuracy, VA will continue to struggle, no matter the tools used to 
process claims.
    The American Legion has long argued that VA's focus on quantity 
over quality is one of the largest contributing factors to the claims 
backlog. If VA employees receive the same credit for work, whether it 
is done properly or improperly, there is little incentive to take the 
time to process a claim correctly. When a claim is processed in error, 
a veteran must appeal the decision to receive benefits, and then wait 
for an appeals process that may take months and months to resolve and 
possibly years before delivery of the benefit.
    The American Legion believes VA must develop a processing model 
that puts as much emphasis on accuracy as it does on the raw number of 
claims completed. America's veterans need to have confidence in the 
work done by VA.
    The VBMS system could allow VA to develop more effective means of 
processing claims, such as the ability to separate single issues that 
are ready to rate, starting a flow of relief to veterans while more 
complex medical issues are considered and decided.

Information Technology

    In addition to the VBMS system, the greatest long awaited project 
is the launch of the joint VA and Department of Defense (DoD) lifetime 
record--Virtual Lifetime Electronic Record (VLER). The American Legion 
supports a single unified medical record for military members and 
veterans. \3\  We have heard from VA that this initiative is still 
vital and an important piece of their overall solution, but The 
American Legion remains concerned that DoD has yet to commit to 
ensuring this project is completed.
---------------------------------------------------------------------------
    \3\ Resolution 42-2012 ``Virtual Lifetime Electronic Record''
---------------------------------------------------------------------------
    During the previous budgeting, VA was unable to provide information 
on the overall cost of creating such a system, but assured veteran 
advocates there was enough flexibility to address any costs associated 
with the project. In the meantime, several releases and announcements 
have been issued by VA towards the continued evolution of this project, 
but there is little to demonstrate we're any closer to producing a 
ready model. The American Legion calls upon Congress to continue to 
pressure VA and DoD to move towards this system as expeditiously as 
possible. With the development and launch of VBMS nearly complete, the 
entire IT focus should center on VLER.
    In order to provide the necessary resources for the nationwide 
rollout of VBMS and still maintain efforts towards development of VLER, 
The American Legion believes a small increase is justified within IT.

Major and Minor Construction

    After two years of study the VA developed the Strategic Capital 
Investment Planning (SCIP) program. It is a ten-year capital 
construction plan designed to address VA's most critical infrastructure 
needs within the Veterans Health Administration, Veterans Benefits 
Administration, National Cemetery Administration, and Staff Offices.
    The SCIP planning process develops data for VA's annual budget 
requests. These infrastructure budget requests are divided into several 
VA accounts: Major Construction, Minor Construction, Non-Recurring 
Maintenance (NRM), Enhanced-Use Leasing, Sharing, and Other Investments 
and Disposal. The VA estimated costs were between $53 and $65 billion.
    The American Legion is very concerned about the lack of funding in 
the Major and Minor Construction accounts. Based on VA's SCIP plan, 
Congress underfunded these accounts. Clearly, if this underfunding 
continues VA will never fix its identified deficiencies within its 10-
year plan. Indeed, at current rates, it will take VA almost sixty years 
to address these current deficiencies.
    The American Legion also understands there is a discussion to refer 
to SCIP in the future as a ``planning document'' rather than an actual 
capital investment plan. Under this proposal, VA will still address the 
deficiencies identified by the SCIP process for future funding requests 
but rather than having an annual appropriation, SCIP will be extended 
to a 5-year appropriation, similar to the appropriation process used by 
the Department of Defense as its construction model. Such a plan will 
have huge implications on VA's ability to prioritize or make changes as 
to design or project specifications of its construction projects. The 
American Legion is against this 5-year appropriation model and 
recommends Congress continue funding VA's construction needs on an 
annual appropriations basis.
    The American Legion recommends Congress adopt the 10-year action 
plan created by the SCIP process. Congress must appropriate sufficient 
funds to pay for needed VA construction projects and stop underfunding 
these accounts. In FY 2015 Congress must provide increased funding to 
those accounts to ensure the VA-identified construction deficiencies 
are properly funded and these needed projects can be completed in a 
timely fashion.

State Veteran Home Construction Grants

    Perhaps no program facilitated by the VA has been as impacted by 
the decrease in government spending than the State Veteran Home 
Construction Grant program. This program is essential in providing 
services to a significant number of veterans throughout the country at 
a fraction of the daily costs of similar care in private or VA 
facilities. As the economy rebounds and states are pivoting towards 
resuming essential services, taking advantage of depressed construction 
costs, and meeting the needs of an aging veteran population, greater 
use of this grant program will continue. As our baby boomer population 
continues to transition into retirement, many more of these veterans 
are retiring to state veteran homes due to their excellent reputation 
for care and cost. The popularity of these retirement options will 
cause any surplus of space to become consumed. The American Legion 
encourages Congress to increase the funding level of this program.

National Cemetery Administration (NCA)

    No aspect of the VA is as critically acclaimed as the National 
Cemetery Administration (NCA). In the 2010 American Customer 
Satisfaction Index, the NCA achieved the highest ranking of any public 
or private organization. In addition to meeting this customer service 
level, the NCA remains the highest employer of veterans within the 
federal government and remains the model for contracting with veteran 
owned businesses.
    While NCA met their goal of having 90 percent of veterans served 
within 75 miles of their home, their aggressive strategy to improve 
upon this in the coming five years will necessitate funding increases 
for new construction. Congress must provide sufficient major 
construction appropriations to permit NCA to accomplish this goal and 
open five new cemeteries in the coming five years. Moreover, funding 
must remain to continue to expand existing cemetery facilities as the 
need arises.
    While the costs of fuel, water, and contracts have risen, the NCA 
operations budget has remained nearly flat for the past two budgets. 
Unfortunately recent audits have shown cracks beginning to appear. Due 
predominantly to poor contract oversight, several cemeteries 
inadvertently misidentified burial locations. Although only one or two 
were willful violations of NCA protocols, the findings demonstrate a 
system about ready to burst.
    To meet the increased costs of fuel, equipment, and other resources 
as well as ever-increasing contract costs, The American Legion believes 
a small increase is necessary. In addition, we urge Congress to 
adequately fund the construction program to meet the burial needs of 
our nation's veterans.

State Cemetery Grant Program

    The NCA administers a program of grants to states to assist them in 
establishing or improving state-operated veterans' cemeteries through 
VA's State Cemetery Grants Program (SCGP). Established in 1978, this 
program funds nearly 100% of the costs to establish a new cemetery, or 
expand existing facilities. For the past two budgets this program has 
been budgeted $46 million to accomplish this mission.
    New authority granted to VA funds Operation and Maintenance 
Projects at state veterans cemeteries to assist states in achieving the 
national shrine standards VA achieves within national cemeteries. 
Specifically, the new operation and maintenance grants have been 
targeted to help states meet VA's national shrine standards with 
respect to cleanliness, height and alignment of headstones and markers, 
leveling of gravesites, and turf conditions. In addition, this law 
allowed VA to provide funding for the delivery of grants to tribal 
governments for native American veterans. Yet we have not seen the 
allocation of funding increased to not only meet the existing needs 
under the construction and expansion level, but also the needs from 
operation and maintenance and tribal nation grants. Moreover, as these 
cemeteries age, the $5 million limitation must be revoked to allow for 
better management of resources within the projects.

Additional Concerns of The American Legion

Turn Military Experience Into Careers

    Servicemembers and veterans receive some of the finest technical 
and professional training in the world. Many have experience in 
healthcare, electronics, computers, engineering, drafting, air-traffic 
control, nuclear energy, mechanics, carpentry, and other fields. Many 
of these military acquired skills require some type of license or 
certificate to qualify for civilian jobs. In too many cases, this 
license or certificate requires schooling already completed through 
military training programs. The American Legion is fighting for a major 
overhaul of the licensure and certification policies as they relate to 
military job skills, on the national and state levels alike. As demand 
for qualified workers in a diverse range of occupations continues to 
grow, veterans offer skills, training, dedication and discipline that 
translate well into specialized fields and trades.
    The American Legion is working with credentialing and licensing 
agencies to help veterans receive credit for their experiences, 
maximize their abilities and move quickly into productive careers. 
While the VOW to Hire Heroes Act and the Veterans Skills to Jobs Act of 
2012 are important steps that The American Legion strongly supported 
and helped shape, they are only a good start in a long march to improve 
career opportunities for those who have served in uniform.

Ensuring Quality Care to Rural Veterans

    The American Legion's System Worth Saving task force travels the 
country to evaluate VA medical facilities and ensure they are meeting 
the needs of veterans. From November 2013 to May 2014, the task force 
has been conducting site visits to VA medical facilities and town hall 
meetings to receive feedback from local veterans who utilize VA to 
receive their healthcare.
    The Task Force, in its 10th program year, is focusing on VA's 
accomplishments and progress over the past decade, current issues and 
concerns, and VA's five-year strategic plan for several program areas. 
These areas of focus are VA's budget, staffing, enrollment/outreach, 
hospital programs (e.g. mental health, intensive care unit (ICU), long-
term services and support, homelessness programs) information 
technology and construction programs.
    During each site visit, a town hall meeting is hosted by an 
American Legion Post. The town hall meetings have consistently 
illustrated that veterans are worried VA has turned a deaf ear to their 
concerns and is intentionally ignoring their complaints. We have seen 
firsthand where VA has closed intensive care departments, downgrading 
emergency departments to urgent care clinics, or has proposed to closed 
or reconfiguring hospital services under the guise of ``realigning 
services closer to where veterans live'', such as the reconfiguration 
proposal at the VA Black Hills healthcare System, which has served the 
veterans of Hot Springs, South, Dakota for over 100 years.
    The American Legion urge Congress to evaluate VA's plan in rural 
areas and to stop VA from closing hospitals and community-based 
outpatient clinics unless existing requisite community services are 
meet or exceed that VA currently provides to veterans.

Ease the Military-to-Civilian Transition

    Unfortunately, this transition has been hampered by poor 
communication and coordination between DoD and VA. Efforts have been 
made to correct the process, which is improving, but too many veterans 
still slip through the cracks and fail to receive the benefits they 
earned and deserve or the support they need to restart their lives. 
Transition Assistance Programs (TAP) are now mandatory across all 
branches of military service, a change The American Legion commends. 
While TAP will require much fine tuning to accurately deliver what 
veterans need, implementing the program universally already is a major 
improvement.
    Current DoD policy requires new inductees to enroll in the 
eBenefits portal, which will help all future generations of veterans. 
While VA and DoD still try to iron out differences in electronic data 
systems necessary to make the Virtual Lifetime Electronic Record (VLER) 
effective, the eBenefits portal holds great promise.
    Fast-tracking the VLER program to ensure seamless transfer of 
medical records must be a top priority, and necessary funds must be 
allocated to fulfill it. The delays that have plagued this program are 
inexcusable. The American Legion urges Congress and the administration 
to work together to put the program back on track.
    While The American Legion is encouraged by the progress made in 
TAP, the program is still new and will require dedicated oversight and 
attention to ensure it is meeting the needs of the servicemembers it is 
designed to help.

Conclusion

    In conclusion, The American Legion is optimistic the President has 
proposed a budget that addresses many of the needs that the almost two 
million service members who are returning after deployments in support 
of the Global War on Terror will soon need. We're hopeful savings 
generated through downsizing of the military are leveraged against the 
need of thousands of servicemembers who are or soon will be discharged 
to create the savings. However, The American Legion has seen in 
previous years, these are not used to provide the care and benefits 
afforded to our nation's veterans. Too often while veteran advocates 
celebrate dramatically increased budgets, the veteran patient, 
claimant, or widow is left wondering where the money went.
    Our nation's veterans deserve adequate and responsible funding to 
the fullest extent possible. After over a decade of service, our newest 
era of veterans will now join the ranks of generations of their 
brothers and sisters who served in prior wars and conflicts and all are 
owed a great debt.
    The American Legion looks forward to working with the Committee, as 
well as VA, to find solutions that work for America's veterans. For 
additional information regarding this testimony, please contact Mr. 
Louis J. Celli, Jr. at The American Legion's Legislative Division, 
(202) 861-2700 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3478775158585d745851535d5b5a1a5b46531a">[email&#160;protected]</a>

                                 <all>
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
